Docket No. ________
IN THE

SUPREME COURT OF THE UNITED STATES
In re: AMR Corporation, Debtor.
JOHN KRAKOWSKI, et al.,
Petitioners,
v.
ALLIED PILOTS ASSOCIATION, et al.,
Respondents.

APPENDIX TO PETITION FOR
A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Joe D. Jacobson, Counsel of Record
Allen P. Press
Jacobson Press P.C.
222 South Central Ave., Suite 550
Clayton, MO 63105
Tel: (314) 899-9790
Email: Jacobson@ArchCityLawyers.com
Attorneys for Petitioners

i
TABLE OF CONTENTS
Court of Appeals Decision (Feb. 1, 2021) . . . . APP-1
Dec. 2019 District Court Decision
(Krakowski II). . . . . . . . . . . . . . . . . . . . . . . . . . APP-4
Oct. 2019 District Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . . APP-24
June 2018 Bankruptcy Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . . APP-60
April 2017 Bankruptcy Court Decision
(Krakowski II). . . . . . . . . . . . . . . . . . . . . . . . APP-140
Sept. 22, 2015 Bankruptcy Court Decision
(Krakowski II). . . . . . . . . . . . . . . . . . . . . . . . APP-166
Sept. 3, 2015 Bankruptcy Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . APP-190
June 2014 Bankruptcy Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . APP-219
Denial of Rehearing and
Rehearing En Banc (March 24, 2021) . . . . . APP-236
45 U.S.C. § 152 . . . . . . . . . . . . . . . . . . . . . . APP-238
11 U.S.C. § 1113 . . . . . . . . . . . . . . . . . . . . . . APP-247

APP-1
COURT OF APPEALS DECISION
Krakowski v. Allied Pilots Association, 834 Fed.
Appx. 660, 2021 U.S. App. LEXIS 2644, 2021 WL
319443, Appeal Nos. 19-3506 (L), 19-4378 (CON) (2d
Cir. Feb. 1, 2021).
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
IN RE: AMR CORP.,
Debtor,

No. 19-3506(L)
No. 19-4378(CON)

JOHN KRAKOWSKI, et al.,
Plaintiffs-Appellants

D.C. No. 17-CV-03237
(KMW)

v.
ALLIED PILOTS ASSOC.,
AMERICAN AIRLINES, INC.
Defendants-Appellees.

D.C. No. 18-cv-06187
(LAK)
UNPUBLISHED
OPINION

Appeal from the United States District Court
for the Southern District of New York
District Judges Kimba Wood and Lewis A. Kaplan
February 1, 2021
Before Circuit Judges Amalya L. Kearse, Pierre N.
Leval, Raymond J. Lohier, Jr.

APP-2
SUMMARY ORDER
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgments of the District Court are AFFIRMED.
The Plaintiffs-Appellants are pilots formerly
employed by Trans World Airlines, Inc. (“TWA”) and
now employed by American Airlines, Inc. They appeal
from both an October 2, 2019 judgment of the District
Court (Kaplan, J.) and a December 18, 2019 judgment
of the District Court (Wood, J.). Each judgment affirmed orders entered by the United States Bankruptcy
Court for the Southern District of New York (Lane,
B.J.) granting summary judgment in favor of Allied
Pilots Association (“APA”) and American Airlines on
some claims and dismissing all other claims on a
motion to dismiss. The Plaintiffs-Appellants claimed
that APA, the union representing all American Airlines
pilots, including legacy TWA pilots, breached its duty
of fair representation, and that American Airlines
colluded in that breach. We assume the parties’ familiarity with the underlying facts and prior record of
proceedings, to which we refer only as necessary to
explain our decision.
We affirm the dismissals of the Plaintiffs-Appellants’ claims against APA and American Airlines for
substantially the reasons stated (a) by the Bankruptcy
Court in its opinions and orders entered June 3, 2014,
September 3, 2015, September 22, 2015, April 14, 2017,
and June 12, 2018, (b) by Judge Kaplan in his opinion
and order dated October 2, 2019, and (c) by Judge
Wood in her opinion and order dated December 17,
2019.

APP-3
We have considered the Plaintiffs-Appellants’
remaining arguments and conclude that they are without merit. For the foregoing reasons, the judgments of
the District Court are AFFIRMED.

APP-4
DEC. 2019 DISTRICT COURT DECISION
(Krakowski II)
Krakowski v. American Airlines, Inc., 610 B.R. 714,
2019 U.S. Dist. LEXIS 218479, 2019 WL 6879517, Case
No. 17-CV-03237 (S.D.N.Y. Dec. 17, 2019).
UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
JOHN KRAKOWSKI, et al.,
Plaintiffs-Appellants

No. 17-CV-03237
(KMW)

v.
ALLIED PILOTS ASSOC.,
AMERICAN AIRLINES, INC.
Defendants-Appellees.

UNPUBLISHED
OPINION

Appeal from the United States Bankruptcy Court
for the Southern District of New York
Bankruptcy Judge Sean H. Lane
December 17, 2019
Before District Judge Kimba M. Wood
OPINION & ORDER
John Krakowski, Kevin Horner, and M. Alicia Sikes
(together, the “Appellants”) are pilots, currently
employed by American Airlines, Inc. (“American”) and
represented by the Allied Pilots Association (“APA”).

APP-5
They were employed by Trans World America (“TWA”)
until it merged with American. In the adversary bankruptcy proceeding below, they bring several claims
arising from American’s and APA’s treatment of former
TWA pilots during and after the American-TWA
merger.
In a pair of decisions, the Bankruptcy Court, Hon.
Scan H. Lane, dismissed all of Appellants’ claims, as
follows: (1) a breach of contract claim against American, for failure to state a claim; (2) a breach of duty of
fair representation claim against APA, as procedurally
barred, under the law of the case doctrine, by the
Bankruptcy Court’s prior dismissal of an identical
claim in a separate adversary proceeding between the
same parties; and (3) a claim that American colluded
in APA’s breach of the duty of fair representation,
because plaintiffs did not have a viable duty of fair
representation claim, and, in any event, failed to
adequately allege collusion.
Appellants now appeal from the Bankruptcy Court’s
orders dismissing their claims. For the following
reasons, the decisions of the Bankruptcy Court are
AFFIRMED.
BACKGROUND
I. Relevant Facts
Appellants are former TWA pilots who currently fly
for American. (Second Amended Complaint (“SAC”)
¶ 8.) In April 2001, American acquired TWA’s assets.
(Id. ¶ 16.) In November 2001, American and APA
executed a document called “Supplement CC”, which
merged the former TWA pilots into American’s pilot

APP-6
seniority list. (Id. ¶ 17.) Under Supplement CC, former
TWA pilots were integrated into American’s seniority
list with none or a fraction of the seniority they had
earned at TWA. (Id. ¶¶ 18-19.) To compensate the
former TWA pilots for their loss of seniority, Supplement CC established what the parties call a “protective
fence” in TWA’s former hub of St. Louis, Missouri. The
“fence” guaranteed a certain number of captain and
first officer positions for St. Louis-based former TWA
pilots, and thus permitted former TWA pilots to fly
St. Louis-based routes that would otherwise be unavailable due to their reduced seniority. (Id. ¶ 19-20.)
Supplement CC was a supplement to American’s
then-existing collective bargaining agreement with
APA (the “Old CBA”). When American and APA agreed
to Supplement CC, the former TWA pilots were not
represented by APA. They were represented by a different union. (Id. ¶ 27.) After the acquisition, however,
the former TWA pilots became part of the bargaining
unit of American pilots represented by APA. (Id. ¶ 29.)
Roughly a decade later, in November 2011, American filed for bankruptcy. (Id. ¶ 34.) As part of the
bankruptcy proceedings, the Bankruptcy Court granted
American’s request to abrogate the Old CBA. (Id. ¶ 36.)
The Old CBA and its supplements, including Supplement CC, became null and void as of September 5,
2012. (Id. ¶ 37.)
In the course of negotiating a replacement collective
bargaining agreement, American and APA signed a

APP-7
letter of agreement called “LOA 12-05”.1 It had two
main provisions. First, the seniority list established by
Supplement CC would remain in place, notwithstanding the termination of Supplement CC. (LOA 12-05 at
1, Appendix to Appellants’ Opening Brief (“App’x”) at
134). Second, the protective “fence,” which gave preferential flying rights to former TWA pilots on St. Louisbased routes, would not remain in place. (SAC ¶ 39.)
APA and American agreed to appoint an arbitrator to
decide how to compensate the former TWA pilots for
the loss of the “fence.” The parties agreed that the
arbitrator would not be permitted to revise the seniority list established by Supplement CC but could award
other types of compensation. (LOA 12-05 at 1.)
II. Procedural History
Appellants have brought many cases against American and APA, several of which are now adversary proceedings in American’s bankruptcy case. The parties
refer to these adversary proceedings, chronologically by
date of filing, as Krakowski I and Krakowski II. The
earlier case is Krakowski I. See Krakowski v. Am. Airlines, Inc. (In re AMR Corp.), Case No. 11-15463, Adv.
Proc. No. 13-01238 (Bankr. S.D.N.Y.) [hereinafter Krakowski I]. The instant matter is known as Krakowski
II. See Krakowski v. Am. Airlines, Inc. (In re AMR
1

Although Appellants did not include the New CBA in their
appendix on appeal, they appended it to the First Amended
Complaint. The Bankruptcy Court properly considered the New
CBA and its supplements, including LOA 12-05, in deciding APA’s
motion to dismiss. See In re AMR Corp., 538 B.R. 213, 217 (Bankr.
S.D.N.Y. 2015) (citing Cortec Indus. Inc. v. Sum Holding L.P., 949
F.2d 42, 47 (2d Cir. 1991)).

APP-8
Corp.), Case No. 11-15463, Adv. Proc. No. 14-01920
(Bankr. S.D.N.Y.) [hereinafter Krakowski II].2 A brief
description of the proceedings in Krakowski I and
Krakowski II follows.3
a. Proceedings in Krakowski I
Krakowski I was initially filed in the Eastern
District of Missouri in 2012. See Krakowski I, 927 F.
Supp. 2d 769, 771 (E.D. Mo. 2013). It was transferred
to the Bankruptcy Court for the Southern District of
New York on March 4, 2013. Id. at 776.
In Krakowski I, Appellants claimed APA breached
its duty of fair representation to former TWA pilots by
agreeing, in the New CBA, to compensate former TWA
pilots for the loss of the protective “fence” via an arbitration procedure that could not modify the unfair
seniority list established by Supplement CC. Appellants also claimed American colluded in this breach.
See Krakowski I, 199 L.R.R.M. (BNA) 3584, 2014
Bankr. LEXIS 2610, 2014 WL 2508729, at *4-6 (Bankr.
S.D.N.Y. June 3, 2014).
On June 3, 2014, the Bankruptcy Court dismissed
the complaint for failure to state a claim, reasoning
that APA’s agreement not to modify the seniority list
2

There is a third case, which the parties call Krakowski III,
but it is not relevant to the present appeal. See Krakowski v. Am.
Airlines (In re AMR Corp.), Case No. 11-15463, Adv. Proc. No.
16-01138 (Bankr. S.D.N.Y.).

3

For clarity, all filings in these cases, regardless of the court
in which they were filed, are cited as “Krakowski I” or “Krakowski
II.”

APP-9
when negotiating the New CBA did not breach APA’s
duty of fair representation. See id. On October 2, 2019,
the District Court, Hon. Lewis Kaplan, affirmed the
Bankruptcy Court’s dismissal of the complaint.4 See
Krakowski I, 610 B.R. 434, 2019 U.S. Dist. LEXIS
171319, 2019 WL 4857640, at *7 (S.D.N.Y. Oct. 2,
2019) (Kaplan, J.).
b. Proceedings in Krakowski II
The instant case, Krakowski II, was initially filed in
the Eastern District of Missouri on May 1, 2013. (App’x
at 9-19). Appellants filed their First Amended Complaint six days later, on May 7, 2013. (First Amended
Complaint (“FAC”), App’x at 20-31.). Thereafter, the
case was transferred to the Southern District of New
York on motion of the defendants, where it was referred to the Bankruptcy Court. (App’x at 8.)
The First Amended Complaint in Krakowski II
made three claims. In Count One, Appellants alleged
that American breached the New CBA by placing
former TWA pilots on American’s seniority list according to Supplement CC, rather than crediting them for
seniority they earned at TWA. (FAC ¶¶ 36-45.) In
Count Two, Appellants alleged that APA breached its
duty of fair representation by agreeing to continue to
use the seniority list established by Supplement CC,
which violated the New CBA; was unfair to former
TWA pilots; and treated former TWA pilots worse than
4

Judge Kaplan also affirmed several other decisions of the
Bankruptcy Court that are not directly relevant to the appeal now
before the Court. See Krakowski I, 2019 U.S. Dist. LEXIS 171319,
2019 WL 4857640, at *6-13.

APP-10
the pilots of other airlines acquired by American. (Id.
¶¶ 43-50.) In Count Three, Appellants alleged that
American colluded with APA in APA’s breach of the
duty of fair representation. (FAC ¶ 52-54.)
On September 22, 2015, the Bankruptcy Court
partially granted Appellees’ motions to dismiss the
First Amended Complaint. Krakowski II, 538 B.R. 213,
215 (Bankr. S.D.N.Y. 2015). The Bankruptcy Court
dismissed Count One, the breach of contract claim
against American, for failure to state a claim, reasoning that Appellants’ argument was incompatible with
the plain language of the New CBA. Id. at 218-22. The
Bankruptcy Court permitted Appellants to proceed
with Count Two, the duty of fair representation claim
against APA, but only to the extent the claim was
based on the alleged unfairness of the seniority list
established by Supplement CC, and only as it pertained to the narrow time period after the Old CBA was
abrogated but before the New CBA was executed.5 Id.
at 223-24. The Bankruptcy Court warned Appellants
that they would be duplicating their claims in Krakowski I if they argued that APA breached its duty of fair
representation by agreeing to continue Supplement
CC’s allegedly unfair seniority list in the New CBA. Id.
The Bankruptcy Court granted plaintiffs leave to
amend Count Two, the duty of fair representation
claim, and Count Three, the accompanying claim that
5

In a subsequent conference, the Bankruptcy Court confirmed that Count Two survived only in relation to this discrete time
period, when “the old CBA was abrogated … and before there was
a new CBA.” Krakowski II, 567 B.R. 247, 253 (Bankr. S.D.N.Y.
2017).

APP-11
American colluded in APA’s breach of its duty of fair
representation. Id. at 223-24.
On October 22, 2015, Appellants filed their Second
Amended Complaint. (App’x at 219-28). The Bankruptcy Court dismissed the Second Amended Complaint on
April 14, 2017. See Krakowski II, 567 B.R. 247, 250
(Bankr. S.D.N.Y. 2017). The Bankruptcy Court found
that Appellants’ amended duty of fair representation
claim pertained only to APA’s agreement to the New
CBA, rather than to the narrow time period between
the Old CBA and the New CBA. Id. at 254-58. The
claim, as pled, was essentially identical to the parallel
claim in Krakowski I, which the Bankruptcy Court had
already dismissed. Appellants’ duty of fair representation claim in Krakowski II was accordingly dismissed
under the law of the case doctrine. Id. at 258. Appellants’ accompanying claim that American colluded in
APA’s breach of its duty of fair representation was also
dismissed. Id. The court also noted that Appellants
failed to allege any acts by American that would be
legally sufficient to prove that it colluded with APA in
a breach of the duty of fair representation. Id. at
258-60.
Appellants appealed the Bankruptcy Court’s dismissals of the First Amended Complaint and Second
Amended Complaint to this Court on April 28, 2017.
(App’x at 414-16.)
LEGAL STANDARD
When hearing an appeal from an order of the Bankruptcy Court, this Court reviews the Bankruptcy
Court’s findings of law de novo and its findings of fact

APP-12
for clear error. See In re Bayshore Wire Prods. Corp.,
209 F.3d 100, 103 (2d Cir. 2000). The Bankruptcy
Court’s decisions regarding the management of its
docket are reviewed for abuse of discretion. See In re
Fletcher Intern. Ltd., 536 B.R. 551, 557 (S.D.N.Y. 2015)
(Sullivan, J.). This Court may affirm on any ground
supported by the record, not just the ones relied upon
by the Bankruptcy Court. See Freeman v. Journal
Register Co., 452 B.R. 367 369 (S.D.N.Y. 2010) (Koehl,
J.).
A complaint must be dismissed if it fails to state a
claim upon which relief can be granted. Fed. R. Civ. P.
12(b)(6); see also Fed. R. Bankr. P. 7012. “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.” Aschroft v. Iqbal,
556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)). “A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Id. (citing Twombly, 550 U.S. at
556).6
Where a complaint alleges that a union has violated
its duty of fair representation, the District Court has a

6

Appellants’ assertion that this case is governed by the “no
set of facts” standard set forth in Conley v. Gibson, 355 U.S. 41, 78
S. Ct. 99, 2 L. Ed. 2d 80 (1957), is without merit. The Conley standard was overruled by Iqbal and Twombly and has no continuing
vitality. See Iqbal, 556 U.S. at 670.

APP-13
special duty to “construe complaints so as to avoid
dismissals and … give plaintiffs the opportunity to file
supplemental pleadings unless it appears beyond doubt
that a good cause of action cannot be stated.” Eatz v.
DAIS Unit of Local Union Number 3 of Intl. Bhd. of
Elec. Workers, 794 F.2d 29, 34 (2d Cir. 1986).
“In considering a motion to dismiss for failure to
state a claim, a district court must limit itself to the
facts stated in the complaint, documents attached to
the complaint as exhibits and documents incorporated
by reference in the complaint.” Hayden v. Cty. of
Nassau, 180 F.3d 42, 54 (2d Cir. 1999).
DISCUSSION
The Bankruptcy Court properly dismissed all of
Appellants’ claims because none states a claim upon
which relief could be granted. Appellants’ claims are
reviewed in the order in which they were initially pled.
I. The Bankruptcy Court Did Not Err in Dismissing Appellants’ Breach of Contract Claim
Against American.
In Count One of the First Amended Complaint,
Appellants claim American breached the New CBA by
placing former TWA pilots on the seniority list established by Supplement CC. According to Appellants, in
order to comply with the New CBA, American should
have placed the former TWA pilots on its seniority list
according to the time they started working at TWA.
(FAC ¶¶ 36-39.) The Bankruptcy Court dismissed this
claim, holding that it “is inconsistent with the plain
language of the New CBA.” Krakowski II, 538 B.R. at
218. Appellants now argue the Bankruptcy Court

APP-14
erroneously failed to consider American’s general practices when interpreting the New CBA. (Appellants’
Opening Brief (“Op. Br.”) at 22-24, ECU’ No. 6.) Their
position is unpersuasive.
“When courts interpret CBAs, traditional rules of
contract interpretation apply as long as they are
consistent with federal labor policies. When provisions
in the agreement are unambiguous, they must be given
effect as written. Only when provisions are ambiguous
may courts look to extrinsic factors—such as bargaining history, past practices, and other provisions in the
CBA—to interpret the language in question.” Aeronautical Indus. Lodge 91 of Int’l Ass’n of Machinists and
Aerospace Workers v. United Techs. Corp., 230 F.3d
569, 576 (2d Cir. 2000) (citations omitted).
Appellants argue the New CBA required American
to place the former TWA pilots on its seniority list
according to their “Occupational Date,” a date that
Appellants claim is tied to the time the former TWA
pilots started working at TWA. Appellants allege that
Section 2(AA) of the New CBA requires a pilot’s placement on American’s seniority date be determined by
his or her “Occupational Date.” (FAC ¶ 23.) They allege
that, under American’s “general practice,” a pilot’s
“Occupational Date” is simply his or her date of hire,
plus a period of about seven weeks. (Id. ¶ 22). They
further claim “American has consistently acknowledged each former TWA pilot’s ‘Date of Hire’ as the date
they were hired by TWA.” (Id. ¶ 20.) Thus, Appellants
conclude that that American breached the New CBA
when it failed to base the former TWA pilots’ seniority
on the dates they started working at TWA, and instead

APP-15
placed them on its seniority list according to Supplement CC. (Id. ¶ 25.)
As the Bankruptcy Court correctly determined,
however, this was the very outcome that the New CBA
required. Section 13 of the New CBA sets out the New
CBA’s general seniority rules, but also provides that
“certain other rules in this Agreement stipulating
specific methods and procedures of applying system
seniority shall govern such application of system
seniority.” (Appendix to APA’s Brief (“APA App’x”) at
4.) Thus, the parties agreed that, whatever the New
CBA’s general seniority rules were, they would be
trumped by any other, more specific seniority provisions in the New CBA. One such rule was outlined in
LOA 12-05, which was incorporated into the New CBA.
(Appendix to American’s Brief (“American App’x”) at
SA000008, 10.) LOA 12-05 provides that the “TWA
Pilots’ existing seniority placements on the Pilots’
System Seniority List are final and shall continue
pursuant to Section 13 of the CBA, notwithstanding
the termination of Supplement CC and any preferential flying rights associated with those seniority placements.” (LOA 12-05 at 1.) In other words, the parties
agreed that LOA 12-05, rather than the general seniority provisions of the CBA, would govern seniority for
former TWA pilots.
Thus, rather than breaching the New CBA, American followed the New CBA’s express provisions when
it continued to use the seniority list placements established by Supplement CC, rather than ranking the
former TWA pilots according to their Occupational
Dates or Dates of Hire. Even though the Bankruptcy

APP-16
Court made this precise point when dismissing Count
One of the First Amended Complaint, Appellants’
Opening Brief makes no mention whatsoever of LOA
12-05. Thus, Appellants fail to identify any error in the
Bankruptcy court’s dismissal of their breach of contract
claim.
Even if LOA 12-05 did not trump the general
seniority provisions of the New CAA, Appellants’
claims, based on those general provisions, would still
fail. According to Appellants, American has “consistently acknowledged” that former TWA pilots’ “Date of
Hire” is the date the pilot was hired by TWA, and
American’s “general practice” was that a pilot’s Occupational Date is a date some 45 to 49 days after the
Date of Hire. (FAC §§ 20, 22.) The New CBA, however,
states that a pilot’s Occupational Date is “the date a
pilot is first scheduled to complete initial new hire
training with the Company.” (APA App’x at 3.) The
New CBA defines “Company” as “American Airlines,
Inc.” (Id. at 2.) Moreover, the New CBA defines “date
of hire” as “[t]he first day as an AA pilot.” (American
App’x at SA000027.)
These provisions unambiguously tie seniority to a
pilot’s start at American, not at any other airline. The
Court cannot look to extrinsic evidence, such as American’s past or general practices, to interpret their meaning. See Aeronautical Indus. Dist. Lodge 91, 230 F.3d
at 576. Thus, even if LOA 12-05 did not govern the
seniority of former TWA pilots (which it does), American would not have breached the New CAA by failing
to place pilots on its seniority list according to their
start dates at TWA.

APP-17
Appellants argue that the New CBA’s seniority
rules are ambiguous as applied to them, such that
extrinsic evidence may be used to discern their meaning. First, they argue the New CBA’s general seniority
rules must have been ambiguous because American did
not follow them; that is, former TWA pilots were not
placed on the seniority list according to their start date
at American. (Op. Br. at 24.) But the manner in which
American implemented the New CBA is simply more
extrinsic evidence, rather than evidence of ambiguity
in the language of the New CAA. Even if this extrinsic
evidence could be considered, it would not be persuasive. American’s reason for failing to follow the general
seniority rules of thy New CBA was not that those
rules were ambiguous; rather, it was simply that, per
LOA 12-05, American agreed not to apply those rules
to former TWA pilots.
Appellants also argue that the CBA’s requirement
that Occupational Date is tied to a pilot’s “new hire
training” is ambiguous as applied to former TWA pilots
because, as experienced pilots, they never underwent
“new hire training.” (Appellants’ Reply Brief at 16,
ECF No. 16). But this fact was not pled, and Appellants do not contest the Bankruptcy Court’s refusal to
take judicial notice of it. Nor was the Bankruptcy
Court’s decision in this regard erroneous, since Appellants failed to explain why the type of training former
TWA pilots received at American is a “fact … not
subject to reasonable dispute,” and thus suitable for
judicial notice. Fed. R. Evid, 201(b); 201(c)(2) (court
must grant party’s request for judicial notice if it is
“supplied with the necessary information”).

APP-18
Accordingly, even if the New CBA’s general seniority provisions are applicable to former TWA pilots—
and they are not—Appellants fail to state a claim for
breach of contract by arguing that American failed to
place them on its seniority list in accordance with an
Occupational Date based on their first day at TWA.7

7

American argues that, even if Appellants state a claim for
breach of contract, they may not pursue it in federal court because
they have not exhausted their contractual and administrative
remedies. (American’s Brief at 23-26, ECF No. 12.) Like the
Bankruptcy Court, this Court declines to reach the issue. See
Krakowski II, 538 B.R. at 221 n.10. Under the Railway Labor Act
(“RLA”), “minor disputes,” such as those involving the interpretation of collective bargaining agreements, must be arbitrated before
the boards of adjustment. See 45 U.S.C. §§ 153, 184. This remedy
must be exhausted before an employee can pursue a breach of
contract claim based on a collective bargaining agreement in
federal court. See Drywall Tapers and Pointers of Greater N.Y.,
Local 1974 v. Local 530 of Operative Plasterers and Cement
Masons Int’l Ass’n, 954 F.2d 69, 77 (2d Cir. 1992). An employee
need not pursue these remedies, however, if doing so “would be
wholly futile.” Id. (citing Glover v. St. Louis-San Francisco Ry. Co.,
393 U.S. 324, 330, 89 S. Ct. 548, 21 L. Ed. 2d 519 (1969). Here,
Appellants concede their breach of contract claim is a “minor
dispute.” (FAC ¶ 45.) They claim they need not pursue arbitration,
however, since most of the members of the arbitration panel would
be chosen by American or APA, rendering the process “futile.” (Id.)
Because Appellants fail to state a claim for breach of contract, the
Court need not address whether Appellants should be excused
from pursuing administrative remedies. See Peltzman v. Cent.
Gulf Lines, Inc., 497 F.2d 332, 335 n.5 (2d Cir. 1974) (district court
should address whether plaintiff employee should be excused from
exhausting RLA’s administrative remedies only if it first determines that plaintiff’s breach of contract claim is viable).

APP-19
II. The Bankruptcy Court Did Not Err in Dismissing Appellants’ Breach of Duty of Fair
Representation Claim.
In the Second Amended Complaint, Plaintiffs allege
that APA breached its duty of fair representation to the
former TWA pilots, and that American was complicit in
that breach. (SAC ¶¶ 42,44.) The Bankruptcy Court’s
dismissal of these claims was sound.
a. Appellants Fail to State a Claim that APA
Breached its Duty of Fair Representation.
Appellants claim APA violated its duty of fair representation to the former TWA pilots by agreeing, in the
New CBA, to continue to use the seniority list established by Supplement CC but without the protective
“fence” in St. Louis. (Op. Br. 16-19.) This claim is barred by both the rule against duplicative litigation and
the law of the case doctrine.
As the Bankruptcy Court explained in its September 22, 2015 Order, Appellants’ duty of fair representation claims survived dismissal only to the extent they
addressed a narrow subject: whether APA breached its
duty of fair representation by continuing to use the
allegedly unfair seniority list established by Supplement CC in the time period between the abrogation of
the Old CBA and the implementation of the New CBA.
See Krakowski II, 538 B.R. at 223-24. To the extent the
claim addressed APA’s agreement to the New CBA, it
would be duplicative of Krakowski I. See id. Despite
this guidance, Plaintiffs’ Second Amended Complaint
includes no allegations whatsoever that APA breached
its duty of fair representation in the time period

APP-20
between the two CBAs. Instead, the Second Amended
Complaint merely repeats earlier allegations that APA
breached its duty by agreeing to the terms of the New
CBA. (SAC ¶ 42.)
This claim, as pled, is barred by the rule against
duplicative litigation, which permits a federal court to
“stay or dismiss a suit that is duplicative of another
federal court suit.” Sacerdote v. Cammack Larhette
Advisors, LLC, 939 F.3d 498, 505 (2d Cir. 2019) (citing
Curtis v. Citibank, N.A., 226 F.3d 133.138 (2d Cir.
2000)). This is because “plaintiffs may not file duplicative complaints in order to expand their legal rights.”
Curtis, 226 F.3d at 140.8 The rule applies where a suit
features the same parties or interests, rights asserted,
relief prayed for, factual basis, and “essential” legal
basis, as a suit already pending in federal court. Sacerdote, 939 F.3d at 506 (citing The Haytian Republic, 154
U.S. 118, 124, 14 S. Ct. 992, 38 L. Ed. 930 (1894)). Such
is the case here. In Krakowski I, Appellants “allege[d]
that the APA breached its duty of fair representation
by agreeing to terminate Supplement CC and to limit
any potential relief from altering the seniority of legacy
TWA pilots.” Krakowski I, 2019 U.S. Dist. LEXIS
171319, 2014 WL 2508729, at * 4. This is essentially
the same claim Appellants make in the instant matter:
in both suits, Appellants allege the APA breached its
duty of fair representation by agreeing to use the
seniority list established by Supplement CC, without
8

Sacerdote and Curtis refer to the authority of a federal
District Court to manage lawsuits that are duplicative of suits
already pending in other District Courts. The Court is of the
opinion that Bankruptcy Courts have the same authority.

APP-21
the possibility of revising it, and without the benefit of
the “fence.” Thus, Appellants have duplicated their
claims in Krakowski I. The Bankruptcy Court did not
err in ordering Appellants to narrow their claims to
avoid duplication, or by dismissing their claims when
they failed to follow its clear guidance.
In addition to being barred by the rule against
duplicative litigation, Appellants’ claims alternatively
fail under the law of the case doctrine. This is because
the Krakowski I court considered and dismissed the
claim that Appellants duplicate in the instant proceedings. The law of the case doctrine provides that “[w]hen
a court decides upon a rule of law, that decision should
continue to govern the same issues in subsequent
stages in the same case.” Arizona v. California, 460
U.S. 605, 618, 103 S. Ct. 1382, 75 L. Ed. 2d 318 (1983).
In Krakowski I, the Bankruptcy Court dismissed
Appellants’ duty of fair representation claim against
APA, reasoning that APA had no obligation to prioritize the former TWA pilots over other American pilots
in the “zero sum game” of seniority when it negotiated
the New CBA. See Krakowski I, 2019 U.S. Dist. LEXIS
171319, 2014 WI. 2508729, at * 4; see also Krakowski
I, 536 13.R. at 371-72 (confirming dismissal of Appellants’ duty of fair representation claim). Although
Krakowski I is, of course, a different adversary proceeding than the one now before the court, “[c]ourt
have held that the law-of-the-case doctrine applies to
different adversary proceedings filed within the same
main bankruptcy case.” In re Motors Liquidation Co.,
590 B.R. 39, 62 (S.D.N.Y. 2018) (Furman, J.) (quotation
marks omitted); see also In re PCH Assocs., 949 F.2d
585, 592 (2d Cir. 1991) (noting that law of the case

APP-22
doctrine “has application to different lawsuits between
the same parties”). Thus, the Bankruptcy Court’s earlier ruling on APA’s duty of fair representation to the
former TWA pilots during the negotiation of the New
CBA is the law of the case, and it governs the instant,
nearly-identical claims.
b. Appellants Fail to State a Claim that American Colluded in APA’s Breach of its Duty of Fair
Representation.
Because Appellants fail to state a claim that APA
breached its duty of fair representation, they necessarily fail to state a claim that American colluded in
any such breach. See Flight Attendants in Reunion v.
Am. Airlines, Inc., 813 F.3d 468, 475 (2d Cir. 2016).9
9

The Bankruptcy Court concluded that, even assuming APA
breached its duty of fair representation, Appellants’ claims would
still fail because Appellants failed to plead facts that would prove
American’s collusion in the breach. The Court declines to reach
this alternative ground for dismissal. It is well-established that a
plaintiff employee is excused from exhausting the Railway Labor
Act’s administrative remedies in pursuing a breach of contract
claim against his employer if he also claims the union breached its
duty of fair representation against him. See, e.g., O’Mara v. Erie
Lackmvanna R.R. Co., 407 F.2d 674, 679 (2d Cir. 1969). Whether
this combination of claims can render the employer liable for the
union’s breach of duty is less clear. The Second Circuit has suggested that “collusion” between a union and an employer in a union’s
breach of the duty of fair representation may give rise to liability
on the employer’s part for that breach, but it has never identified
what conduct would amount to “collusion,” or held an employer
liable on this basis. See Flight Attendants in Reunion, 813 F.3d at
475 (citing United Indep. Flight Officers, Inc. v. United Air Lines,
Inc., 756 F.2d 1274, 1283 (7th Cir. 1985)); but see Beckington v.
Am. Airlines, Inc., 926 F.3d 595, 603-610 (9th Cir. 2019) (holding

APP-23
CONCLUSION
The Bankruptcy Court’s partial dismissal of the
First Amended Complaint and dismissal of the Second
Amended Complaint are AFFIRMED.

that “collusion” cannot be the basis for an employer’s liability in
the union’s breach of its duty of fair representation). In the
absence of a viable duty of fair representation claim against APA,
the Court declines to broach the subject.

APP-24
OCT. 2019 DISTRICT COURT DECISION
(Krakowski I)
Krakowski v. American Airlines, Inc., 610 B.R. 434,
2019 U.S. Dist. LEXIS 171319, Case No. 18-cv-06187
(S.D.N.Y. Oct. 2, 2019).
UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
In re: AMR CORP.

No. 18-CV-06187
(LAK)

JOHN KRAKOWSKI, et al.,
Plaintiffs-Appellants
v.
ALLIED PILOTS ASSOC.,
AMERICAN AIRLINES, INC.
Defendants-Appellees.

UNPUBLISHED
OPINION

Appeal from the United States Bankruptcy Court
for the Southern District of New York
Bankruptcy Judge Sean H. Lane
October 2, 2019
Before District Judge Lewis A. Kaplan
MEMORANDUM OPINION
This high-flying bankruptcy appeal arises from a
dispute between three airline pilots (the “TWA pilots”),

APP-25
their labor union Allied Pilots Association (“APA”), and
their current employer American Airlines (“AA”). The
TWA pilots, who worked for Trans World Airlines, Inc.
(“TWA”) until it merged with AA, allege on behalf of a
putative class of similarly situated individuals that
APA breached its duty of fair representation throughout an arbitration process involving AA and that AA
colluded in this conduct. The United States Bankruptcy Court for the Southern District of New York (Lane,
J.) dismissed some of these claims under Rule 12(b)(6)
at the pleading stage and decided the remainder in the
defendants’ favor on summary judgment. I affirm.
Facts1
A. The TWA-AA Merger
The airline industry hit a rough patch in the early
2000s. High oil prices, an economic crisis, and changes
wrought by the terrorist attacks of 9/11 caused many
major airlines to cut back their operations or fold into
bankruptcy.2 Among the struggling carriers was TWA,
an airline with a St. Louis hub that sold many of its

1

[I] take the following facts primarily from the statements
of material facts. The TWA pilots neglected to include their
responses to AA’s statement of material facts on the record, while
AA filed that statement—but not the TWA pilots’ responses—
alongside its brief. I therefore reviewed the response statement
from the bankruptcy court’s docket. See Bkr. Ct. Docket, DI-122
(hereinafter “AA SMF”).
2

See ELM Ben-Yosef, The Evolution of the US Airline
Industry: Technology, Entry, and Market Structure—Three
Revolutions, 72 J. AIR L. & COMM. 305, 314-15 & n.64 (2007).

APP-26
assets to AA in 2001.3 At the time of the sale, TWA
employed roughly 1,300 pilots, 650 of whom were based
in St. Louis.4
APA is a union authorized to collectively bargain on
behalf of AA pilots, a group that includes, following the
sale, former TWA pilots.5 At the time of the TWA sale,
APA and AA added to their existing CBA an agreement
called “Supplement CC,” which governed the integration of the TWA pilots into AA’s workforce.6 Supplement CC specified that, for the purpose of AA’s “seniority list,” a ranking of pilots by years of experience that
has significant implications for pay and scheduling
preferences,7 the pilots would not receive credit for the
full number of years they served at TWA.8 The pilots
would, however, receive the benefit of a “protective
fence” around the St. Louis base.9 The metaphorical

3

AA SMF ¶¶ 1-2.

4

Modified Supplemental Class Action Complaint for
Damages and Declaratory Relief (“MSC”) ¶¶ 9,11 [DI 48].
5

Id. ¶ 5.

6

AA SMF ¶ 2.

7

As one website explains, “[t]he three most important
things in the airline piloting profession are seniority, seniority[,]
and seniority.” Joel Freeman, How Becoming an Airline Pilot
Works, HOWSTUFFWORKS, https://science.howstuffworks.com/
transport/flight/modern/pilot6.htm.
8

AA SMF ¶ 2.

9

Id.

APP-27
fence guaranteed former TWA pilots at that base a
certain number of captain positions and preferential
bidding rights.10
B. AA’s Bankruptcy and Subsequent CBA Negotiations
AA and its corporate parent, AMR, filed for bankruptcy in the SDNY in 2011.11 In February 2012, AA
began the process of abrogating the CBA with its
pilots, including Supplement CC, under 11 U.S.C.
§ 1113.12 It served APA with a term sheet indicating
that it would eliminate Supplement CC and close the
St. Louis base that year.13 The proposal stated that the
TWA pilots would retain their current places on the
seniority list and that AA would consider “[p]ossible
protections for TWA pilots” to replace those provided
by Supplement CC.14
APA’s board of directors at this time included two
locally selected members from each of several pilot
bases.15 In St. Louis—where around 93 percent of AA

10

Id.

11

Id. 13.

12

Plaintiffs’ Response to APA’s Statement of Material Facts,
and Their Statement of Additional Material Facts (“APA SMF”)
¶ 4 [TWA Pilot App. 143].

13

Id.

14

Id.

15

Id. ¶¶ 19-10.

APP-28
pilots formerly were of TWA—the representatives were
Keith Bounds and Doug Gabel, both TWA pilots.16
Gabel had been a union representative for over a
decade,17 and Bounds was an experienced representative as well.18
Upon receiving the term sheet from AA, APA’s
board approved a motion proposing three neutral arbitrators to decide how to protect the TWA pilots if Supplement CC were eliminated.19 The motion proposed
also that the arbitrators would be unable to make any
changes to the AA seniority list.20 APA informed its
members of this motion the day the board approved
it.21
In September 2012, the bankruptcy court granted
AA leave to abrogate the CBA, including Supplement
CC.22 Three months later, AA and APA, with significant and frequent input from Gabel and Bounds, nego-

16

Id. ¶¶ 11-12.

17

Id. ¶ 13.

18

Id. ¶ 16. At some point in 2012, Marcus Spiegel, also a
TWA pilot, replaced the term-limited Gabel. Id ¶ 17.
19

Id. ¶ 5.

20

Id. ¶ 6.

21

Id.

22

AA SMF ¶ 2.

APP-29
tiated a new CBA.23 A side letter agreement, LOA
12-05, provided that AA would have the exclusive right
to close the St. Louis base and that “a dispute resolution procedure is necessary to determine what alternative contractual rights should be provided to TWA
pilots as [a] result of the loss of flying opportunities
due to the termination of Supplement CC and the
closing of the [St. Louis] base.”24 The dispute resolution
procedure would be “final and binding interest arbitration” before a panel of three neutral arbitrators led by
Richard Bloch.25 AA and APA agreed that Bloch was a
prominent arbitrator and familiar to industry practitioners.26 LOA 12-05 provided additionally that “[t]he
arbitrators shall decide what non-economic conditions
should be provided to TWA pilots,” while specifying
that “[i]n no event shall the arbitrators have authority
to modify [AA’s seniority list] … or impose material
costs beyond training costs on [AA].”27
Gabel and Bounds approved of all the language in
LOA 12-05 except, the TWA pilots assert, the limitation on changes to the seniority list.28 They did not

23

Id. ¶¶ 4-5; APA SMF ¶¶ 18-19.

24

AA SMP ¶ 5.

25

Id. ¶ 16.

26

Id.

27

Id. ¶ 7.

28

APA SMF ¶ 20.

APP-30
object to the selection of Bloch,29 and at least Gabel
heard feedback from other TWA pilots before determining Bloch would be “a good choice.”30 APA’s membership ratified the new CBA, and the bankruptcy court
approved the CBA and LOA 12-05.31 81 percent of the
St. Louis pilots voted in favor of the CBA.32
C. The LOA 12-05 Arbitration
In January 2013, AA and APA reached a protocol
agreement for the upcoming LOA 12-05 arbitration.33
It specified that Stephen Goldberg and Ira Jaffe—both
nationally recognized arbitrators recommended to APA
by Gabel—would round out the arbitration panel.34
Gabel recommended Goldberg because he had previously ruled in favor of APA in a $23 million arbitration
against AA.35 No TWA pilot complained to Gabel about
Goldberg or Jaffe.36

29

Id. ¶ 42.

30

Id. ¶ 41.

31

Id. ¶¶ 8, 10, 60.

32

Id. ¶ 9. AA and APA agreed at the time, and agree now,
that a “yes” vote would not preclude the sort of duty of fair representation claims underlying this litigation. Id.
33

AA SMF ¶ 1.

34

Id. ¶ 12; APA SMF ¶ 51.

35

APA SMF ¶ 52.

36

Id. ¶ 53.

APP-31
The protocol agreement provided that the TWA
pilots and all other AA pilots would be represented by
separate committees with their own counsel.37 There is
no dispute that AA played no role whatsoever in selecting the committees or their counsel.38 Gabel chaired
the TWA pilots committee and selected its members—
all TWA pilots—and the committee chose as its legal
counsel John O’B. Clarke, who had argued three cases
involving the same labor statutes before the Supreme
Court, and represented the TWA pilots several other
times both before and after the arbitration.39 The AA
pilots committee included AA pilots not formerly of
TWA.40 It selected Wesley Kennedy as counsel.41 The
parties dispute whether APA influenced the selection
of counsel for both committees,42 and the TWA pilots
committee asserted at the time that Kennedy was
conflicted because he was advocating on behalf of all
AA pilots in a separate arbitration involving AA’s
merger with U.S. Airways.43 APA hired an attorney
specializing in ethics to address this concern, and the

37

AA SMF ¶ 14.

38

Id. ¶¶ 17, 20.

39

Id. ¶¶ 16, 19; APA SMF ¶¶ 25, 61-66.

40

AA SMF ¶¶ 15, 19.

41

Id.

42

APA SMF ¶ 60.

43

Id. ¶ 72.

APP-32
attorney concluded there was no conflict.44 Despite the
committee structure, APA informed the TWA pilots
well in advance that they had the right to participate
individually in the arbitration.45 Hundreds did by
attending the hearings, accessing the arbitration
materials, and making written submissions or oral
presentations.46
The arbitration began on April 2, 2013. The TWA
pilots committee submitted briefing, presented and
cross-examined witnesses, and introduced evidence
throughout.47 It argued that LOA 12-05 required the
panel to “replicate” Supplement CC’s protections.48 The
panel disagreed, reading LOA 12-05 to require “alternative” or “substitute” protections and finding that
replicating Supplement CC would be impossible
because the St. Louis base was closing.49 The TWA
pilots sought also to reassert their TWA hire dates for
the purpose of AA’s seniority list.50 Objecting, AA
pointed to LOA 12-05’s stipulation that the panel could

44

Id. ¶¶ 75, 78. AA was unaware of the allegations involving
Kennedy. AA SMF ¶ 21.
45

APA SMF ¶ 79.

46

Id. ¶¶ 87-88; AA SMF ¶ 25.

47

AA SMF ¶¶ 23-24.

48

APA SMF ¶¶ 104-07.

49

Id. ¶ 109.

50

Id. ¶ 118.

APP-33
“[i]n no event” modify the seniority list.51 The panel
agreed with AA.52 As an alternative to these proposals,
and in opposing the replication standard, the AA pilots
committee suggested that TWA pilots receive “pay
protection”—effectively, a guarantee that 340 TWA
pilots earn a captain’s salary.53 AA objected to this
proposal as exceeding the panel’s jurisdiction to “decide
what non-economic conditions” should be awarded.54
The panel agreed with AA.55
Additionally, the TWA pilots made two “procedural”
proposals for future arbitrations: that the panel
establish a “multi-party adjustment board” to resolve
disputes arising from their proposed “Revised Supplement CC,” and that TWA pilots be granted “separate
party status” in any future seniority-list negotiation.56
APA submitted a three-page brief objecting to both
proposals as outside the arbitrators’ jurisdiction based
on LOA 12-05.57 The panel disagreed with APA’s juris-

51

Id. ¶ 120.

52

Id. ¶ 122.

53

Id. ¶ 112.

54

Id. ¶ 113 (emphasis added).

55

Id. ¶ 116.

56

Id. ¶¶ 124-27.

57

Id. ¶ 124.

APP-34
dictional argument but nonetheless declined to adopt
the proposals on their merits.58
Based on the foregoing, the panel issued a unanimous merits award, the contents of which are not
detailed in the stipulations and are not relevant here.59
AA and APA, working with the TWA and AA pilots
committees, drafted contractual language to implement
the award.60
D. Procedural History
Dissatisfied with the arbitration process, the TWA
pilots filed a complaint against APA and AA in the
Eastern District of Missouri in 2012.61 The case was
transferred to this district’s bankruptcy court in 2013.62
That court dismissed the complaint with prejudice in
2014 while allowing the TWA pilots to amend certain
claims in their then-pending Modified Supplemental
Class Action Complaint for Damages and Declaratory
Relief (“MSC”).63 The primary allegation in the MSC is
that APA breached its duty of fair representation of the

58

Id. ¶ 130.

59

Id. ¶¶ 131-32.

60

Id. ¶¶ 133-34.

61

Docket No. 13-01283 (Bankr. S.D.N.Y. 2013) at 4 [TWA
Pilot App. 4].
62

Id.

63

Order at 1-2 [TWA Pilot App. 37-38].

APP-35
TWA pilots and AA colluded with APA in its alleged
breaches.
In 2015, the bankruptcy court dismissed the MSC
in part. Drawing from the MSC’s own organization, the
court explained that the single breach count relied on
ten alleged breaches.64 Treating these as effectively
separate claims, the court dismissed the claims that
APA:
1. Failed to bargain on behalf of the TWA pilots
over the abrogation of Supplement CC;
2. Agreed with AA to abrogate Supplement CC
without securing equivalent job protections;
3. Falsely represented to the bankruptcy court
that the LOA 12-05 arbitration’s purpose was to
“replicate” Supplement CC’s protections;
4. Precluded the panel from addressing the
seniority list and failed to require that the panel
“replicate” Supplement CC’s protections.65
However, the court allowed the TWA pilots to
proceed with their theories that APA:
5. Selected the arbitrators without input from
the TWA pilots;
6. Selected the arbitration participants without
such input;

64

Memorandum of Decision (“Dismissal Op.”) at 14 [TWA
Pilot App. 69] (citing MSC ¶ 48 [TWA Pilot App. 33]).
65

Id. [TWA Pilot App. 69]; MSC ¶ 48 [TWA Pilot App. 33].

APP-36
7. Selected the lawyers without such input;
8. Hired Kennedy to represent the AA pilots
despite his alleged conflicts;
9. Pursued through the AA pilots committee a
position adverse to the TWA pilots;
10. Objected to the TWA pilots committee’s
procedural proposals.66
Following discovery, the bankruptcy court found on
summary judgment for the defendants on all six
remaining claims.67 The TWA pilots timely appealed.
Discussion
“District courts … review the legal conclusions of
the Bankruptcy Court de novo, and its findings of fact
under the clearly erroneous standard.”68 I assume familiarity with the standards governing motions to dismiss
under Rule 12(b)(6) and motions for summary judgment under Rule 56.69

66

Dismissal Op. at 14 [TWA Pilot App. 69]; MSCI ¶ 48 [TWA
Pilot App. 33-34].
67

Memorandum of Decision (“Summary Judgment Op.”) at
2-3 [TWA Pilot App. 81-82].
68

See, e.g., In re Motors Liquidation Co., 428 B.R. 43, 51
(S.D.N.Y. 2010) (citing AppliedTheory Corp. v. Halifax Fund, L.P.
(In re AppliedTheory Corp.), 493 F.3d 82, 85 (2d Cir. 2007)).
69

The TWA pilots argue for a more forgiving pleading standard than Iqbal and Twombly’s plausibility test. They note that
the Supreme Court stated in Czosek v. O’Mara, a 1970 decision
predating these more recent cases, that “where the courts are

APP-37
The Supreme Court has been somewhat unclear
about the precise source of a union’s duty of fair representation.70 But there is no doubt the duty exists. For
our purposes, it is simple. To state a claim for a breach
of the duty of fair representation, plaintiffs must allege
(1) that the union’s “conduct toward a member of the
bargaining unit is arbitrary, discriminatory, or in bad
faith,” and (2) “a causal connection between the union’s
wrongful conduct and their injuries.”71 “A union’s
actions are ‘arbitrary only if, in light of the factual and
legal landscape at the time of the union’s actions, the
union’s behavior is so far outside a wide range of
reasonableness as to be irrational.”72 Mere “tactical
errors” and “even negligence” do not suffice for arbi-

called upon to fulfill their role as the primary guardians of the
duty of fair representation, complaint should be construed to avoid
dismissals.” 397 U.S. 25, 27, 90 S. Ct. 770, 25 L. Ed. 2d 21 (1970).
Nothing about this language is at odds with the plausibility test
or purports to create a different standard.
70

See Air Line Pilots Ass’n, Int’l v. O’Neill, 499 U.S. 65, 76,
111 S. Ct. 1127, 113 L. Ed. 2d 51 (1991) (describing the doctrine as
a “duty grounded in federal statutes, [for which] federal law therefore governs”).
71

White v. White Rose Food, a Div. of DiGiorgio Corp., 237
F.3d 174, 179 (2d Cir. 2001) (first quoting Marquez v. Screen
Actors Guild, Inc., 525 U.S. 33, 44, 119 S. Ct. 292, 142 L. Ed. 2d
242, and then quoting Spellacy v. Airline Pilots Ass’n–Int’l, 156
F.3d 120, 126 (2d Cir. 1998)).

72

Vaughn v. Air Line Pilots Ass’n, Int’l, 604 F.3d 703, 709 (2d
Cir. 2010) (quoting O’Neill, 499 U.S. at 67 (citation and quotation
marks omitted)).

APP-38
trariness.73 As to “discriminatory,” “‘substantial
evidence’ [must] indicate[] that [the union] engaged in
discrimination that was ‘intentional, severe, and
unrelated to legitimate union objectives.”74 “Bad faith,
which ‘encompasses fraud, dishonesty, and other intentionally misleading conduct,’ requires [well-pleaded
factual allegations] that the union acted with ‘an
improper intent, purpose, or motive.’”75
The TWA pilots argue that the bankruptcy court
failed to construe the complaint as a whole by analyzing separately the ten components of the single,
sprawling breach count.76 This argument is meritless.77
The court in fact drew its organization from the MSC

73

Id.

74

Id. (quoting Amalgamated Ass’n of St., Elec. Ry. & Motor
Coach Employees of Am. v. Lockridge, 403 U.S. 274, 301, 91 S. Ct.
1909, 29 L. Ed. 2d 473 (1971)).

75

Id. at 709-10 (quoting Spellacy, 156 F.3d at 126).

76

Appellant Br. 29-31.

77

No case to which the TWA pilots point forbids courts from
taking this approach. In fact, the Second Circuit analyzed a duty
of fair representation claim similarly in Vaughn v. Air Line Pilots
Association, International. See 604 F.3d at 710-12. Moreover, in
rejecting this argument below, the bankruptcy court asserted that
it “has examined each of the [TWA pilots’] allegations and has
found no basis for the individual claims asserted. … This assessment does not change whether those allegations are evaluated as a
whole or parsed individually.” Summary Judgment Op. at 53 n.41
[TWA Pilot App. 132] (emphasis added).

APP-39
itself,78 and the TWA pilots largely follow that framing
in their brief. As viewing the components of the alleged
breach separately is a sensible way of construing the
MSC as a whole, I do so here.
I. The Bankruptcy Court Correctly Dismissed the
First Four Claims.
The first four claims were resolved on a motion to
dismiss. The analysis that follows therefore ignores the
discovery record and assumes the allegations in the
MSC to be true.
A. Claims One and Two
Claims one and two center on the abrogation of
Supplement CC: that APA (1) failed to bargain on
behalf of the TWA pilots over the abrogation of Supplement CC, and (2) agreed to abrogate Supplement CC
without securing equivalent job protections. The bankruptcy court held APA’s alleged conduct, even if true,
could not have injured the TWA pilots because there
was no true bargaining or agreement over Supplement
CC’s termination—the court abrogated it.79 Moreover,
in taking judicial notice of the abrogation proceedings
previously before it, the court found that “APA opposed
the termination of the collective bargaining agreement
at every turn.”80

78

See MSC ¶ 48 [TWA Pilot App. 33].

79

Dismissal Op. at 14-16 [TWA Pilot App. 69-71].

80

Id. at 15.

APP-40
The TWA pilots devote a single paragraph in their
brief to each of their first two claims. As to the first,
they argue that the bankruptcy court “ignor[ed] the
fact that APA had agreed to terminate Supplement CC
before the CBA was abrogated.”81 But the bankruptcy
court observed that any “agreement” to terminate
Supplement CC “was only a piece of the negotiations”
and was not binding in any sense.82 For that reason,
APA’s decision to enter into a nonbinding agreement,
when the court itself abrogated Supplement CC, cannot
satisfy the causation requirement for a duty of fair
representation claim.
On the second claim, the TWA pilots argue that
“[a]brogation of the CBA [including Supplement CC]
did not preclude APA from negotiating with [AA] for
‘equivalent job protections.’”83 Again, this argument
fails because the bankruptcy court abrogated Supplement CC.
In effect, the TWA pilots would hold APA accountable for something it did not do. The dismissal of the
first two claims is affirmed.
B. Claim Three
Claim three fares no better. The TWA pilots allege
that APA and AA falsely told the bankruptcy court
during a hearing that the LOA 12-05 arbitration was

81

Appellant Br. 31.

82

Dismissal Op. at 15-16 [TWA Pilot App. 70-71].

83

Appellant Br. 31.

APP-41
intended to “replicate” Supplement CC’s protections.84
They appear to read “replicate” as literally as one can
—a promise to produce an exact copy of Supplement
CC’s protections. Thus, their claim is that APA and AA
misled the bankruptcy court into believing that it
would duplicate Supplement CC via arbitration, and
that the court therefore approved LOA 12-05 when it
otherwise would not have.
In rejecting this claim, the bankruptcy court relied
on the text of LOA 12-05, which, of course, had been
presented to it years earlier when it approved the
letter.85 The LOA states that the purpose of the arbitration was “determin[ing] what alternative contractual rights should be provided to TWA Pilots as a
result of the loss of flying opportunities due to [the]
termination of Supplement CC and the closing of the

84

85

MSC ¶ ¶ 22, 48(c).

Dismissal Op. at 17 [TWA Pilot App. 72]. This document
was not attached to the MSC, but the court took judicial notice of
its contents. The TWA pilots have waived any objection to this
decision by not challenging it in their brief. I find, alternatively,
that the court properly took judicial notice of the contents of the
letter. I find also that the MSC incorporated LOA 12-05 by reference. Claim three references “LOA 12-05” by name, see MSC ¶
48(c) [TWA Pilot App. 33], and the LOA is highly relevant to the
allegations throughout the MSC. “In most instances where
[incorporation by reference applies], the incorporated material is
a contract or other legal document containing obligations upon
which the plaintiff’s complaint stands or falls, but which for some
reason—usually because the document, read in its entirety, would
undermine the legitimacy of the plaintiff’s claim—was not
attached to the complaint.” Glob. Network Commc’ns, Inc. v. City
of New York, 458 F.3d 150, 157 (2d Cir. 2006).

APP-42
[St. Louis] base.”86 The court observed also that the
word “replicate” appears nowhere in LOA 12-05, and it
found impossible the premise that the arbitration was
intended to “replicate” Supplement CC because the
St. Louis base was closing and the protective fence no
longer could exist.87
The TWA pilots now argue that the bankruptcy
court erroneously dismissed their claim because literal
replication was the true meaning of LOA 12-05.88 This
argument in fact undermines their claim. The MSC
alleges that APA and AA misrepresented to the court
that the arbitration would replicate Supplement CC’s
protections. This means the MSC’s position is that the
true intent of LOA 12-05 arbitration was not literal
replication. If we agree with the TWA pilots’ current
argument that literal replication was the true meaning
of LOA 12-05, there was no misrepresentation—and
therefore no breach by APA—and their claim must be
dismissed.

86

Dismissal Op. at 17 [TWA Pilot App. 72] (citation omitted).

87

Id. at 18-19.

88

Of course, the underlying claim is that the court prior to
approving LOA 12-05 did understand it to require literal replication. This leaves the TWA pilots in the awkward position of arguing that the same court that once was duped into believing that
“replicate” should be taken literally erroneously dismissed their
claim based on its then-present belief that “replicate” should not
be taken literally, and in fact asserted that it never understood
LOA 12-05 in that way. By appealing this issue, the TWA pilots
are effectively accusing the court of misrepresenting its initial
understanding of what LOA 12-05 required.

APP-43
Even setting aside this confusion, the TWA pilots’
unnatural reading of “replicate” raises several
concerns. Chief among them is that it is utterly
implausible that APA promised to do the impossible by
building a protective fence around an AA hub that was
slated for closure. One cannot build even a metaphorical fence around something that does not exist. Agreeing with the TWA pilots would require further a belief
that APA and AA left no hint in LOA 12-05 of their
agreement to do the impossible, but instead revealed
their hidden intent in a stray comment before disclaiming that position as soon as the arbitration began.89
This is beyond implausible.90

89

In their brief, the TWA pilots attempt to add further
evidence that AA and APA intended a literal replication standard.
In their words, the evidence comes from “discovery conducted after
[the bankruptcy court’s] erroneous ruling,” Appellant Br. 32—i.e.,
facts not alleged in the MSC. They cite to statements from APA’s
general counsel, none in the text of LOA 12-05, that the arbitration would create protections “just like,” “equivalent to,” or “not
better or worse than” the prior ones. Id. (emphasis omitted). Even
if it were appropriate to consider this evidence on appeal from a
motion to dismiss—it is not—no fair-minded reader could conclude
these statements indicate that APA and AA agreed via LOA 12-05
to replicate Supplement CC. Rather, these comments indicate that
the parties believed LOA 12-05 would create, as it stated, “alternative” protections.
90

See Ashcroft v. Iqbal, 556 U.S. 662, 679, 129 S. Ct. 1937,
173 L. Ed. 2d 868 (2009) (“Determining whether a complaint states
a plausible claim for relief will, as the Court of Appeals observed,
be a context-specific task that requires the reviewing court to draw
on its judicial experience and common sense.”).

APP-44
C. Claim Four
The bankruptcy court dismissed also the claim that
APA breached its duty by precluding the arbitrators
via LOA 12-05 from addressing the seniority list and
failing to require them to “replicate” Supplement CC’s
protections. It found that even if this allegation were
true, the TWA pilots would not be entitled to relief
because the claim incorrectly assumes that the only
satisfactory remedies in arbitration were changing the
seniority list and replicating Supplement CC’s protections.91 Instead, the court found, APA’s duty was to
balance the interests of two groups of pilots, and the
TWA pilots had not alleged APA discriminated in
balancing those interests.92
To begin, the half of this claim that faults APA for
not requiring the arbitrators to impossibly “replicate”
Supplement CC fails for the same reasons noted above.
And the TWA pilots do not argue that we should read
“replicate” more reasonably for the purpose of this
claim.93 In fact, they do not advance any argument at

91

Dismissal Op. 19 [TWA Pilot App. 74].

92

Id. at 20.

93

Even if they did, the MSC alleges that the purpose of the
arbitration was resolving the “TWA pilot issue”—the hole left by
Supplement CC’s abrogation. MSC ¶ 19 [TWA Pilot App. 27]. The
TWA pilots thus cannot argue that APA’s decision to sign LOA
12-05 precluded them from finding an alternative to Supplement
CC. Moreover, “a showing that union action has disadvantaged a
group of members, without more, does not establish a breach of the
duty of fair representation” because “a union by necessity must
differentiate among its members in a variety of contexts.” Flight

APP-45
all for why the bankruptcy court’s decision to dismiss
this claim was erroneous; their argument focuses
entirely on the seniority list.94
As to APA’s agreement precluding the arbitrators
from revisiting the seniority list, the bankruptcy court
concluded that APA had no duty to demand revisiting
it through the arbitration because doing so would harm
the AA pilots by lowering their positions on the list.
While the TWA pilots find this reasoning “incorrect,”
they make no clear argument for why this is so.95
Binding precedent supports the bankruptcy court’s
holding. Under the similar facts of Flight Attendants in
Reunion v. American Airlines,96 TWA’s flight attendants were placed at the bottom of AA’s seniority list
after the two airlines merged.97 When AA and U.S. Airways agreed to merge in 2013, the AA flight attendants’ union entered into negotiations with the U.S.
Airways’ attendants’ union over integrating their

Attendants in Reunion v. Am. Airlines, Inc., 813 F.3d 468, 473 (2d
Cir. 2016) (quoting Haerum v. Air Line Pilots Ass’n, 892 F.2d 216,
221 (2d Cir. 1989)). Even construed generously, the MSC simply
does not allege the necessary “substantial evidence” that APA’s
conduct was “intentional, severe, and unrelated to legitimate
union objectives.” Id. (quoting Lockridge, 403 U.S. at 301).
94

See Appellant Br. 33-35.

95

See id.

96

813 F.3d 468.

97

Id. at 470-71.

APP-46
seniority lists.98 The U.S. Airways attendants’ union
argued that TWA attendants should be given seniority
based on their TWA dates of hire, but the AA union
threatened that the U.S. Airways attendants might not
be credited for their years with U.S. Airways if they
maintained that position.99 The unions subsequently
agreed to integrate their seniority lists, which meant
the TWA attendants would continue receiving no credit
for their TWA years.100
The TWA attendants sued for breach of the duty of
fair representation, and the Second Circuit affirmed
the lower court’s dismissal of that claim.101 Based on
the aforementioned facts, it held that “the union’s
decision not to reorder the existing seniority list at
[AA] prior to the merger and to agree to integrate the
two separate seniority lists based on each flight attendant’s ‘length of service’ cannot fairly be described as
either irrational or discriminatory, even though it ultimately, and unfortunately, disadvantaged the plaintiffs.”102 It found principally that the union could not be
held liable for merely balancing its members’ necessarily competing interests when refusing to modify its
existing seniority list in the course of negotiating the

98

Id. at 471.

99

Id.

100

Id.

101

Id. at 472-75.

102

Id. at 473-74.

APP-47
integration of that list with another.103 “[C]atapulting
the former TWA flight attendants up the [AA] seniority
list would have resulted in other [AA] flight attendants
losing their relative seniority, and such a ‘juggl[ing] [of]
the existing seniority ladder … would have exposed
[the union] to countervailing claims.”104
The TWA pilots offer no reason why APA’s decision
was irrational, discriminatory, or in bad faith.105 They
assert only that the bankruptcy court’s reasoning that
seniority is a “zero sum game” was flawed. Whether
the bankruptcy court engaged in an error of reasoning
(it did not) is insufficient for reversal on de novo
review. In any event, Flight Attendants in Reunion
makes clear that declining to modify an existing seniority list to address past grievances when negotiating the
integration of that list with another is not, without
more, a breach of the duty of fair representation. As
the TWA pilots make no effort to assert the additional
facts necessary to advance their claim, they have
waived any argument to that effect.106

103

Id. at 474.

104

Id. (quoting Haerum, 892 F.2d at 221).

105

Appellant Br. 33-35.

106

Even then, and as noted with respect to the “replicate”
theory, nothing in the MSC when construed generously in favor of
the TWA pilots suggests that APA’s decision was irrational,
discriminatory, or in bad faith, particularly when it is compared to
the factually similar decision blessed by the Second Circuit in
Flight Attendants in Reunion.

APP-48
Nothing about this analysis changes when these
four claims are viewed in the context of the entire
MSC. The dismissal order is affirmed.
II. The Bankruptcy Court Correctly Entered Summary Judgment for APA on the Remaining Six Claims.
The remaining six claims were resolved in AMA’s
favor in a summary judgment order. While the parties
agree largely on the basic facts, there are several
purported questions of material fact that the bankruptcy court resolved in its opinion. I introduce them
where relevant in the sections that follow, mindful that
I review the bankruptcy court’s fact finding for clear
error.107
A. Claims Five, Six, Seven, and Eight
As alleged in the MSC, claims five through eight
charge APA with:
5. Selecting the arbitrators without input from
the TWA pilots;
6. Selecting the arbitration participants without
such input;
7. Selecting the lawyers without such input;
8. Hiring Kennedy to represent the AA pilots
committee as counsel despite his alleged conflicts.
Each of these claims turns on APA’s alleged role in
setting up the arbitration process. None is meritorious.
What follows is akin to a “greatest hits” version of their
107

In re Motors, 428 B.R. at 51 (citing In re AppliedTheory,
493 F.3d at 85).

APP-49
defects, a more comprehensive discussion of which is
found in the bankruptcy court’s opinion.
The TWA pilots have abandoned claim five by not
advancing in their appellate brief any argument that
the bankruptcy court resolved the claim erroneously
against them. In addition, however, the TWA pilots’
own stipulations defeat the claim. The parties agree
that Gabel and Bounds, the TWA pilots’ union representatives, approved of LOA 12-05’s language naming
Bloch as lead arbitrator. Gabel in fact determined
Bloch would be “a good choice” after hearing feedback
from other TWA pilots. Gabel himself recommended
the remaining two arbitrators, one of whom had ruled
in APA’s favor in a $23 million arbitration against AA.
Despite these stipulations, the TWA pilots theorize
that APA controlled the TWA pilots committee and,
thus, that the selection of the panel should be attributed to APA. The bankruptcy court found “no evidence
to support [the] assertions that APA in some way
controlled or directed the decisions made by the pilots
committees.”108 Nothing the TWA pilots argue on
appeal suggests this finding was clearly erroneous. As
there is thus no dispute of material fact that APA
played no role in the committee’s decisionmaking, no
reasonable jury could conclude that APA acted in an
arbitrary, discriminatory, or bad-faith manner with
respect to selecting the arbitrators—or that it acted at
all. Nor could a reasonable jury conclude that APA
caused the TWA pilots’ injuries by sitting on the sidelines, or even that the composition of the arbitration
panel caused any injuries to the TWA pilots.
108

Summary Judgment Op. at 22 [TWA Pilot App. 101].

APP-50
Claim six fails for similar reasons. The parties stipulate that the TWA pilots’ St. Louis union representatives chose Gabel to chair their arbitration committee.109 They stipulate also that Gabel selected the
committee members, all of whom were TWA pilots.110
It therefore is undisputed that the TWA pilots, not
APA, selected the committee members. The stipulations reveal also that APA played no role in selecting
the AA pilots committee, whose members the parties
agree were selected by an AA pilot.111 To whatever
extent these stipulations do not demonstrate APA’s
nonparticipation, the bankruptcy court expressly found
that APA did not select the committee members. As
nothing the TWA pilots argue suggests this finding
was clearly erroneous, claim six fails.112 Even then, the
TWA pilots do not argue, and no reasonable jury could
infer from this record, that the committee members
failed to perform their duties in a manner that injured
the TWA pilots. The overwhelming evidence that the
committees acted properly severs causation as a matter
of law.

109

APA SMF ¶ 24 [TWA Pilot App. 149].

110

Id. ¶ 25.

111

Id. ¶¶ 33-35; AA SMF ¶ 15.

112

Moreover, the TWA pilots stipulate that “it would not have
been fair for the former TWA pilots to participate in selecting the
members of [the] AA Pilots Committee.” APA SMF ¶ 36. That
stipulation further absolves APA with regard to the AA pilots
committee, as the TWA pilots concede APA had no duty to consider
their input in forming that committee.

APP-51
On claim seven, the TWA pilots object to a paragraph in the stipulated facts stating that each committee selected its own counsel.113 But they do in fact
concede that the committees selected their own counsel, as their only objection is to the assertion that the
committees did so without influence from APA.114
APA’s influence, they argue, stems from the allegation,
rejected above, that “[t]he TWA Pilot Committee was
formed by APA as an AD Hoc Committee of itself.”115
The court below did not clearly err by finding that the
committees chose their own counsel without APA’s
influence.116 Moreover, the TWA pilots have failed to
show causation, as they have not argued, and no
evidence suggests, that the committee’s decision to hire
experienced counsel—who represented the TWA pilots
in matters both before and after the arbitration—
caused their injuries.
Claim eight, that APA hired the allegedly conflicted
Kennedy to represent the AA pilots committee, fails for
similar reasons. The bankruptcy court found that the
AA pilots committee—not APA—hired Kennedy.117 The

113

Id. ¶¶ 61, 68.

114

Id. ¶ 61 [TWA Pilot App. 159].

115

Id.

116

Summary Judgment Op. at 21-22, 43-44 & nn. 31-32 [TWA
Pilot App. 100-01, 122-23].
117

Id. at 44 n.32 (“[N]othing presented the [TWA pilots]
suggests that APA controlled or otherwise dictated who the AA
Pilots Committee should hire as counsel.”).

APP-52
TWA pilots point to no evidence contradicting this
finding and continue resting on their argument that
APA controlled the committees. Further, although I
need not wade into Kennedy’s alleged conflicts, they
are de minimus at best, and an independent ethics
attorney advised APA that they were not disqualifying.
The TWA pilots have not explained how APA’s
supposed decision to hire Kennedy was bad-faith
conduct. And as for the previous three claims, there is
no evidence that Kennedy’s selection caused the TWA
pilots any injury or that the process would have gone
differently if the AA pilots committee had retained a
different attorney.
B. Claims Nine and Ten
The final two claims turn on APA’s alleged conduct
during the arbitration.
There is no merit to claim nine, viz, that APA
pursued, through the AA pilots committee, a position
in the arbitration designed to take jobs away from the
TWA pilots when it should have attempted to “replicate” Supplement CC’s protections. The lack of
evidence that APA controlled the AA pilots committee
is decisive. But the court below construed the claim
more generously as one that APA failed to prevent the
AA pilots committee from taking a position adverse to
the TWA pilots.118 This framing does not rescue the
claim.
When a union is “faced with two groups of its
members with objectives that [are] directly at odds …

118

Summary Judgment Op. 46-49 [TWA Pilot App. 125-28].

APP-53
[s]ubmission of the impending dispute to arbitration
[is] an equitable and reasonable method of resolving
it,” and not “arbitrary, discriminatory, in bad faith, or
wholly outside the range of reasonableness.”119 It logically follows that dividing the members into committees
is a reasonable way of working around such conflicts
when a union negotiates with a third party on behalf of
members with directly competing interests. The
premise of APA’s committee approach to the LOA
12-05 arbitration was that the TWA and AA pilots had
conflicting goals. No matter how the new CBA ultimately addressed the treatment of the TWA pilots,
there would be winners and losers. When advantages
to one group are disadvantages to another, balancing
their interests is a zero-sum game.
Viewed in this light, it is easy to see why APA had
no duty to control the committees’ bargaining positions
or to endorse the substantive positions of the TWA
pilots. If a union submits a dispute to arbitration to
avoid conflicts among its members and then advocates
on behalf of some members to the detriment of others,
that advocacy would defeat the purpose of the arbitration, and the union would expose itself to legal action
by the members it sided against.120 Agreeing with the
TWA pilots would have stranded the union between
Scylla and Charybdis—it would breach its duty of fair

119

Gvozdenovic v. United Air Lines, Inc., 933 F.2d 1100, 1107
(2d Cir. 1991).

120

That APA unfairly took sides is, of course, the premise of
this lawsuit, and of claim nine in particular.

APP-54
representation by taking sides, and it would breach it
by not taking sides.
Even if we passed the duty hurdle, the TWA pilots
have failed to show causation. The undisputed facts
indicate that the TWA pilots vigorously pursued their
positions on replicating Supplement CC’s protections
and rearranging the seniority list. That APA supporting their position would have swayed the arbitrators’
views is extraordinarily unlikely, particularly where
“replicating” Supplement CC’s protections was impossible and LOA 12-05 expressly precluded the arbitrators from ordering much of the relief the TWA pilots
sought.
Claim ten is that APA improperly objected to the
TWA pilots’ two procedural proposals. The TWA pilots
have abandoned this claim by not pursuing it in their
appellate brief. But in any event, the undisputed facts
would preclude a finding of causation. The procedural
proposals concerned future negotiations, and therefore
had no bearing on this negotiation, the results of which
form the basis of the alleged injury. Further, the TWA
pilots agree that they had a full and fair opportunity to
respond to APA’s objections.121 But most compelling of
all is that the arbitrators disagreed with APA’s objections, which were jurisdictional, and ruled against the
TWA pilots’ procedural proposals on their merits.122

121

APA SMF ¶ 86 [TWA Pilot App. 167].

122

Id. ¶ 130

APP-55
C. Remaining Claims
Although I have now gone through the TWA pilots’
entire complaint, they pursue several other claims in
their brief. The first of these is that APA breached its
duty of fair representation by failing to present an
“institutional position against [AA].”123 In effect, the
claim is that LOA 12-05 was rotten from the start—
and made rotten everything that followed—because
APA acted in “brazen bad faith” by dividing the TWA
and AA pilots into separate committees for arbitration.124 Instead, the TWA pilots argue, APA should
have resolved the differences between the two groups
internally and then argued on their collective behalf in
arbitration.
There are several problems with this theory, the
most glaring of which is that it appears nowhere in the
MSC. The bankruptcy court found that the TWA pilots
raised it for the first time in their response to the
defendants’ motions for summary judgment and accordingly held it was waived.125 It is black-letter law that
courts will not consider an argument raised for the
first time in an opposition brief.126 But to make matters
worse, the TWA pilots do not challenge the bankruptcy

123

Appellant Br. 37.

124

Id. at 39.

125

Summary Judgment Op. at 25-26 [TWA Pilot App. 104-05].

126

Wright, 152 F.3d at 178.

APP-56
court’s waiver finding in their appellate brief. They
therefore have waived their waiver argument.127
That problem aside, the TWA pilots would need to
show that the bankruptcy court abused its discretion
by declining to consider a theory raised for the first
time in an opposition to summary judgment.128 Even if
it did, the TWA pilots then would need to show that
APA acted in bad faith by dividing two conflicted
groups into separate committees, each with its own
representation and counsel.129 As explained above,
dividing union members into committees for arbitration involving a third party is, without more, not
evidence of bad faith. The TWA pilots offer no compelling evidence of bad faith. Even construing the facts
generously in their favor, the only reasonable inference
to draw from APA’s decision is that APA wanted to
127

See, e.g., EDP Med. Computer Sys., Inc. v. United States,
480 F.3d 621, 625 (2d Cir. 2007) (holding the failure to raise an
argument in an opening brief constitutes waiver).

128

See, e.g., Zann Kwan v. Andalex Grp. LLC, 737 F.3d 834,
843 (2d Cir. 2013) (“The District Court held that because the
plaintiff had never asserted a claim of hostile work environment
until her brief in opposition to the motion for summary judgment,
it would not consider the claim. We agree with the District Court
and will not address the merits of that late-asserted claim.”);
Greenidge v. Allstate Ins. Co., 446 F.3d 356, 361 (2d Cir. 2006)
(“abuse of discretion”).

129

The TWA pilots do not appear to argue that the decision
was discriminatory or arbitrary. These arguments are thus
waived, but in any event the decision was not discriminatory
because it applied equally to both groups and was not arbitrary
because APA clearly sought to mitigate the conflicts among the
TWA and AA pilots.

APP-57
avoid the obvious litigation risk that might arise from
the forced marriage of the TWA and AA pilots.
The “institutional position” argument fails also for
lack of causation. The undisputed facts demonstrate
that the TWA pilots had a full and fair opportunity to
raise their arguments at arbitration, and the arbitration panel rejected them largely because they fell outside the scope of LOA 12-05. The TWA pilots advance
no compelling argument, and no reasonable jury could
find, that any institutional position would have been
similar to their own or resulted in better relief.
The second additional claim the TWA pilots
advance is that APA failed to enforce LOA 12-05 in
various ways. This claim undergirds many of those
considered above and primarily recycles the allegation
that LOA 12-05 bound APA to “replicate” the protections of Supplement CC. The TWA pilots point to
cherry-picked statements, none from the text of LOA
12-05, that supposedly shed light on this reading.
As discussed at length, the “replicate” standard
would impossibly require APA to build a protective
fence around an airport base that soon no longer would
exist. No reasonable jury could read LOA 12-05 as
setting this goal, particularly as the word “replicate”
appears nowhere in the LOA. The actual text states
that AA and APA “agree that a dispute resolution
procedure is necessary to determine what alternative
contractual rights should be provided.”130 None of the
statements APA points to contradicts this straightforward language. Many of them in fact bolster the
130

AA SMF ¶ 5 (emphasis added).

APP-58
theory that the parties agreed to negotiate for alternative protections.”131 In these circumstances, no reasonable jury could conclude that APA violated LOA 12-05
by not pushing for the “replicate” theory or that APA’s
failure to advocate for impossible relief caused the
panel to reject it.132
III The Bankruptcy Court Correctly Entered
Summary Judgment for AA on the Collusion Claim.
The collusion claim against AA hinges on the
existence of a breach of duty by APA.133 As there was
no breach, there was no collusion to commit a breach.
Other than a lengthy string of citations supporting the
rule that an employer can be held liable when it
colludes with a union, the TWA pilots spend just four
sentences asking for reversal on the collusion claim,
the first of which admits that “[AA’s] liability, if any, is
derivative of APA’s liability.”134 Their only real argument is that we should reverse here for the same
reasons we should reverse with respect to AA.

131

See note 89, supra.

132

We need not reach the issue of whether APA had any duty
to assert itself into the arbitration proceedings once it became
apparent that AA did not read LOA 12-05 to require replication of
Supplement CC.
133

See, e.g., Flight Attendants in Reunion, 813 F.3d at 475
(“Because the plaintiffs fail to state a claim for a breach of the duty
of fair representation by [their union], the plaintiffs also fail to
state a claim that [the employer] colluded in [the union’s]
breach.”).

134

Appellant Br. 57.

APP-59
The TWA pilots state also, in half a sentence, “that
the evidence shows that [AA] had knowledge of, and
was complicit in, nearly all of the facts that demonstrate[] APA breached its [duty of fair representation].”
This assertion is cursory and includes no citation to
any supporting evidence. “Issues not sufficiently argued in the briefs are considered waived and normally
will not be addressed on appeal.”135 As the TWA pilots
make no real argument that AA colluded with APA, I
decline to make one for them.
Conclusion
The judgment appealed from is affirmed.
SO ORDERED.

135

Norton v. Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998).

APP-60
JUNE 2018 BANKRUPTCY COURT DECISION
(Krakowski I)
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 2018 Bankr. LEXIS 1726, 2018 L.R.R.M.
208039, Adv. No. 13-01283 (Bankr. S.D.N.Y. June 12,
2018).
UNITED STATES BANKRUPTCY COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
In re: AMR CORP., et al.,
Reorganized Debtors.
JOHN KRAKOWSKI, et al.,
individually and on behalf of
those similarly situated,
Plaintiffs,

Chapter 11
Case No. 11-15463
(SHL) (Confirmed)
Adv. No. 13-01283
(SHL)

v.
AMERICAN AIRLINES, INC.,
et al.,
Defendants.
June 12, 2018
Before Bankruptcy Judge Sean H. Lane

APP-61
MEMORANDUM OF DECISION
Before the Court are the Defendants’ motions for
summary judgment [ECF Nos. 111-1, 114]1 with
respect to the Plaintiffs’ modified supplemental class
action complaint filed on behalf of the Plaintiffs and all
persons similarly situated (the “Complaint”) [ECF No.
48]. Plaintiffs John Krakowski, Kevin Horner, and M.
Alicia Sikes are former Trans World Airlines (“TWA”)
pilots that are now employed by American Airlines,
Inc. (“American”). The Complaint alleges that the
Allied Pilots Association (“APA”)—the pilots’ union at
American—breached its duty of fair representation to
the Plaintiffs and that American colluded in that
breach.2
As part of American’s bankruptcy restructuring, the
company sought and received authority to reject its
then-existing collective bargaining agreement with
APA (the “Old CBA”). See Plaintiffs’ Response to American’s Statement of Material Facts (“Resp. to American
SMF”) ¶ 3 [ECF No. 122]. American subsequently
negotiated a new collective bargaining agreement with
APA (the “New CBA”) that eliminated certain job
protections that legacy TWA pilots like the Plaintiffs

1

Unless otherwise specified, references to the Case Management/Electronic Case Filing (“ECF”) docket are to this adversary
proceeding.

2

The Plaintiffs originally brought this action in the United
States District Court for the Eastern District of Missouri. The
Missouri District Court transferred the case to this Court on
March 6, 2013. See Memorandum and Order, Case No. 4:12-cv00954-JAR [ECF No. 1].

APP-62
had held under the Old CBA. See Resp. to American
SMF ¶¶ 2-4. At the same time, American and APA
entered into a letter agreement that contemplated an
arbitration proceeding to create new job protections for
these legacy TWA pilots as an alternative to those lost
under the New CBA. See Resp. to American SMF
¶¶ 4-6.
The Court has issued two prior decisions in this
adversary proceeding granting dismissal of many of the
claims asserted by the Plaintiffs against the Defendants. See Krakowski v. American Airlines, Inc. (In re
AMR Corp.), 536 B.R. 360 (Bankr. S.D.N.Y. 2015); Krakowski v. American Airlines, Inc. (In re AMR Corp.),
2014 Bankr. LEXIS 2610, 2014 WL 2508729 (Bankr.
S.D.N.Y. Jun. 3, 2014).3 The Plaintiffs’ remaining
claims allege breaches of APA’s duty of fair representation with respect to the procedures used to conduct the

3

Today’s decision is but one part of an ongoing blizzard of
litigation involving these parties. In addition to the two decisions
referenced above, the Court in this case has also issued a decision
denying the Plaintiffs’ request for a stay of the arbitration. See
Krakowski v. American Airlines, Inc. (In re AMR Corp.), 2015
Bankr. LEXIS 1721, 2015 WL 2414750 (Bankr. S.D.N.Y. May 19,
2015). Moreover, the Court has issued two opinions in another
adversary proceeding filed by these same Plaintiffs relating to
disputes between the same parties over the alternative job protections to be awarded legacy TWA pilots. See Krakowski v. American
Airlines, Inc. (In re AMR Corp.), 538 B.R. 213 (Bankr. S.D.N.Y.
2015); Krakowski v. American Airlines, Inc. (In re AMR Corp.), 567
B.R. 247 (Bankr. S.D.N.Y. 2017). Last but not least, these Plaintiffs have filed another case involving the same parties regarding
the arbitration on the alternative job protections. See Adv. No.
16-01138. This extensive litigation history will become relevant in
analyzing certain legal issues below.

APP-63
arbitration, and assert that American colluded in those
breaches. See generally Krakowski, 536 B.R. 360;
Compl. ¶¶ 48(E)-(J), 57. For the reasons set forth
below, the Court grants the Defendants’ motions for
summary judgment and denies the Plaintiffs’ related
motion to amend the Complaint. [ECF No. 134].
BACKGROUND
A. The Collective Bargaining Agreement and
Establishment of the Arbitration
In 2001, American acquired the assets of TWA. See
Resp. to American SMF ¶ 1. Shortly thereafter, American and APA executed an agreement entitled “Supplement CC” that integrated the TWA pilots into American’s pilot group. See Resp. to American SMF ¶ 2.
Supplement CC modified American’s pilot seniority list
to include the former TWA pilots, but stripped these
former TWA pilots of much of the seniority earned
while at TWA. See Resp. to American SMF ¶ 2. But it
also constructed a “protective fence” at American’s
St. Louis pilot base, which created a minimum number
of captain positions for legacy TWA pilots and provided
them with preferential bidding for first officer positions. See Resp. to American SMF ¶ 2.
In November 2011, American filed for protection
under Chapter 11 of the Bankruptcy Code. See Resp. to
American SMF ¶ 3. As part of its reorganization,
American sought and obtained the Court’s permission
to abrogate its obligations under the Old CBA, including Supplement CC, pursuant to Section 1113 of the
Bankruptcy Code. See Resp. to American SMF ¶ 3; In
re AMR Corp., 477 B.R. 384, 393-95 (Bankr. S.D.N.Y.
2012); In re AMR Corp., 478 B.R. 599, 601-02 (Bankr.

APP-64
S.D.N.Y. 2012); In re AMR Corp., 2012 Bankr. LEXIS
4168, 2012 WL 3834798 (Bankr. S.D.N.Y. Sept. 5,
2012), aff’d, 523 B.R. 415 (S.D.N.Y. 2014), aff’d, 622
Fed. App’x 64 (2d Cir. 2015). In December 2012, American and APA came to an agreement on the New CBA,
which included a side letter of agreement numbered
12-05 (“LOA 12-05”). See Resp. to American SMF
¶¶ 4-5. Later that month, the Court entered an order
approving the New CBA. See Resp. to American SMF
¶ 10.
The New CBA, including LOA 12-05, was voted on
and ratified by APA membership, including the legacy
TWA pilots. See Resp. to American SMF ¶ 8. Approximately 81% of the participating pilots at American’s
St. Louis domicile voted in favor of the New CBA. See
Resp. to American SMF ¶ 9. Significantly, about 85%
of the legacy TWA pilots at American were APA members in St. Louis at the time of the vote. See Resp. to
American SMF ¶ 9.
LOA 12-05 provided that American “will have the
right, in its sole discretion, to decide whether to close
the existing STL pilot base,” and that “a dispute resolution procedure is necessary to determine what alternative contractual rights should be provided to TWA
Pilots as a result of the loss of flying opportunities due
to termination of Supplement CC and the closing of the
STL base.”4 Resp. to American SMF ¶ 5 (quoting Am.
4

Due to American’s desire to close the St. Louis base, and
the difficult and politically charged nature of the debate that had
surrounded Supplement CC, APA’s Board of Directors (the “APA
Board”) determined that American and APA should let three
neutral arbitrators decide the protections for the affected pilots if

APP-65
Ex. A, LOA 12-05 at 1 [ECF No. 117-1]). With respect
to the dispute resolution process, LOA 12-05 stated
that the parties would “engage in final and binding
interest arbitration” in front of a panel “consist[ing] of
three neutral arbitrators who are members of the
National Academy of Arbitrators with Richard Bloch as
the principal neutral.” Resp. to American SMF ¶ 6
(quoting Am. Ex. A, LOA 12-05 at 1, 2 [ECF No.
117-1]). Under LOA 12-05, the arbitrators were to
“decide what non-economic conditions should be
provided to TWA Pilots,” but “[i]n no event shall the
arbitrators have authority to modify the Pilots’ System
Seniority List … or impose material costs beyond training costs on the Company.” Resp. to American SMF ¶ 7
(quoting Am. Ex. A, LOA 12-05 at 2 [ECF No. 117-1]).
During the relevant time period, the APA Board
was composed of two members from each of several
geographic pilot “bases,” including the St. Louis base,
who were elected by APA members at their respective
bases and served as advocates for those pilots. See
Resp. to APA SMF ¶¶ 9-10. During the period relevant
to this case, nearly all of APA’s members at the
St. Louis base—at least 93%—were legacy TWA pilots.
See Resp. to APA SMF ¶ 11. In 2012, the APA Board
members that were elected from the St. Louis base
Supplement CC were eliminated. See Plaintiffs’ Response to APA’s
Statement of Material Facts (“Resp. to APA SMF”) ¶ 5 [ECF No.
124]. The APA Board approved a motion to that effect in February
2012. See Resp. to APA SMF ¶ 5. APA posted a public message to
the pilots explaining the motion. See Resp. to APA SMF ¶ 7. American and APA ultimately agreed to resolve the issue through the
process described in the February 2012 motion, and that agreement became LOA 12-05. See Resp. to APA SMF ¶ 8.

APP-66
were Captain Keith Bounds and Captain Douglas
Gabel, both of whom were legacy TWA pilots. See Resp.
to APA SMF ¶ 12. During 2012, Captain Gabel reached
his term limit as an APA Board member and Captain
Marcus Spiegel, a legacy TWA pilot, was elected by the
St. Louis base to replace Captain Gabel. See Resp. to
APA SMF ¶ 17.
APA attorney Edgar James, Esq. negotiated the
language of LOA 12-05 on behalf of APA. See Resp. to
APA SMF ¶ 18. In doing so, he consulted frequently
with Captains Gabel, Bounds and Spiegel from the
St. Louis base. See Resp. to APA SMF ¶ 19. Indeed,
Captain Gabel “was involved in the formation of LOA
12-05 from the early drafts in February 2012 through
the final agreement.” See Resp. to APA SMF ¶ 19
(quoting Pl. Ex. 4, Decl. of Douglas J. Gabel ¶ 13 [ECF
No. 97-4]). While Captains Gabel and Bounds opposed
the limitation on changes to seniority contained in
LOA 12-05, it is undisputed that they approved all of
the other language of LOA 12-05, including the language identifying Arbitrator Bloch as the principal arbitrator. See Resp. to APA SMF ¶¶ 20, 39-40; Resp. to
American SMF ¶ 8. Additionally, American and APA
both agreed that Arbitrator Bloch should serve as the
principal arbitrator because he was a prominent Railway Labor Act arbitrator that was familiar to airline
industry practitioners. See Resp. to American SMF ¶ 6.
In January 2013, American and APA entered into
a protocol agreement regarding the LOA 12-05 arbitration (the “Protocol Agreement”). See Resp. to American
SMF ¶ 11. The Protocol Agreement stated that the
LOA 12-05 arbitration would “provide for party status
and the hearings and for substantive presentations by:

APP-67
(1) American Airlines, Inc.; (2) a representative
committee of AA Pilots … and (3) a representative
committee of TWA Pilots … .” Resp. to American SMF
¶ 14 (quoting Am. Ex. B, Protocol Agreement ¶ 1 [ECF
No. 117-2]).
The representative committee of legacy AA Pilots
(the “AA Pilots Committee”) was chaired by Captain
Mark Stephens and also included Captain Michael
Mellerski, Captain James Eaton, and Captain Drew
Engelke. See Resp. to American SMF ¶ 15. Captain
Stephens chose the other members of the AA Pilots
Committee. See Resp. to APA SMF ¶ 34. The representative committee of legacy TWA Pilots (the “TWA
Pilots Committee”) was chaired by Captain Gabel and
also included Captain Dave Williams, Captain John
Swanson, First Officer Cary Bouchard, and First
Officer Thomas Duncan, all of whom were legacy TWA
pilots. See Resp. to American SMF ¶ 16; Resp. to APA
SMF ¶ 25. Captain Gabel was chosen as the chair of
the TWA Pilots Committee by Captains Bounds and
Spiegel, the two legacy TWA pilots that were then serving as the elected representatives from the St. Louis
base. See Resp. to APA SMF ¶ 24. Captain Gabel chose
the other members of the TWA Pilots Committee. See
Resp. to APA SMF ¶ 25.
American was not consulted or otherwise involved
in selecting the members of either pilot committee or
their committee chairs, and was unaware of how committee members were chosen. See Resp. to American
SMF ¶ 17. Thus, American was not aware of the
committee members and chairs that were chosen until
after the decisions had been made. See Resp. to American SMF ¶ 17. APA budgeted $100,000 for each of the

APP-68
pilot committees but, as of October 2013, it had reimbursed the TWA Pilots Committee fees and expenses in
the amount of $532,971 and the AA Pilots Committee
in the amount of $336,657. See Resp. to APA SMF
¶ 102.
The Protocol Agreement further provided that in
addition to Arbitrator Bloch, the members of the arbitration panel would include Arbitrators Stephen Goldberg and Ira Jaffe. See Resp. to American SMF ¶ 12.
Captain Gabel suggested the appointment of Arbitrators Goldberg and Jaffe as the remaining two arbitrators and APA accepted the suggestion. See Resp. to
APA SMF ¶ 51; Resp. to American SMF ¶ 12. American subsequently accepted Arbitrators Goldberg and
Jaffe because they were nationally prominent arbitrators that were familiar to airline industry practitioners. See Resp. to American SMF ¶ 12.
B. The Arbitration Process
During the course of the arbitration, the TWA Pilots
Committee, the AA Pilots Committee and American
were each represented by separate counsel. See Resp.
to American SMF ¶ 19. The AA Pilots Committee was
represented by Wesley Kennedy, Esq., while the TWA
Pilots Committee was represented by John O’B.
Clarke, Esq. See Resp. to American SMF ¶ 19. American chose its own counsel, but was not consulted or
otherwise involved in selecting counsel for the pilot
committees, and was unaware of how the committees’
counsel were selected. See Resp. to American SMF
¶¶ 19-20. Thus, American was also unaware of who
represented the pilot committees until after the decisions had been made. See Resp. to American SMF ¶ 20.

APP-69
At some point during the arbitration, the TWA Pilots
Committee claimed that Mr. Kennedy had a conflict of
interest in representing the AA Pilots Committee, but
American was not aware of this allegation until after
the arbitration concluded. See Resp. to American SMF
¶ 21.
Prior to the commencement of the LOA 12-05 arbitration, APA emailed all pilots about the arbitration
process and gave them contact information for the
TWA Pilots Committee and the AA Pilots Committee.
See Resp. to APA SMF ¶ 79. APA also posted a document informing pilots that they had a right to participate individually in the LOA 12-05 proceeding. See
Resp. to APA SMF ¶ 79.
The LOA 12-05 arbitration began with a procedural
hearing on April 2, 2013, followed by several days of
evidentiary hearings in April and May 2013, and
closing arguments in June 2013. See Resp. to APA
SMF ¶ 80. Prior to the arbitration commencing, the
TWA Pilots Committee submitted a pre-hearing brief
of approximately 40 pages. See Resp. to American SMF
¶ 24. During the arbitration, the TWA Pilots Committee presented five witnesses and cross-examined all
witnesses called by the AA Pilots Committee and
American. See Resp. to American SMF ¶ 24. The TWA
Pilots Committee also introduced dozens of exhibits, in
addition to the joint exhibits that were submitted by
the parties. See Resp. to American SMF ¶ 24. Subsequent to the arbitration, the TWA Pilots Committee
submitted a 44-page brief in support of its proposal, as
well as a 29-page reply brief. See Resp. to American
SMF ¶ 24.

APP-70
The Plaintiffs and all other legacy TWA pilots had
access to all materials from the arbitration, including
hearing transcripts, through a website on which the
materials were promptly posted. See Resp. to APA
SMF ¶ 87. All pilots were also allowed to attend the
hearings, and Plaintiffs Sikes and Horner did so. See
Resp. to APA SMF ¶ 88. Indeed, Plaintiff Krakowski
read transcripts of the hearings and both Plaintiffs
Krakowski and Horner reviewed the briefs submitted
to the arbitrators. See Resp. to APA SMF ¶ 88.
Additionally, all affected pilots, including all legacy
TWA pilots, were allowed to present written submissions and make oral presentations to Arbitrator Bloch
in Washington, D.C. and St. Louis on May 14-15, 2013,
regarding the impact on them from the loss of Supplement CC and the St. Louis base. See Resp. to APA SMF
¶¶ 93, 96; Resp. to American SMF ¶ 25. In all, the
arbitrators received 270 written pilot submissions, and
approximately 43 of the 55 pilots that made oral
presentations were legacy TWA pilots. See Resp. to
American SMF ¶ 25. This included Plaintiff Sikes, who
endorsed the proposal made by the TWA Pilots Committee, and Keith Bounds, a St. Louis representative
who presented a statement on behalf of 120 legacy
TWA pilots. See Resp. to American SMF ¶ 25.
C. Arguments at Arbitration and Arbitrators’
Rulings
The parties focus on three substantive issues that
are relevant to the legal challenges raised regarding

APP-71
the arbitration.5 First, the TWA Pilots Committee
argued that the arbitrators should seek to “replicate”
Supplement CC’s protections, relying on a statement
previously made by APA attorney Edgar James in
court proceedings and on testimony by Captain Gabel
that the intent of LOA 12-05 was to “replicate”
Supplement CC. See Resp. to APA SMF ¶¶ 104, 106-07.
APA did not take a position on the “replicate” issue.
See Resp. to APA SMF ¶ 108. Though opposed to the
“replicate” standard, the AA Pilots Committee argued
that its proposal best satisfied that standard. See Resp.
to APA SMF ¶ 110. American objected to the TWA
Pilots Committee’s advocacy of a “replicate” standard,
arguing that it contravened the terms of LOA 12-05.
See Resp. to American SMF ¶ 28. The arbitrators
ultimately agreed, concluding that “replicate” was not
the proper standard:
the Panel does not seek to re-establish, reproduce or replicate Supplement CC or its customized preferences. Given the termination of that
document and the impending St. Louis base
closing, that effort would be both fruitless and
contrary to the manifested intent of LOA 12-05,
which is to determine ‘alternative’ rights and to
‘substitute’ for the lost preferential flying opportunities.

5

The Plaintiffs’ duty of fair representation challenge relates
to how the arbitration was conducted and not what the arbitrators
ultimately awarded. Accordingly, this decision focuses on facts
that relate to the process of the arbitration itself, not those that
relate solely to the substance of the arbitrators’ ultimate award.

APP-72
Resp. to APA SMF ¶ 109 (quoting APA Ex. 1-F, LOA
12-05 Merits Opinion at 5 [ECF No. 92-9]).
Second, the AA Pilots Committee proposed “pay
protection” for a certain number of legacy TWA pilots.
See Resp. to APA SMF ¶ 112. Under this proposal, if
fewer than 340 legacy TWA pilots were able to acquire
captain positions after the closing of the St. Louis base,
American would offer “pay protection” to the number of
legacy TWA pilots that equaled the difference between
340 and the number of legacy TWA pilots then serving
as captains. See Resp. to APA SMF ¶ 112. American
would in effect pay 340 legacy TWA pilots as if they
were captains, whether or not such individuals were
actually able to obtain captain positions. See Resp. to
APA SMF ¶ 112. American argued that this proposal
was outside the arbitrators’ jurisdiction because LOA
12-05 permitted the arbitrators only to award “noneconomic conditions,” and not to increase costs for
American. See Resp. to APA SMF ¶ 113. APA did not
take a position on the issue because, as explained by
Edgar James, “[i]t’s the company’s role to object to
additional costs. It’s not the union role.” Resp. to APA
SMF ¶ 115 (quoting APA Ex. 15, James Depo. Tr.
103:19-20, June 14, 2016 [ECF No. 111-23]).6 While the
AA Pilots Committee responded that the baseline for
measuring economic costs should be the status quo as
of the LOA 12-05 arbitration, see Resp. to APA SMF

6

The Plaintiffs deny this statement of fact because they assert
the pay protection proposal was made by the AA Pilots Committee.
But for reasons discussed more fully below, there is no evidence that
APA was responsible for the positions taken by the AA Pilots
Committee (or the TWA Pilots Committee) during the arbitration.

APP-73
¶ 114, the arbitrators indicated that they agreed with
American’s position. See Resp. to APA SMF ¶ 116.7 The
AA Pilots Committee subsequently revised its proposal,
including a more limited pay protection proposal. See
Resp. to APA SMF ¶ 117; APA Ex. 9-L, Closing Brief of
AA Pilots Committee at 11, 68 [ECF No. 111-16].
Third, the TWA Pilots Committee made a proposal
regarding how legacy TWA Pilots were permitted to bid
on schedules. As described by the arbitrators, the TWA
Pilots Committee’s initial proposal would have permitted legacy TWA pilots bidding for schedules to bid
based on seniority determined by “their TWA date of
hire, while AA pilots against whom they bid would use
their AA date of hire,” or, in the alternative, employ a
“percentile bidding methodology to accomplish the
same goal.” Resp. to APA SMF ¶ 118 (quoting APA Ex.

7

See also APA Ex. 9-H, LOA 12-05 Arbitrator Panel Suggestions Regarding Post-Hearing Submissions at 2 [ECF No. 111-12]
(“In reviewing the submissions thus far, we are concerned that the
APA AA Pilots’ Committee proposal, which includes pay protection
provisions for certain narrow-body captain positions and certain
small-wide body captain positions amounts to an ‘economic condition,’ the imposition of which is foreclosed to this Panel by agreement of the parties to LOA 12-05. For similar reasons, we are
troubled by that portion of the APA AA Pilots’ Committee Proposal
suggesting that the pay protection proposal is not material
(perhaps not even economic) because, on balance, it is claimed, the
Company will save more by closing St. Louis as a pilot domicile
than it will expend by means of pay protection. We are not convinced either that the premises [sic] underlying the analysis are
necessarily correct or, more importantly, that without regard to
arguments concerning calculations, these are non-economic conditions or material costs beyond those associated with training.”).

APP-74
9-H, LOA 12-05 Arbitrator Panel Suggestions Regarding Post-Hearing Submissions at 3 [ECF No. 111-12]).
In support of this argument, the TWA Pilots Committee presented evidence regarding the intent of LOA
12-05, including testimony regarding Captain Gabel’s
conversations with Mr. James. See Resp. to APA SMF
¶ 121. American opposed this proposal, arguing that by
imposing a date of hire bidding methodology, the
proposal did not provide “preferential flying rights” as
required by LOA 12-05 but instead substituted a new
seniority list in violation of the prohibition on modifications to the seniority list. See Resp. to APA SMF ¶ 120.
The TWA Pilots Committee disagreed, contending that
its proposal provided only “preferential flying rights,”
that the bidding rules would only apply “inside … your
equipment group,” and that “[t]he relative order among
TWA pilots [was] the same relative order as TWA
pilots stand [on] the system seniority list.” Resp. to
APA SMF ¶ 120 (quoting APA Ex. 9-A, LOA 12-05
Arbitration Tr. 780:2, 777:20-22, Apr. 2, 2013 [ECF No.
111-5]).
After hearing these arguments, the arbitrators
concluded that the TWA Pilots Committee proposal
regarding bidding violated LOA 12-05 because it did
not constitute “preferential flying rights” but rather
“effectively modif[ied] the position of the TWA pilots on
the system seniority list (at least for some purposes).”
Resp. to APA SMF ¶ 122 (quoting APA Ex. 9-H, LOA
12-05 Arbitrator Panel Suggestions Regarding PostHearing Submissions at 3 [ECF No. 111-12]). Like the
AA Pilots Committee did after its proposal was deemed
outside the scope of the arbitrators’ authority, the TWA
Pilots Committee subsequently changed its proposal

APP-75
“to advocate a path to an award that is clearly within
this Board’s jurisdiction to grant.” See Resp. to APA
SMF ¶ 123 (quoting APA Ex. 9-C, Post-Hearing Brief
of the TWA Pilots Committee at 27 [ECF No. 111-7]).
These changes included a shift away from its date of
hire or percentile bidding proposals and towards a
“protective fences” approach for the flying assigned to
the legacy TWA pilots. See APA Ex. 9-C, Post-Hearing
Brief of the TWA Pilots Committee at 27-28 [ECF No.
111-7].
In addition to these three substantive areas, the
TWA Pilots Committee proposal also contained two
procedural provisions for future arbitrations. See Resp.
to APA SMF ¶ 124. First, the TWA Pilots Committee
asked the arbitrators to “[e]stablish a multiparty
adjustment board … in which TWA and preacquisition
AA pilots have equal representation to raise and
resolve disputes arising out of the application [and]
interpretation of the Revised Supplement CC.” See
Resp. to APA SMF ¶ 125 (quoting APA Ex. 1-H, APA
Response to Proposal at 2 [ECF No. 92-11]). APA
considered that proposal to be outside the panel’s jurisdiction because LOA 12-05 already specified a dispute
resolution mechanism, providing Bloch with continuing
jurisdiction. See Resp. to APA SMF ¶ 126. [*18]
Second, the TWA Pilots Committee asked that the
TWA pilots be granted “separate party status … in any
AA/US Airways … seniority integration negotiation
and/or arbitration in which they may propose an integration of their seniority by TWA [date of hire].” Resp.
to APA SMF ¶ 127 (quoting APA Ex. 1-H, APA
Response to Proposal at 2 [ECF No. 92-11]). APA
responded that this second procedural proposal was

APP-76
outside the panel’s jurisdiction because, among other
reasons, it contemplated changing the legacy TWA
pilots’ seniority as compared to other American Airlines pilots, violating the provision of LOA 12-05 barring such change. See Resp. to APA SMF ¶ 128. The
TWA Pilots Committee submitted a response to APA’s
brief, arguing that it should be stricken by the arbitrators. See Resp. to APA SMF ¶ 129. The panel did not
accept APA’s jurisdictional arguments, but also
declined to adopt either of the TWA Pilots Committee’s
procedural proposals. See Resp. to APA SMF ¶ 130.
After the arbitrators issued their merits award in
July 2013, American and APA drafted contractual
language to implement the award, subject to approval
by the arbitrators. See Resp. to APA SMF ¶ 131-33.
The TWA Pilots Committee participated in the development of this contractual language. See Resp. to APA
SMF ¶ 134. The parties were unable to agree on two
issues regarding the contractual language, and the
TWA Pilots Committee then submitted a brief to the
arbitrators regarding those issues. See Resp. to APA
SMF ¶ 135. The AA Pilots Committee opposed the
TWA Pilots Committee’s positions. See Resp. to APA
SMF ¶ 135. In September 2013, the panel issued an
opinion resolving the remaining issues regarding the
contractual language. See Resp. to APA SMF ¶ 136.
During the arbitration, American advanced its own
position on the alternative contractual rights that
should be provided to the legacy TWA pilots as it was
entitled to under the Protocol Agreement. See Resp. to
American SMF ¶ 26. There is no evidence that American contributed to the positions of the pilot committees
in the arbitration. See Resp. to American SMF ¶ 27.

APP-77
Nor is there evidence that American supported the
positions of either of the pilot committees as to the
substitute job protections that should be awarded to
the legacy TWA pilots by the arbitrators. See Resp. to
American SMF ¶ 28.8 Aside from its three-page posthearing brief regarding the TWA Pilots Committee
procedural proposals, there is no evidence that APA
took any position on the merits of the parties’ substantive proposals or any other substantive issue in the
arbitration. See Resp. to American SMF ¶ 31. American did not contribute to the APA post-hearing brief on
the procedural issues and was unaware of its content
until after it was filed. See Resp. to American SMF
¶ 31.9

8

Indeed, American objected to each pilot committees’
proposal, arguing that they both contravened the terms of LOA
12-05. See Resp. to American SMF ¶ 28. American argued that the
proposal made by the AA Pilots Committee would improperly
require American to downgrade captains to first officer positions
and pay them at captain rates—an economic condition that would
impose excessive costs on American in violation of LOA 12-05, and
contrary to the purpose of closing the St. Louis base. See Resp. to
American SMF ¶ 29. With respect to the proposal made by the
TWA Pilots Committee, American argued that it improperly
substituted a reconfigured seniority list, despite the fact that LOA
12-05 prohibited the arbitrators from modifying the seniority list.
See Resp. to American SMF ¶ 30.

9

Most of the sentences in this paragraph are disputed by
the Plaintiffs in their response to APA’s statement of material
facts. But for reasons further discussed below, the Court finds that
the Plaintiffs have no basis to dispute these facts.

APP-78
DISCUSSION
A. Legal Standards
1. Breach of Fiduciary Duty
“A union has a duty to represent fairly all employees subject to the collective bargaining agreement.”
Vaughn v. Air Line Pilots Ass’n Int’l, 604 F.3d 703, 709
(2d Cir. 2010) (internal citations and quotations omitted). This duty of fair representation requires that a
union represent employees adequately, honestly, and
in good faith. See Krakowski v. American Airlines, Inc.,
(In re AMR Corp.), 2014 Bankr. LEXIS 2610, 2014 WL
2508729, at *3 (Bankr. S.D.N.Y. June 3, 2014) (citing
Air Line Pilots Ass’n, Intern. v. O’Neill, 499 U.S. 65, 75,
111 S. Ct. 1127, 113 L. Ed. 2d 51 (1991)). But
“Congress did not intend judicial review of a union’s
performance to permit the court to substitute its own
view of the proper bargain for that reached by the
union.” O’Neill, 499 U.S. at 78. Thus, “[a]ny substantive examination of a union’s performance … must be
highly deferential, recognizing the wide latitude that
negotiators need for the effective performance of their
bargaining responsibilities.” Id. To prove that a union
breached its duty of fair representation, a plaintiff
must show that the union’s actions or inactions were
arbitrary, discriminatory, or in bad faith. Vaughn, 604
F.3d at 709. Each of these three concepts has its own
standard.
First, a union’s actions are arbitrary “only if, in
light of the factual and legal landscape at the time of
the union’s actions, the union’s behavior is so far outside a wide range of reasonableness as to be irrational.”
Vaughn, 604 F.3d at 709 (quoting O’Neill, 499 U.S. at

APP-79
67). Courts must review a union’s actions “in light of
both the facts and the legal climate that confronted the
negotiators at the time the decision was made.”
O’Neill, 499 U.S. at 78. While a union’s decision may in
hindsight “appear to the losing employee to have been
erroneous[,] … tactical errors are insufficient to show
a breach of the duty of fair representation; even
negligence on the union’s part does not give rise to a
breach.” Barr v. United Parcel Serv., Inc., 868 F.2d 36,
43 (2d Cir. 1989).
Second, a union’s actions are considered discriminatory if they were “intentional, severe, and unrelated
to legitimate union objectives.” Amalgamated Ass’n of
St., Elec., Ry., & Motor Coach Employees of Am. v.
Lockridge, 403 U.S. 274, 301, 91 S. Ct. 1909, 29 L. Ed.
2d 473 (1971); see also Nikci v. Quality Bldg. Services,
995 F. Supp. 2d 240, 248 n.4 (S.D.N.Y. 2014) (dismissing complaint for failure to allege the Lockridge
factors). “There is no requirement that unions treat
their members identically as long as their actions are
related to legitimate union objectives.” Vaughn, 604
F.3d at 712. For instance, the Supreme Court held in
O’Neill that “discrimination” “in the form of granting
one union member seniority over another similarly
situated member did not per se violate a union’s duty
of fair representation.” Krakowski, 2014 Bankr. LEXIS
2610, 2014 WL 2508729, at *3 (citing O’Neill, 499 U.S.
at 81). Rather, such treatment is improper “where the
union prefers or disparages the union members based
upon characteristics that are irrelevant to legitimate
union objectives.” Krakowski, 2014 Bankr. LEXIS
2610, 2014 WL 2508729, at *3 (citing Jones v. Trans
World Airlines, 495 F.2d 790, 797-98 (2d Cir. 1974)

APP-80
(union membership alone is not proper ground for
union to determine seniority); Wolf Trap Foundation
for the Performing Arts, 287 N.L.R.B. 1040, 1059 (1988)
(finding discrimination where union singled out an
employee only because she was female and a non-union
member)).
Third, a union has acted in bad faith, where it
“engaged in fraud, dishonesty, or other intentionally
misleading conduct with an improper intent, purpose,
or motive.” Krakowski, 2014 Bankr. LEXIS 2610, 2014
WL 2508729, at *4 (citing Vaughn, 604 F.3d at 709-10).
2. Causation
To prove a breach of duty of fair representation,
plaintiffs must also “demonstrate a causal connection
between the union’s wrongful conduct and their injuries.” Vaughn, 604 F.3d at 709 (internal citations and
quotations omitted). In cases alleging a breach of duty
of fair representation claim relating to an arbitration
award, causation may be assessed in the summary
judgment context. See Mullen v. Bevona, 1999 U.S.
Dist. LEXIS 16434, 1999 WL 974023, at *6 (S.D.N.Y.
Oct. 26, 1999) (citing Hines v. Anchor Motor Freight,
Inc., 424 U.S. 554, 563, 96 S. Ct. 1048, 47 L. Ed. 2d 231
(1976)); see also Alen v. U.S. Airways, Inc., 526 F.
App’x 89, 91 (2d Cir. 2013) (“A union breaches its duty
to fairly represent its members if its conduct is arbitrary, discriminatory, or in bad faith, and if there is a
causal connection between the union’s wrongful
conduct and their injuries.”) (internal citations and
quotations omitted). This is because, to succeed on
such a claim, a plaintiff must show “that defendant’s
conduct ‘seriously undermined the arbitral process.’”

APP-81
Mullen, 1999 U.S. Dist. LEXIS 16434, 1999 WL
974023, at *6 (quoting Barr, 868 F.2d at 43). The
plaintiff must further establish that “‘the unsuccessful
result was due to the union’s wrongful conduct.’” 1999
U.S. Dist. LEXIS 16434, [WL] at *6 (quoting Young v.
United States Postal Serv., 907 F.2d 305, 307 (2d Cir.
1990)).
[I]t is insufficient to show that the outcome
might have been different if defendant’s conduct
had been different. To demonstrate that defendant ‘seriously undermined the arbitral process,’
the plaintiff must show more than a remote
possibility that the outcome would have differed
if the defendant had not breached its duty of fair
representation.
Id. (emphasis in original).
The Plaintiffs argue that causation should not be
evaluated on summary judgment, relying on Gorwin v.
Local 282, I.B.T., 1997 U.S. Dist. LEXIS 3822, 1997
WL 151043 (S.D.N.Y. April 1, 1997). But the Court
disagrees. The court in Gorwin actually assessed
causation in the summary judgment context. See 1997
U.S. Dist. LEXIS 3822, [WL] at *11 (The Court … finds
that Gorwin has not presented any evidence that the
Union’s misrepresentation of its progress could have
contributed to the erroneous outcome of the arbitration.”). While the court ultimately denied summary
judgment on the claim in Gorwin, it was only because
the court concluded that there were disputed factual
issues in the case on the related legal questions,
including causation. See id.

APP-82
The Plaintiffs also argue for a different—and higher
—standard for evaluating causation than set forth
above. The Plaintiffs contend that causation is shown
only when “there is substantial reason to believe that
a union breach of duty contributed to the erroneous
outcome of the proceedings.” Plaintiffs’ Memo. in Opp.
to APA Renewed Mot. for Summ. J. [ECF No. 123] (“Pl.
Opp. to APA SJM”) at 26 (quoting Hines, 424 U.S. at
568; citing Ghartey v. St. John’s Queens Hosp., 869
F.2d 160, 163 (2d Cir. 1989); Bacchus v. N.Y.C. Dep’t of
Educ., 137 F. Supp. 3d 214, 251 (E.D.N.Y. 2015);
Tomney v. Int’l Ctr. For the Disabled, 357 F. Supp. 2d
721, 736 (S.D.N.Y. 2005). But some courts citing this
language have also stated that “unless there is some
causal connection between the breach and the alleged
erroneous outcome, then [the plaintiff] has no action.”
Phillips v. Lenox Hill Hospital, 673 F. Supp. 1207,
1214 (S.D.N.Y. 1987); see also Bacchus, 137 F. Supp. 3d
at 251 (“‘[P]laintiff cannot prevail on [duty of fair
representation] claim unless she establishes that
further action on the Union’s part would have resulted
in a favorable outcome.’”) (quoting Yarde v. Good
Samaritan Hosp., 360 F. Supp. 2d 552, 563 (S.D.N.Y.
2005)). In fact, the case law on causation for a duty of
fair representation claim is not extensive in this jurisdiction nor is it consistent as to the standard to be
employed.
In any event, the Court has no reason to further
parse the standard given that—for the reasons discussed below—the Court finds that the Plaintiffs have
failed to put forward evidence demonstrating a causal
connection for their various claims under either formula of the causation standard. See Hellstrom, 46 Fed.

APP-83
App’x at 654 (quoting Celotex, 477 U.S. at 325) (stating
that when the issue is one for which the nonmoving
party bears the ultimate burden of proof at trial, the
burden on the party moving for summary judgment is
to “demonstrate ‘that there is an absence of evidence to
support the nonmoving party’s case.’”). APA raised
numerous causation-related issues with respect to the
Plaintiffs’ arguments about the arbitration process—
specifically regarding the selection of arbitrators,
committees, and counsel—for which the Plaintiffs do
not offer evidence (or even an argument) in response.
See, e.g., Memo. in Support of APA Renewed Mot. for
Summ. J. [ECF No. 111-1] at 15-17, 20, 22, 24-28, 31.
While these circumstances are discussed individually
below, the Court notes that the Plaintiffs only affirmatively address causation with respect to their arguments on the lack of a “unified position” and “replicate”
issues. See Pl. Opp. to APA SJM at 27. But, as discussed below, APA’s motion is granted on these issues for
other reasons beyond causation.
3. Summary Judgment
Summary judgment is appropriate “if the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits, if any, show that
there is no genuine issue as to any material fact and
that the moving party is entitled to judgment as a
matter of law.” Celotex Corp. v. Catrett, 477 U.S. 317,
322, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986); Fed. R.
Civ. P. 56(a) (made applicable to the adversary proceeding by Fed. R. Bankr. P. 7056). A material fact is one
that “might affect the outcome of the suit under
governing law.” McCarthy v. Dun & Bradstreet Corp.,

APP-84
482 F.3d 184, 202 (2d Cir. 2007) (internal citations and
quotations omitted).
“The moving party bears the initial burden of
‘informing the … court of the basis for its motion, and
identifying those portions of the pleadings, depositions,
answers to interrogatories, and admissions on file,
together with affidavits, if any, which it believes
demonstrate the absence of a genuine issue of material
fact.’” Hellstrom v. U.S. Dep’t of Veterans Affairs, 46
Fed. App’x 651, 654 (2d Cir. 2002) (quoting Celotex, 477
U.S. at 322). When the issue is one for which the nonmoving party bears the ultimate burden of proof at
trial, the burden on the party moving for summary
judgment is to “demonstrate ‘that there is an absence
of evidence to support the nonmoving party’s case.’” Id.
(quoting Celotex, 477 U.S. at 325). “‘It is ordinarily
sufficient for the movant to point to a lack of evidence
… on an essential element of the non-movant’s claim.
…’” Netherlands Ins. Co. v. United Specialty Ins. Co.,
276 F. Supp. 3d 94, 105 (S.D.N.Y. 2017) (quoting
Jaramillo v. Weyerhaeuser Co., 536 F.3d 140, 145 (2d
Cir. 2008)). This does not, however, “absolve the
movant of the obligation, articulated in Celotex, to
“‘identify[] those portions of [the record] which it
believes demonstrate the absence of a genuine issue of
material fact.’” Nick’s Garage, Inc. v. Progressive
Casualty Ins. Co., 875 F.3d 107, 117 n.5 (2d Cir. 2017)
(quoting Celotex, 477 U.S. at 323).
Once this burden is met, the non-moving party
“must come forward with specific facts showing that
there is a genuine issue for trial.” Hellstrom, 46 Fed.
App’x at 654 (citing Celotex, 477 U.S. at 322). A
“dispute about a material fact is ‘genuine’ … if the

APP-85
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505, 91 L.
Ed. 2d 202 (1986). But where “reasonable minds could
not differ as to the import of the evidence, then
summary judgment is proper.” Hellstrom, 46 Fed.
App’x at 654 (citing Bryant v. Maffucci, 923 F.2d 979,
982 (2d Cir. 1991)).
The court should “resolve all ambiguities and draw
all inferences in favor of [the] party against whom
summary judgment is sought.” Hellstrom, 46 Fed.
App’x at 654 (internal citations omitted). But a nonmovant cannot defeat summary judgment merely by
raising “a ‘metaphysical doubt’ concerning the facts” or
by simply offering “conjecture or surmise.” Id. (citing
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586, 106 S. Ct. 1348, 89 L. Ed. 2d 538 (1986)).
Moreover, the “nonmoving party’s opposition may not
rest on mere allegations or denials of the moving
party’s pleading, but ‘must set forth specific facts showing that there is a genuine issue for trial.’” Id. (quoting
Fed. R. Civ. P. 56(e)).
i. Facts Disputed by These Plaintiffs
In applying these summary judgment principles
here, the Court notes that the Plaintiffs have broadly
denied most facts that the Defendants contend are
undisputed regarding the arbitration. These include
facts about the most basic questions, such as the positions taken by the parties in the arbitration and who
chose the committee members, the arbitrators, and
counsel. But an examination of the record demonstrates that the Plaintiffs have not provided a suffi-

APP-86
cient basis for these sweeping denials and, therefore,
the Court considers many of the facts the Plaintiffs
oppose to be, in fact, undisputed.
The Plaintiffs offer two grounds for disputing these
facts, neither of which has a basis in law or fact.
First, the Plaintiffs contend that the AA Pilots
Committee—and in some circumstances the TWA
Pilots Committee—were mere creatures of APA, and
therefore all actions taken by either committee were
under the direction of and should be imputed to APA.
However, as the undisputed facts in the record establish—and as will be discussed further below—APA took
a neutral position in the arbitration and allowed the
two pilot committees to make their own arguments
before the arbitrators about the substitute protections
that should be afforded to the legacy TWA pilots. See
also Protocol Agreement ¶ 1 (“APA participation as a
party in the Interest Arbitration shall not be for the
purposes of advocating a substantive position but to
facilitate an orderly process and resolution of the
dispute” and that “[w]hile AA and APA are the parties
to this Agreement, the Interest Arbitration shall
provide for party status and the hearings and for
substantive presentations by: (1) American Airlines,
Inc.; (2) a representative committee of AA Pilots … and
(3) a representative committee of TWA pilots. …”). The
Plaintiffs provide no evidence to support their assertions that APA in some way controlled or directed the
decisions made by the pilot committees. Indeed, most
of the Plaintiffs’ denials of the Defendants’ proposed
undisputed facts are thinly disguised legal argument
relating to their position that it was inappropriate for
APA to allow two pilots committees to participate in

APP-87
the arbitration rather than having APA put forward a
“unified position” during the arbitration.10
10

Thus, the Plaintiffs deny numerous facts based on their
general view that the AA Pilots Committee and the TWA Pilots
Committee were somehow simply carrying out APA’s bidding. See,
e.g., Resp. to APA SMF ¶ 61 (Plaintiffs deny fact that the TWA
Pilots Committee chose Mr. Clarke as their counsel “with no
influence whatsoever from APA” because Plaintiffs assert that “the
TWA Pilots Committee was formed by APA as an ad hoc of itself,
and given ‘party status’ to the LOA 12-05 arbitration between APA
and American.”); Resp. to APA SMF ¶ 81 (Plaintiffs admit fact
that that arbitrators stated that APA delegated its advocacy
position to pilot committees and took no position on the substantive positions submitted by the committees, but deny the truth of
those statements because Plaintiffs assert that APA did not and
could not outsource its duty of representation and established the
committees of itself to present evidence and argument during the
arbitration); Resp. to APA SMF ¶ 82 (Plaintiffs admit fact that
APA’s president informed the union’s board members that APA
was to remain neutral throughout process, but deny the truth of
that statement because Plaintiffs assert that APA did not and
could not outsource its duty of representation and established the
committees of itself to present evidence and argument during the
arbitration); Resp. to APA SMF ¶ 83 (Plaintiffs admit fact that
stated role of TWA Pilots Committee in arbitration was to further
the interests of the TWA pilot group, but deny that was its true
role because Plaintiffs assert that APA established the committee
structure to create potential defense in this case); Resp. to APA
SMF ¶ 84 (Plaintiffs deny fact that TWA Pilots Committee carried
out its role without interference from APA or American because
“American and APA’s AA Pilots Committee” interfered with the
TWA Pilot Committee throughout the arbitration and because
during the arbitration American and the AA Pilots Committee
objected to the TWA Pilots Committee proposal as a de facto
seniority adjustment and the TWA Pilots Committee’s replicate
argument); Resp. to APA SMF ¶ 85 (Plaintiffs deny fact that the
TWA Pilots Committee had the opportunity to present its views
without interference from APA or American for same reasons);

APP-88
Second, the Plaintiffs deny various facts based on
their contention that American was supporting APA.
The Plaintiffs point out that the positions taken by
American were similar to those taken by the AA Pilots
Committee, specifically the objections made by American to arguments made by the TWA Pilots Committee
during the arbitration relating to (1) the “replicate”
issue, and (2) whether the TWA Pilots Committee’s
proposal was a de facto seniority adjustment for the
legacy TWA pilots. See Resp. to American SMF ¶ 27.11

Resp. to APA SMF ¶ 108 (Plaintiffs deny fact that APA did not
take a position in the arbitration on the replicate issue for same
reasons); Resp. to APA SMF ¶ 115 (Plaintiffs deny fact that APA
did not take position on “non-economic issue’ during arbitration
because Plaintiffs assert that the pay protection proposal was
made by “its Ad Hoc AA Pilots Committee.”); Resp. to APA SMF
¶ 135 (Plaintiffs deny fact that TWA Pilots Committee submitted
brief to arbitrators regarding contractual language “without interference from APA or American” because Plaintiffs assert that
“APA’s Ad Hoc American Pilot Committee opposed the TWA Pilot
Committee’s position.”).
11

Thus, the Plaintiffs deny numerous facts based on their
general view that American interfered with the TWA Pilots
Committee by taking certain positions during the arbitration,
some of which also happened to overlap with the positions taken
by the AA Pilots Committee. See Resp. to American SMF ¶ 27
(Plaintiffs deny fact that American did not contribute regarding
the positions of the pilot committees in the arbitration because
Plaintiffs assert that American supported APA’s positions regarding replicating and de facto seniority adjustment); Resp. to American SMF ¶ 28 (Plaintiffs deny fact that American did not support
the positions of either pilot committee and objected to each
committee’s position for same reasons); Resp. to American SMF
¶ 31 (Plaintiffs deny fact that APA did not take position on merits
of parties’ proposals or any other substantive issue at the arbitra-

APP-89
But there is no evidence to support that the positions
taken by American during the arbitration should be
attributed to another party or that American somehow
interfered with the TWA Pilots Committee ability to
present its case. Rather, the undisputed facts—discussed more fully below—demonstrate that APA remained
neutral during the arbitration process regarding the
substitute job protections to be awarded, and American
simply took its own position on the issues, which it was
allowed to do by right under the Protocol Agreement.
See Resp. to American SMF ¶ 26 (noting that in
accordance with the Protocol Agreement, American
may advance its own position regarding the alternative
contractual rights that should be provided to the legacy
TWA pilots).12
Where the Plaintiffs base their objection to American and APA’s proposed statements of undisputed fact
on these two arguments, therefore, the Court finds the
Plaintiffs’ objection to be without merit. It is well
established that “[t]he nonmovant … cannot create a
genuine issue of fact and defeat summary judgment
through ‘conclusory allegations, conjecture, and specu-

tion because Plaintiffs assert that APA and American were the
only parties to the arbitration and APA took positions throughout).
12

For instance, the language of LOA 12-05 provided American with the right to object to anything that imposed costs on them
or modified the seniority list. See LOA 12-05 at 2, Am. Ex. A [ECF
No. 117-1] (under LOA 12-05, the arbitrators were to “decide what
non-economic conditions should be provided to TWA Pilots,” but
“[i]n no event shall the arbitrators have authority to modify the
Pilots’ System Seniority List … or impose material costs beyond
training costs on the Company.”).

APP-90
lation.’” Mishkin v. Gurian (In re Adler, Coleman
Clearing Corp.), 399 F. Supp. 2d 486, 490 (S.D.N.Y.
2005) (quoting Kerzer v. Kingly Mfg., 156 F.3d 396, 400
(2d Cir. 1998)). “Rather, the nonmoving party must
present ‘significant probative evidence tending to
support the complaint.’” Smith v. Menifee, 2002 U.S.
Dist. LEXIS 4943, 2002 WL 461514, at *3 (S.D.N.Y.
March 26, 2002) (quoting First Nat’l Bank of Arizona
v. Cities Serv. Co., 391 U.S. 253, 290, 88 S. Ct. 1575, 20
L. Ed. 2d 569 (1968)). A trial court is not required to
“wade through improper denials and legal argument in
search of a genuinely disputed fact.” Bordelon v. Chi.
Sch. Reform Bd. of Trs., 233 F.3d 524, 528-29 (7th Cir.
2000); see also In re Gutierrez, 528 B.R. 1, 8 (Bankr. D.
Vt. 2014) (noting that “in each instance where the
Creditor asserts one of the Debtor’s ‘undisputed material facts’ is disputed, either (1) the fact is not material,
(2) the Creditor has failed to present significant probative evidence that any genuine dispute of fact exists,
(3) the materials upon which the Creditor relies do not
establish a dispute, or (4) the ‘disputed fact’ is actually
a legal argument.”). And while a party opposing summary judgment “is entitled to make legal arguments
regarding the facts alleged in [the movant’s statement
of facts], [ ] the Court is not obliged to accept [the nonmovant’s] characterization of those facts as facts themselves.” Chaney v. Stewart, 2015 U.S. Dist. LEXIS
45197, 2015 WL 1538021, at *1 n.2 (D. Vt. Apr. 7,
2015) (noting that nonmovant’s statement of disputed
facts was deficient, in part, because instead of contradicting the factual statements made in the movant’s
statement of undisputed facts, it instead “proffers additional facts and makes legal arguments. …”). Indeed,
courts have criticized parties for challenging “‘disputed’

APP-91
facts by proffering additional facts for context, without
actually contradicting the underlying factual statement” and for using their denial of facts to make “legal
argument more appropriately addressed in [a] memorandum.” Milnes v. Blue Cross & Blue Shield of Vt.,
2013 U.S. Dist. LEXIS 44162, 2013 WL 1314520, at *2
n.1 (D. Vt. Mar. 28, 2013) (noting that each side had
“postured considerably in their statements of disputed
facts” and that in its “search for genuine factual
disputes, the Court [ ] examined the documents in the
summary judgment record and not the parties’ characterizations of these documents.”)13
B. Plaintiffs’ Claim for Breach of Duty of Fair
Representation
The Plaintiffs present a number of arguments in
support of their duty of fair representation claim, each
of which the Court will address separately.
1. Unified Position
The Plaintiffs first argue that APA breached its
duty of fair representation in structuring the arbitration to permit two separate pilot committees to submit
two competing proposals rather than have APA present
one unified pilot position. See Plaintiffs’ Statement of
Additional Material Facts Regarding APA [ECF No.

13

The Court has also reviewed the Plaintiffs’ affirmative facts
[ECF Nos. 122, 124], and finds them to largely be either conclusory
or legal argument. In any event, the Court concludes that they
would not be material because, for all the reasons discussed below,
they would not “affect the outcome of the suit under the governing
law.” Mai v. Colvin, 2015 U.S. Dist. LEXIS 165609, 2015 WL
8484435, at *4 (E.D.N.Y. Dec. 9, 2015) (internal quotations omitted).

APP-92
124] (“Pl. Add’l Facts re: APA”) ¶ 29. The Plaintiffs
assert that the lack of a unified position was unprecedented, against industry custom, counter to the advice
of APA’s own counsel, and was therefore a breach of
APA’s fiduciary duty.
As a threshold matter, this argument must be
rejected because the Plaintiffs improperly raised it for
the first time in their response to the Defendants’
summary judgment motions. See Shah v. Helen Hayes
Hosp., 252 F. App’x 364, 366 (2d Cir. 2007) (“A party
may not use his or her opposition to a dispositive
motion as a means to amend the complaint.”) (citing
Wright v. Ernst & Young LLP, 152 F.3d 169, 178 (2d
Cir. 1998) (collecting cases)). The Plaintiffs have
known from the outset of the case that APA did not
present a unified position at the arbitration and
instead appointed separate pilot committees. But the
Plaintiffs did not assert this issue as a claim in their
initial complaint, amended complaint, or various briefs
in response to APA’s earlier motions to dismiss or even
APA’s initial summary judgment motion. The scope of
this case is clearly limited to Paragraphs 48(E) through
(J) “relating to how the arbitration was conducted,” the
only claims to survive American’s prior motion to dismiss. Krakowski, 536 B.R. at 372; Order at 2 [ECF No.
80] (granting in part motion to dismiss). The Plaintiffs
very clearly identified their disputes with the arbitration process in Paragraphs 48(E) through (J) of their
Complaint, none of which included an argument about
the lack of a “unified position.” See Compl. ¶ 48(E)-(J).
The Plaintiffs nonetheless contend that somehow a
reference in the Complaint to the existence of two pilot
committees encompasses their “unified position” claim.

APP-93
See Plaintiffs’ Memo. in Support of Mot. for Leave to
Amend at 3 [ECF No. 134-1] (citing Compl. ¶ 26).
While the Complaint does reference the creation of two
committees by APA, the existence of two committees is
presented only as factual background. See Compl. ¶ 26.
Nothing in the Complaint indicates a claim by the
Plaintiffs based on the lack of a “unified position.” See
Plaintiffs’ Memo. in Support of Mot. for Leave to
Amend at 3-4 (citing Compl. ¶ 48(F)). Thus, the
Complaint does not provide adequate notice to APA or
American of such a claim, and has hampered the
Defendants’ ability to conduct discovery on this issue.
See APA Opp. to Pl. Mot. for Leave to Amend at 7-8
(noting that APA’s document requests and interrogatories were limited to the claims in Paragraphs 48(E)(J) of the Complaint and did not include anything
about the “unified position,” and that APA did not
depose any witnesses on this topic); Malmsteen v.
Universal Music Grp., Inc., 940 F. Supp. 2d 123, 135
(S.D.N.Y. 2013) (noting that because plaintiff failed to
include claim in amended complaint, and instead
raised it for the first time in opposition to summary
judgment, the claim was waived) (citing Rojo v. Deutsche Bank, 487 Fed. App’x 586, 588-89 (2d Cir. 2012));
see also Lyman v. CSX Transp., Inc., 364 Fed. App’x
699, 701-02 (2d Cir. 2010) (holding that claims raised
for first time in opposition to summary judgment “need
not be considered” and that complaint and interrogatory response were insufficient to put defendant on
notice of plaintiff’s new claims) (citing Greenidge v. Allstate Ins. Co., 446 F.3d 356, 361 (2d Cir. 2006) (“[T]he
central purpose of a complaint is to provide the defendant with notice of the claims asserted against it. …”)).

APP-94
Even if this argument were not waived, however, it
would fail because the lack of a unified position was
not discriminatory, arbitrary, or in bad faith. A claim
of discriminatory conduct could not succeed here, as
both the legacy TWA pilots and the American pilots
were treated equally within the context of the arbitration and provided with the same resources, procedures,
and opportunities to present their position to the arbitrators. See Bowerman v. Int’l Union, 646 F.3d 360,
368-71 (6th Cir. 2011) (no evidence of discrimination
when contested training opportunities were available
to plaintiffs and other groups); Buford v. Runyon, 160
F.3d 1199, 1202 (8th Cir. 1998) (no breach of duty of
fair representation when two employees’ cases that
were similarly treated received different outcomes).
Indeed, a claim of discrimination by the same Plaintiffs as to a related arbitration has already been
rejected by another court for much the same reason. In
Horner v. American Airlines, Inc., 2017 U.S. Dist.
LEXIS 202806, 2017 WL 6313943 (N.D. Tex. Dec. 11,
2017), the Texas District Court was presented with a
dispute involving an arbitration under Supplement C,
which comprised the substitute protections for the
legacy TWA pilots that were put in place as a result of
the very same LOA 12-05 arbitration now before this
Court. See 2017 U.S. Dist. LEXIS 202806, [WL] at *1-2.
Supplement C provided for a dispute resolution procedure for any grievances arising thereunder. See 2017
U.S. Dist. LEXIS 202806, [WL] at *2. Legacy American
pilots and legacy TWA pilots both filed grievances. See
id. The plaintiff legacy TWA pilots asserted, among
other things, that APA’s failure to enforce a prior
agreement regarding Supplement C, as well as the

APP-95
stated intent of Supplement C, was arbitrary and
hostile. See 2017 U.S. Dist. LEXIS 202806, [WL] at *7.
They asserted that APA’s decision to allow the arbitration between the opposing sides and to remain neutral
throughout the process was due to hostility against the
legacy TWA pilots, and that the grievance process was
undermined as a result. See 2017 U.S. Dist. LEXIS
202806, [WL] at *7. But the court in Horner ultimately
held that “maintaining neutrality and providing two
groups of employees the same resources to pursue
arbitration could only be found to be reasonable. And
because the two groups were provided equal opportunity to assert their cases, the procedure cannot be
deemed discriminatory.” 2017 U.S. Dist. LEXIS
202806, [WL] at *9 (internal citations and quotations
omitted).14
Nor can the Plaintiffs show that the conduct of the
APA in utilizing two ad hoc pilot committees was
arbitrary, that is, “so far outside a wide range of
reasonableness … as to be irrational.” O’Neill, 499 U.S.
at 67 (internal citations and quotations omitted). The
Plaintiffs complain that APA did not work to develop a
unified position to present to the arbitrators. More
specifically, they note that the Chairman of the APA
Negotiating Committee did not work on crafting a
unified position but instead Captain Stephens and
Captain Gabel were tasked, on behalf of their respec-

14

Perhaps for these reasons, the Plaintiffs appear to concede
that the claim does not involve discriminatory conduct on the part
of APA. See Pl. Opp. to APA SJM at 7 (arguing that lack of a
unified position was arbitrary and bad faith, but making no reference to discrimination).

APP-96
tive pilot groups, with developing an APA position for
the arbitration. See Pl. Add’l Facts re: APA ¶¶ 33, 34.
The Plaintiffs note that Captains Stephens and Gabel
had one substantive meeting, which, according to
Captain Stephens, “didn’t go very long” because it
“became clear relatively early that we were conceptually very far apart.” Pl. Add’l Facts re: APA ¶ 34
(quoting Pl. Ex. 18, Stephens Depo. Tr., 13-14, 23, June
8, 2016 [ECF No. 124-18]). Rather than making further
efforts to develop a unified position, the APA instead
entered into the Protocol Agreement with American
that created the AA Pilots Committee and the TWA
Pilots Committee and gave them each “party status” at
the arbitration. See Pl. Add’l Facts re: APA ¶¶ 35-36
(explaining that each committee presented competing
proposals to the arbitrators).
But as the Horner court found, it was reasonable for
APA to remain neutral and allow each of the pilot
groups an opportunity to present their cases. Horner,
2017 U.S. Dist. LEXIS 202806, 2017 WL 6313943, at
*9. Indeed, the undisputed facts demonstrate the difficulty of arriving at a unified position that would satisfy
both pilot groups. APA’s counsel Mr. James testified
that though he had once hoped the two groups could
come together on a unified position, he later characterized such hopes as “unfounded.” APA Ex. 26, James
Depo. Tr. 29:9-10, June 14, 2016 [ECF No. 128-7]. That
view was echoed by the Chair of the TWA Pilots
Committee, Captain Gabel, who characterized the hope
of the two sides coming together as “a pipe dream.”
APA Ex. 9-J, Gabel email [ECF No. 111-14]; Pl. Opp. to
APA SJM at 6 (Plaintiffs’ conceding that the two sides
had been “conceptually very far apart”). Indeed, the

APP-97
Court cannot help but notice the profound distrust—
and lack of agreement—between the legacy TWA and
American pilots throughout the record of the yearslong litigation in this Court alone, encompassing three
adversary proceedings, multiple dispositive motions,
and amended complaints in each. See, e.g., Krakowski
v. American Airlines, Inc., (In re AMR Corp.), 567 B.R.
247 (Bankr. S.D.N.Y. 2017); Krakowski v. American
Airlines, Inc., (In re AMR Corp.), 538 B.R. 213 (Bankr.
S.D.N.Y. 2015); Krakowski v. American Airlines, Inc.,
(In re AMR Corp.), 536 B.R. 360 (Bankr. S.D.N.Y.
2015); Krakowski v. American Airlines, Inc., (In re
AMR Corp.), 2015 Bankr. LEXIS 1721, 2015 WL
2414750 (Bankr. S.D.N.Y. May 19, 2015); Krakowski v.
American Airlines, Inc., (In re AMR Corp.), 2014
Bankr. LEXIS 2610, 2014 WL 2508729 (Bankr.
S.D.N.Y. June 3, 2014).
Moreover, the process of conducting arbitrations
with separate presentations from employee sub-groups
is an accepted method of balancing competing employee interests. Indeed, the court in Horner ruled that a
similar arbitration process involving the very same
parties did not breach APA’s duty of fair representation. See Horner, 2017 U.S. Dist. LEXIS 202806,
2017 WL 6313943, at *9. In that case, the Plaintiffs
asserted that APA had advanced the parties’ grievances to arbitration “in a manner that pitted pilot
(Plaintiff Bounds) versus pilots (three legacy American
pilots).” 2017 U.S. Dist. LEXIS 202806, [WL] at *7. The
plaintiffs argued that “this choice to allow arbitration
and remain neutral throughout the arbitration process
is due to the new APA President’s hostility toward
former TWA pilots [and] that the grievance process

APP-98
was irredeemably undermined as a result.” Id. But the
Horner court found that “given its membership’s
contentious split over [the protections at issue], a
reasonable jury could only find that APA concluded
that the circumstances warranted neutrality.” 2017
U.S. Dist. LEXIS 202806, [WL] at *8. Furthermore,
“when ‘faced with two groups of its members with
objectives that were directly at odds … [submitting]
the impending dispute to arbitration was an equitable
and reasonable method of resolving it.” Id. (quoting
Gvozdenovic v. United Air Lines, Inc., 933 F.2d 1100,
1107 (2d Cir. 1991)).15
While the Plaintiffs assert that APA has never
previously used ad hoc committees in an interest
arbitration, this distinction is unavailing. The fact that
15

Likely for this reason, arbitrations involving different pilot
groups have been utilized to resolve merger-related issues for
years. See, e.g., Oling v. Air Line Pilots Ass’n, 346 F.2d 270 (7th
Cir. 1965) (after merger of United and Capital Air Lines, arbitration between representatives of each pilot group, arranged by
union representing both groups); Carr v. Airline Pilots Ass’n, Int’l,
2016 U.S. Dist. LEXIS 99895, 2016 WL 4061145 (S.D. Tex. July
29, 2016) (after merger of United and Continental, arbitration
between representatives of each pilot group, arranged by union
representing both groups). Arbitration is also commonly used as
a continuing process of dispute resolution to address issues
between merged employee groups. See, e.g., Pilots Representation
Org. v. Airline Pilots Ass’n, Int’l, 2007 U.S. Dist. LEXIS 62881,
2007 WL 2480349, at *1 (D. Minn. Aug. 24, 2007); Marcucilli v.
American Airlines, Inc., 2007 U.S. Dist. LEXIS 15962, 2007 WL
713146, at *7 (E.D. Mich. Mar. 7, 2007). Additionally, unions
utilize arbitration to resolve other types of intra-union issues, such
as disputes relating to the allocation of funds among employees
represented by the union. See, e.g., Barnes v. Air Line Pilots Ass’n,
Int’l., 141 F. Supp. 3d 836, 839 (N.D. Ill. 2015).

APP-99
this case involved an interest arbitration does not by
itself bar the use of this type of arbitration process.
The Plaintiffs do not provide any case authority in
support of such a notion or even any logical reason why
this would be the case. And while the circumstances
here are somewhat unusual—the abrogation of a
collective bargaining agreement in bankruptcy—it was
nonetheless a circumstance under which APA was
faced with an intractable dispute between two pilot
groups. See Horner, 2017 U.S. Dist. LEXIS 202806,
2017 WL 6313943, at *8.
Turning to the third leg of the duty of fair representation inquiry, the Plaintiffs argue that APA’s failure
to take a unified position was in bad faith because it
was against the advice of APA’s own counsel. The
Plaintiffs rely upon an early draft of LOA 12-05 that
explicitly contemplated participation by both American
and TWA pilots, but was changed by Mr. James. See
Pl. Add’l Facts re: APA ¶ 28. An email of Mr. James
explained he was at that time “of the view that it is
APA v. AA and we get an institutional position rather
than invite the AA pilots to beat up on the TWA pilots
without the latter being able to threaten to re-open the
seniority list.” See Pl. Add’l Facts re: APA ¶ 28 (quoting
Pl. Ex. 8, James email [ECF No. 124-8]). When appearing before the Court to obtain approval of LOA 12-05,
Mr. James also stated that “‘we have the legal duty to
go in and make the presentation on what ought to happen and the company will make its presentation. …’”
Pl. Add’l Facts re: APA ¶ 30 (quoting Pl. Ex. 15, Hr’g
Tr. 32:1-3, Dec. 19, 2012 [ECF No. 124-15]). But taking
all these facts to be true, APA’s failure to present a
“unified position” does not qualify as bad faith, which

APP-100
would require that APA have engaged in “fraud, dishonesty, [or] other intentionally misleading conduct …
with an improper intent, purpose, or motive.” See
Vaughn, 604 F.3d at 709-10 (internal citations and
quotations omitted).16 As explained above, the undisputed facts demonstrate the futility of insisting upon a
unified pilots position here. Under such circumstances,
it cannot be said that APA’s actions were in bad faith.
The Plaintiffs also argue that APA’s action was in
bad faith because it was taken to protect APA. The
Plaintiffs cite to an email in which APA general
counsel Steven Hoffman observed that APA’s potential
liability would be diminished by allowing both the
legacy TWA pilots and American Pilots to present their
proposals directly to the arbitrators. See Resp. to APA
SMF ¶ 83 (quoting Pl. Ex. 8, Hoffman email [ECF No.
124-8]). But while Mr. Hoffman noted that a “unified
position” would be vulnerable to challenge by any pilots
dissatisfied with the results of the arbitration, id., such
statements do not reflect an “improper intent, purpose,
or motive” of APA in how the arbitration was structured. Rather, Mr. Hoffman concluded that this structure
protected APA precisely because it fulfilled APA’s duty
to ensure that all groups, including the legacy TWA
pilots, had adequate representation at the arbitration.
See Pl. Ex. 8, Hoffman email [ECF No. 124-8] (“If

16

Mr. James’ statements and actions early in the arbitration
process are easily explained by Mr. James himself: while he had
once hoped the two groups could come together on a unified
position, he eventually realized that such a hope was unfounded.
See APA Ex. 26 (James Depo. Tr. 29:9-24, June 14, 2016) [ECF No.
128-7].

APP-101
incumbent APA and TWA people did their own presentations to the arbitrator, the decision would be on the
arbitrator, not us.”);17see also Vaughn, 604 F.3d at 710;
Horner, 2017 U.S. Dist. LEXIS 202806, 2017 WL
6313943, at *9 (“[P]laintiffs do not assert facts that
would support a reasonable finding of the ‘substantially egregious’ conduct required to infer that APA’s
neutrality was motivated by a desire to harm APA’s
membership … [w]ithout additional evidence of deceitful, malicious, or improper acts, a reasonable jury could
not find that APA’s neutrality and submission of grievances breached the duty of fair representation.”) (internal citations and quotations omitted).
Last but not least, the Plaintiffs’ claim about lack of
a unified position fails the causation requirement. This
is because—even considering all inferences in favor of
the Plaintiffs—a reasonable jury could not conclude
that a “unified position” would have achieved a more
favorable outcome from the arbitrators. Even if APA
had wholly adopted the position that was advocated by
the TWA Pilots Committee, that position was ultimately rejected by the arbitrators as violating LOA

17

This is also consistent with the public position that APA
had taken that the two committee structure ensured full participation of all constituents and fulfilled APA’s legal duties. See APA
Ex. 22-B (APA article regarding Supplement CC Interest Arbitration: Agreement and Procedure, dated Feb. 10, 2013) [ECF 128-3]
(“APA has the legal duty to fairly represent all pilots subject to the
provisions of the CBA. Consequently, APA is providing both the
former TWA pilots and the pre-merger AA pilots with an opportunity to make separate cases regarding proposed modifications to
the CBA. APA is also providing both groups with equal union
resources to prepare and present those cases.”).

APP-102
12-05 because it did not constitute “preferential flying
rights,” but rather “effectively modif[ied] the position
of the TWA pilots on the system seniority list (at least
for some purposes).” Resp. to APA SMF ¶ 122 (quoting
APA Ex. 9-H, Arbitrators’ Panel Suggestion Regarding
Post-Hearing Submissions at 3 [ECF No. 111-12]).
Notably, the arbitrators unanimously agreed on this
issue with American, an independent participant acting consistent with its rights under LOA 12-05 and the
Protocol Agreement. Taking the Plaintiffs’ allegations
at face value, therefore, their interests were not hampered by having their own separate representation and
right to present their views unfiltered at the arbitration, rather than proceeding through a unified pilots
position.
2. Allegation that APA Failed to Enforce LOA 12-05
The Plaintiffs also allege that APA failed to enforce
the intent of LOA 12-05, which the Plaintiffs maintain
was to “replicate” the protections of Supplement CC.
But this exact same argument was previously presented by the Plaintiffs and rejected in a detailed decision
previously issued by this Court in this case. See Krakowski, 536 B.R. at 370-71. In ruling, the Court observed that “it would be impossible to make an exact copy
or duplicate of those St. Louis protections”, id. at 371,
given that American intended to close the St. Louis
base. In a ruling that echoes the thinking of the arbitrators on the same issue, this Court rejected the
Plaintiffs’ attempt to shoehorn the concept of “repli-

APP-103
cate” into LOA 12-05. See id.18 Instead, the Court
concluded that LOA 12-05 instead provided for an arbitration procedure to arrive at substitute job protections. See id. at 370-71 (“The intent of LOA 12-05 was
clear from its written terms: ‘The Company and the
APA agree that a dispute resolution procedure is necessary to determine what alternative contractual rights
should be provided to TWA Pilots as a result of the loss
of flying opportunities due to termination of Supplement CC and the closing of the STL base.’”) (emphasis
in original).19 This ruling is the law of the case and cannot be revisited here. See Sagendorf–Teal v. County of
Rensselaer, 100 F.3d 270, 277 (2d Cir. 1996) (law of the
case doctrine “posits that if a court decides a rule of
law, that decision should continue to govern in subse-

18

Indeed, when the Plaintiffs subsequently sought discovery
on the issue, the Court rejected the request, reiterating that the
issue was “off the table.” APA Ex. 24 (Hr’g Tr. at 64-66, 69-70, Feb.
16, 2016 [ECF No. 128-5]). The Court considers the Plaintiffs’
repeated repackaging of its arguments on this same issue to
border on a violation of Fed. R. Civ. P. 11.
19

The Plaintiffs argue that in its prior decision on the issue,
the Court did not explicitly strike Paragraph 48(I) of the
Complaint, which uses the word “replicate.” But that paragraph
of the Complaint also references arguments other than replicate.
See Compl. ¶ 48(I) (discussing APA taking a position through the
AA Pilots Committee that “was designed to take jobs from the
former TWA pilots to the benefit of the legacy American pilots …”).
It is clear from this Court’s prior decision that Paragraph 48(I)
was preserved only to the extent that it did not relate to the “replicate” argument. See Krakowski, 536 B.R. at 371 (“[T]he Court
categorically rejects Plaintiffs’ reliance on the term ‘replicate’ as
an independent basis for any rights asserted by the Plaintiffs.”).

APP-104
quent stages of the same case.”) (internal citations and
quotations omitted); 18B Charles Alan Wright &
Arthur R. Miller, Fed. Prac. & Proc. Juris. § 4478 (2d
ed. April 2018 Update) (“Law-of-the-case rules have
developed to maintain consistency and avoid reconsideration of matters once decided during the course of
a single continuing lawsuit.”).
The Plaintiffs’ position is doomed for another
reason: APA took no position on the “replicate” issue at
the arbitration, choosing instead to remain neutral and
allow both sides to present their positions without
interference. As previously discussed, and further
expanded on below, APA’s neutrality eviscerates any
duty of fair representation claim on this issue as the
TWA Pilots Committee was given free rein to advocate
extensively for the “replicate” standard during the
arbitration. See Resp. to APA SMF ¶¶ 104-09; see also
APA Ex. 1-F (LOA 12-05 Merits Opinion at 5 [ECF
[*47] No. 92-9]) (arbitrators rejecting TWA Pilots
Committee’s replicate argument).20
20

After the parties finished briefing these motions for
summary judgment, the Plaintiffs filed a motion to amend the
Complaint to add claims relating to APA’s lack of a “unified
position” and failure to “replicate” Supplement CC. [ECF No. 134].
It appears that the motion was filed in response to the Defendants’
argument that the Plaintiffs improperly raised the lack of a
unified position and failure to replicate for the first time in opposition to summary judgment. See APA Opp. to Plaintiffs’ Mot. for
Leave to Amend at 1-2, 8-9 [ECF No. 135]; American’s Memo. of
Law in Opp. to Plaintiffs’ Mot. for Leave to Amend at 1 [ECF No.
136]. But as the Court today rules in the Defendants’ favor on the
merits of these two issues, however, leave to amend to add these
two issues to the Complaint would be futile. See Vermont Country
Foods, Inc. v. So-Pak-Co., Inc., 170 Fed. App’x 756, 759 (2d Cir.

APP-105
3. Allegations Relating to Lack of Input from Plaintiffs or Putative Class
The Plaintiffs next complain that the legacy TWA
pilots lacked of input on certain aspects of the arbitration process, specifically with respect to the selection of
the arbitrators, the arbitration participants, and the
lawyers in the arbitration. See Compl. ¶¶ 48(E), (F),
(G), (H).

2006); Milanese v. Rust-Oleum Corp., 244 F.3d 104, 110-11 (2d Cir.
2001). Even if that were not the case, it would be improper to allow
amendment of the Complaint at this late point in time. The
Complaint has already been supplemented and amended by the
Plaintiffs several times. See ECF Nos. 32-1, 48, 134-2. The Plaintiffs have known from the outset of the case that APA did not
present a unified position at the arbitration but instead appointed
two separate pilot committees. Yet the request to amend the
Complaint came over three years after this case was filed, five
months after the close of discovery, and a week after the conclusion of briefing on the Defendants’ summary judgment motions.
Amendments in such circumstances are prejudicial. See Grochowski v. Phoenix Constr., 318 F.3d 80, 86 (2d Cir. 2003) (in affirming
denial of leave to amend complaint, noting length of delay, that
discovery had been completed and summary judgment motion was
pending); Classicberry Ltd. v. Musicmaker.com, Inc., 48 Fed. App’x
360, 362 (2d Cir. 2002) (“[B]ecause defendants made their motion
to amend after discovery had closed and plaintiffs had moved for
summary judgment, the amendment would have been especially
prejudicial.”) (internal citations and quotations omitted); Krumme
v. WestPoint Stevens Inc., 143 F.3d 71, 88 (2d Cir. 1998) (“A
proposed amendment … [is] especially prejudicial … [when] discovery had already been completed and [nonmovant] had already
filed a motion for summary judgment.”) (internal citations and
quotations omitted). For all these reasons, the Plaintiffs’ motion to
amend is denied.

APP-106
i. Selection of Committee Members
The Plaintiffs first assert that APA improperly
selected the members of the TWA Pilots Committee
without input from either the Plaintiffs or the putative
class members. But this argument is without any basis
whatsoever. Two APA Board members from St. Louis
who were legacy TWA pilots—Captain Bounds and
Captain Spiegel—chose Captain Gabel to chair the
TWA Pilots Committee. See Resp. to APA SMF ¶ 24.
Captain Gabel then chose the other members of the
TWA Pilots Committee, all of whom were legacy TWA
pilots. See Resp. to APA SMF ¶ 25. These included
Captain Dave Williams, Captain John Swanson, First
Officer Cary Bouchard, and First Officer Thomas
Duncan. See Resp. to American SMF ¶ 16; Resp. to
APA SMF ¶ 25.
Thus, the manner in which the TWA Pilots Committee members were chosen was reasonable because
APA received input from members of the putative
class, both directly and indirectly, regarding selection
of the TWA Pilots Committee. Selection of that committee was entirely delegated to three putative class
members—Captains Bounds, Spiegel, and Gabel—all
of whom were former TWA pilots. See Resp. to American SMF ¶¶ 12, 17. Additionally, all three were representatives of the legacy TWA pilots, as each was
currently, or at some point in the immediate past, had
been elected to union office by other former TWA pilots
in St. Louis.21See Resp. to APA SMF ¶¶ 11, 12, 17.22

21

During the relevant time period, nearly all of APA members at the St. Louis base—at least 93%—were former TWA pilots,

APP-107
Though Captain Gabel’s term as an APA Board member expired prior to the arbitration, that fact alone does
not support a conclusion that his interest no longer
aligned with those of the legacy TWA pilots.
Instead of this procedure, the Plaintiffs argue that
APA should have allowed all former TWA pilots to vote
on the members of the TWA Pilots Committee. See
Resp. to American SMF ¶ 31. But selecting the actual
composition of a committee through a member election
would have been unprecedented, see Resp. to American
SMF ¶ 32,23 and such a selection method would have
no doubt opened up APA to a legal challenge. The
Plaintiffs’ position is also fatally flawed given the
manner in which the TWA Pilots Committee mirrored
the selection method for the AA Pilots Committee. The
APA Board members other than Captain Bounds and
Captain Spiegel chose Captain Stephens to chair the
AA Pilots Committee, and Captain Stephens then

and nearly all former TWA pilots—approximately 85%—were APA
members at St. Louis. See Resp. to APA SMF ¶ 11.
22

In 2012, APA board members elected from the St. Louis
base were Captains Bounds and Gabel. See Resp. to APA SMF ¶
12. During 2012, Captain Gabel reached his term limit as an APA
board member and the St. Louis base elected Captain Spiegel to
replace him. See Resp. to APA SMF ¶ 17.
23

The Plaintiffs deny this statement of fact, averring that
the APA polled a distinct pilot group in the past and that the
American Independent Cockpit Alliance polled its members
regarding the LOA 12-05 process. See Resp. to APA SMF ¶ 32. But
polling a group on an issue is distinct from having that group
directly elect members of a committee, and the Plaintiffs do not
offer evidence that this has ever taken place.

APP-108
chose the other members of that committee. See Resp.
to American SMF ¶ 15; Resp. to APA SMF ¶ 34. Thus,
both pilot groups were treated equally.
In any event, the process a union employs need not
be the most representative that is theoretically possible
at the expense of being realistically workable. In rejecting the Plaintiffs’ member election option, the Court is
mindful that it should take a “highly deferential”
approach, “recognizing the wide latitude that [unions]
need for the effective performance of their … responsibilities.” O’Neill, 499 U.S. at 78. “[S]imple negligence,
ineffectiveness, or poor judgment is insufficient to
establish a breach of the union’s duty … Rather, the
union’s conduct must be grossly deficient or in reckless
disregard of the member’s rights” to support a duty of
fair representation claim. Williams v. Air Wisconsin,
Inc., 874 F. Supp. 710, 716 (E.D. Va. 1995), aff’d, 74
F.3d 1235 (4th Cir. 1996).24
The Plaintiffs also challenge the differences in the
composition of the TWA Pilots Committee versus the
AA Pilots Committee by noting that only the latter had
union insiders on it. But by letting each group choose
24

Relatedly, Plaintiff Sikes complains that she told one of
the TWA Pilots Committee members it would be good to have a
non-APA member on the committee because there were many nonAPA members in St. Louis that would be affected by the arbitration, but that APA would not allow it. See Pl. Add’l Facts re: APA
¶ 74. But there is no dispute that APA has traditionally limited
committee participation to union members and that the APA
Constitution and Bylaws require that committee members must
also be APA members. See APA Ex. 25 (Gabel Depo. Tr. 57:21-23,
May 27, 2016 [ECF No. 128-6]); APA Reply Memo. in Support of
Mot. for Summ. J. at 9 [ECF No. 128].

APP-109
its committee membership independent of one another,
APA fulfilled its fiduciary duty to “establish[] neutral
and valid processes and procedures for the arbitration.”
Carr, 2016 U.S. Dist. LEXIS 99895, 2016 WL 4061145,
at *15. The Plaintiffs argument essentially asserts that
a limitation regarding union insiders should have been
placed on the AA Pilots Committee when it is undisputed that APA imposed no similar limitation regarding
linemen on the TWA Pilots Committee, the chairman
of which had recently been on the APA Board, unlike
any member of the AA Pilots Committee. See Resp. to
APA Facts ¶ 37. The Plaintiffs admit that it would not
have been fair for the former TWA pilots to participate
in selection of the AA Pilots Committee members, just
as it would not have been fair for legacy American
pilots to participate in selection of the TWA Pilots
Committee members. See Resp. to APA SMF ¶ 36.
Allowing either pilot group to have input or control
over the other’s process could have been a violation of
APA’s fiduciary duties. There is also no evidence that
the selection process was structured by APA in bad
faith. Nor is there evidence of fraud, dishonesty, or
other intentionally misleading conduct with an improper intent, purpose, or motive. See Vaughn, 604 F.3d at
709-10.
Last but not least, the Plaintiffs have failed to make
a causation showing with respect to selection of the
TWA Pilots Committee. The Plaintiffs—and indeed all
legacy TWA pilots—had the opportunity to rectify any
lapses by the TWA Pilots Committee given the ability
of individual pilots to directly participate in the arbitration. All pilots were given the opportunity to make
written submissions and oral presentations to Arbitra-

APP-110
tor Bloch in Washington, D.C. and St. Louis on May
14-15, 2013, regarding the impact on them from the
loss of Supplement CC and the St. Louis base. See
Resp. to APA SMF ¶¶ 93, 96; Resp. to American SMF
¶ 25. The Plaintiffs seek to characterize this process as
simply a venting session for pilots and note that only
one arbitrator attended. See Resp. to APA SMF ¶ 99;
Pl. Ex. 4 (Horner epo. Tr. 48-49, May 10, 2016 [ECF
No. 124-4]). But the Plaintiffs offer no evidence that
Arbitrator Bloch did not convey the information obtained at the sessions to his fellow arbitrators, or that the
arbitrators failed to consider the information provided
during this session. And despite how the Plaintiffs
choose to characterize it, there is evidence that this
process was fully utilized, with the arbitrators receiving some 270 written submissions from pilots. See
Resp. to American SMF ¶ 25. Moreover, parties other
than the TWA Pilots Committee, the AA Pilots Committee, American, and APA were allowed to make oral
presentations to Arbitrator Bloch. Legacy TWA pilots
took particular advantage of this process: of the 55 oral
presentations made, 43 of these were made by legacy
TWA pilots. See Resp. to American SMF ¶ 25. Indeed,
participants in the process included Plaintiff Sikes,
who endorsed the proposal made by the TWA Pilots
Committee, and Keith Bounds, a St. Louis representative who presented a statement on behalf of 120 legacy
TWA pilots. See Resp. to American SMF ¶ 25. Such
robust participation undermines the Plaintiffs’ position. See Santiago v. Nat’l Cleaning Contractors, 1992
U.S. Dist. LEXIS 9620, 1992 WL 168258, at *6
(S.D.N.Y. June 29, 1992) (“Where an employee has had
a chance to present is case, despite union lapses in
representation, courts have granted summary judg-

APP-111
ment dismissing fair representation claims.”); Romero
v. DHL Express, Inc., 2015 U.S. Dist. LEXIS 36974,
2015 WL 1315191, at *9 (S.D.N.Y. Mar. 24, 2015).
The Plaintiffs also do not present any evidence that
the individuals that chose the TWA Pilots Committee
members were in some way averse to the legacy TWA
pilots or that their ability to choose committee members was thwarted by APA. Indeed, Plaintiff Alicia
Sikes testified that she had “great respect” for Captain
Gabel and “would not object to him being selected to
any committee at APA.”25 Resp. to APA SMF ¶ 26
(quoting APA Ex. 12, Sikes Depo. Tr. 20:10-15, May 10,
2016 [ECF No. 111-20]). She further testified that the
other members of the TWA Pilots Committee were all
“very competent.” Resp. to APA SMF ¶ 27 (quoting
APA Ex. 12, Sikes Depo. Tr. 22:8-9, May 10, 2016 [ECF
No. 111-20]). Additionally, Plaintiff Sikes assisted the
TWA Pilots Committee’s counsel throughout the LOA
12-05 proceedings. See Resp. to APA SMF ¶ 101. Plaintiff John Krakowski could not think of anyone else who
would have been a better choice for the TWA Pilots
Committee. See Resp. to APA SMF ¶ 28. Plaintiff
Horner testified that he did not have any objection to

25

This is not surprising given that Captain Gabel has been
an active participant in this litigation on behalf of the Plaintiffs,
serving as the Plaintiffs’ principal witness and consulting with
Plaintiffs’ counsel in his deposition of Edgar James. See generally
Pl. Ex. 4 (Gabel Decl. in Support of Resp. to APA SMF [ECF No.
97-4]); APA Ex. 15 (James Depo. Tr. at 7-8, June 14, 2016 [ECF
No. 111-23]) (Plaintiffs’ counsel noting on the record that Captain
Gabel, among others, has been assisting in counsel’s representation of the class). It is odd then that the Plaintiffs invoke his participation in the arbitration as a basis for relief here.

APP-112
Captain Gabel or any of the other members of the TWA
Pilots Committee. See Resp. to APA SMF ¶ 29.26
Moreover Plaintiff Horner testified that changing the
membership of the TWA Pilots Committee would
“absolutely not” have improved the situation for the
legacy TWA pilots. See Resp. to APA SMF ¶ 30 (quot-

26

The Plaintiffs deny all of the statements of fact relevant to
this issue. See Resp. to APA SMF ¶¶ 26-29. All of the Plaintiffs’
denials are based on their legal arguments about the lack of a
unified position by APA and the two committee structure. But as
discussed above, however, these two legal arguments do not
provide a basis for disputing the rather straightforward facts at
issue here.
Moreover, the denials are problematic for other reasons.
With respect to the statements made by Plaintiff Sikes, for example, the Plaintiffs state that Plaintiff Sikes testified that there
should never have been a TWA Pilots Committee and that she had
told Captain Gabel this. Resp. to APA SMF ¶ 26. But this does not
deny the fact that she made these statements.
With respect to the statements made by Plaintiff Krakowski, the Plaintiffs assert that Plaintiff Krakowski testified that his
complaint was to the entire LOA 12-05 process. Resp. to APA SMF
¶ 28. But this does not address the fact in question.
With respect to the statements made by Plaintiff Horner,
the Plaintiffs assert that Plaintiff Horner objected to the TWA
Pilots Committee because it was the union creating a subclass
when the union was instead required to represent the pilots as a
whole. Resp. to APA SMF ¶ 29. The Plaintiffs also assert that
Plaintiff Horner did not support Captain Gabel’s decision to chair
the TWA Pilots Committee and told Captain Bounds that he was
concerned with their general involvement. Resp. to APA SMF ¶ 29.
But Plaintiff Horner’s testimony didn’t address their fitness for the
position. See Pl. Ex. 4 (Horner Depo. Tr. 27:12-15, 32:12-18, May
10, 2016 [ECF No. 124-4]).

APP-113
ing APA Ex. 11, Horner Depo. Tr. 34:11-14, May 10,
2016 [ECF No. 111-19]).27
ii. Selection of Arbitrators
For reasons similar to those discussed above as to
member selection, the Plaintiffs’ claim regarding the
selection of the arbitrators also fails. American and
APA both agreed that Arbitrator Bloch should serve as
the principal arbitrator because he is a prominent Railway Labor Act arbitrator that is familiar to practitioners in the airline industry. See Resp. to American SMF
¶ 6. Important for this case, Captains Gabel and
Bounds—APA board members from St. Louis who also
happened to be legacy TWA pilots—approved the
language of LOA 12-05 that identified Arbitrator Bloch
as the principal arbitrator. See Resp. to APA SMF
¶¶ 20, 39-40; Resp. to American SMF ¶ 8. The Protocol
Agreement provided that in addition to Arbitrator
Bloch, the members of the arbitration panel would
include Stephen Goldberg and Ira Jaffe. See Resp. to
American SMF ¶ 12. But it was Captain Gabel who
had suggested the appointment of Arbitrator Goldberg
and Arbitrator Jaffe as the remaining two arbitrators,

27

The Plaintiffs also argue that the TWA Pilots Committee
should have refused to participate in the arbitration process, see
Resp. to APA SMF ¶ 90, but they offer no evidence (or even theory)
as to how this would have attained a better result for the legacy
TWA pilots or why the TWA Pilots Committee’s lack of refusal to
participate constitutes a breach of duty by APA.

APP-114
and APA accepted his suggestion. See Resp. to APA
SMF ¶ 51; Resp. to American SMF ¶ 12.28
Moreover, the Plaintiffs do not allege that Captains
Gabel and Bounds acted irresponsibly or unfairly in
picking the arbitrators and none of them asked APA to
replace the arbitrators. See Resp. to APA SMF ¶¶ 46,
48-49, 53-55. Indeed, no legacy TWA pilots ever
complained to Captain Gabel regarding the selection of
Arbitrators Goldberg or Jaffe. See Resp. to APA SMF
¶ 53. Additionally, subsequent to entry into LOA 12-05,
APA held a large gathering of legacy TWA pilots. See
Resp. to APA SMF ¶ 43. At that meeting, APA informed the pilots that Arbitrator Bloch had been listed to
chair the arbitration panel and none of the pilots
present requested that APA replace Arbitrator Bloch.
See Resp. to APA SMF ¶¶ 43-44.29
The Plaintiffs note that Arbitrator Bloch had previously ruled against the legacy TWA pilots in prior arbi-

28

APA subsequently asked American to accept Arbitrator
Goldberg and Arbitrator Jaffe as arbitrators, which it did. See
Resp. to American SMF ¶ 12.
29

Plaintiff Horner did ask why Arbitrator Bloch had been
selected, noting that Arbitrator Bloch had ruled against the legacy
TWA pilots in a prior arbitration. See Resp. to APA SMF ¶¶ 45-46.
But Plaintiff Horner never asked Mr. James or any APA officer or
board members to replace Arbitrator Bloch, instead raising his
concerns with Captain Williams, a member of the TWA Pilots
Committee. See Resp. to APA SMF ¶ 46. The TWA Pilots Committee did not take action on the complaint or object to the selection
of Arbitrator Bloch, but that failure to act cannot be a basis for a
breach of duty claim against APA. See Resp. to APA SMF ¶¶ 42,
45-47.

APP-115
trations.30 But the fact that Arbitrator Bloch had
previously ruled against the legacy TWA pilots does
30

The Plaintiffs raise a few other objections in their pleadings, none of which have merit. The Plaintiffs object to APA’s
statement of fact that Plaintiff Horner’s only objection to Arbitrator Bloch was that he had ruled against TWA pilots in past arbitrations. See Resp. to APA SMF ¶ 47. They also assert that Plaintiff Horner objected to Arbitrator Bloch, along with Arbitrator
Goldberg and Arbitrator Jaffe because the entire process was
flawed and that as to the selection of arbitrators, the union and
the company should have each picked one, and those two arbitrators should have picked a neutral. See Resp. to APA SMF ¶¶ 47,
55 (citing Pl. Ex. 4, Horner Depo. Tr. 68, May 10, 2016 [ECF No.
124-4]). But the Plaintiffs have not articulated a theory whereby
this proposed process would have been better than allowing the
TWA Pilots Committee to exercise more influence over the selection. Such an argument would be counter-intuitive.
The Plaintiffs object to APA’s statement of fact that Plaintiff Sikes never raised an objection with anyone regarding the
selection of Arbitrator Bloch, asserting that Plaintiff Sikes objected to him on the second day of the arbitration. See Resp. to APA
SMF ¶ 48 (citing Pl. Ex. 2, Sikes Depo. Tr. 43-44, 48, May 10, 2016
[ECF No. 124-2]). But in her testimony, Plaintiff Sikes raises no
specific objection to Arbitrator Bloch himself, rather to the structure of the arbitration, as well as the seat placement of APA and
American next to one another and counsel “having chats with the
arbitrators” during breaks, though she admits she was unaware
of the content of those chats. Id.
The Plaintiffs also object to APA’s statement of fact that
Plaintiff Krakowski never raised an objection with anyone regarding the selection of Arbitrator Bloch. See Resp. to APA SMF ¶ 49
(citing Pl. Ex. 3, Krakowski Depo. Tr. 38, May 25, 2016 [ECF No.
124-3]). But in his testimony, Plaintiff Krakowski raises no specific
objection with the arbitrators themselves, rather stating that they
should have been selected in the manner used under the RLA, an
argument rejected above. See id.

APP-116
not make his selection as an arbitrator arbitrary,
discriminatory, or in bad faith, and Plaintiffs have not
provided evidence that his rulings were so egregious as
to make it so. See Andersons, Inc. v. Horton Farms,
Inc., 166 F.3d 308, 330 (6th Cir. 1998) (“An adverse
award in and of itself is no evidence of bias absent
some evidence of improper motivation.”). In fact,
Captain Gabel and the TWA Pilots Committee decided
that Arbitrator Bloch was a good choice for the LOA
12-05 arbitration, even after considering this criticism
of him. See Resp. to APA SMF ¶ 41. Given these facts,
it cannot be said that APA acted discriminatorily, arbitrarily or in bad faith. See Demetris v. Transp. Workers
Union of Am., 2015 U.S. Dist. LEXIS 13514, 2015 WL
474826, at *6 (N.D. Cal. Feb. 4, 2015) (a union does not
have to make a “perfect decision or even a particularly
good decision,” but rather must only act in a rational
manner that does not discriminate).
The Plaintiffs also argue that because LOA 12-05
stated that the arbitration was being conducted under
Section 7 of the Railway Labor Act (“RLA”), the arbitrators should have been selected in accordance with
the RLA. Section 7 of the RLA provides that the union
and the company each pick an arbitrator, and those
two arbitrators then select a third “neutral” arbitrator.
See 45 U.S.C. § 157. But parties can waive default
procedural requirements of the RLA, and no objection
to the selection of the arbitrators was ever presented
based on Section 7. See, e.g., Krieter v. Lufthansa
German Airlines, Inc., 558 F.2d 966, 968 (9th Cir.
1977). In any event, the procedures adopted by APA
were more favorable than those set out in the RLA, as
Captain Gabel chose two of the arbitrators and

APP-117
Captains Gabel and Bounds approved the third. Under
the RLA procedures, the legacy TWA pilots would have
been consigned to working with the AA Pilots Committee to agree on APA’s lone selection, with no influence
on the selection of the other two arbitrators.
iii. Selection of Counsel
The Plaintiffs argument about selection of counsel
for each of the pilot committees in the arbitration fails
for similar reasons. Each committee chose its own
counsel, with the TWA Pilots Committee choosing John
Clarke31 and the AA Pilots Committee selecting Wesley
Kennedy.32 See Resp. to APA SMF ¶¶ 60-61, 68.
In their briefs opposing summary judgment, the
Plaintiffs do not raise any issues with respect to the
31

Consistent with their general theory in the case, the Plaintiffs assert that APA influenced the TWA Pilots Committee’s
choice of Mr. Clarke as its counsel because the TWA Pilots
Committee was formed by APA and given party status under LOA
12-05. See Resp. to APA SMF ¶ 61. But that does not demonstrate
in any way that APA made the decision to select Mr. Clarke.

32

The Plaintiffs deny that the AA Pilots Committee chose
Mr. Kennedy and instead assert that Mr. Kennedy was chosen by
APA to represent the AA Pilots Committee. See Resp. to APA SMF
¶¶ 60, 68. But the Plaintiffs’ position is, yet again, without basis.
The Plaintiffs cite only to conversations between Mr. James and
Mr. Kennedy about billing for his services. See Resp. to APA SMF
¶ 60. But despite extensive discovery, nothing presented by the
Plaintiffs suggests that APA controlled or otherwise dictated who
the AA Pilots Committee should hire as counsel. The Plaintiffs
also fail to establish how the selection of Mr. Kennedy—other than
the conflict of interest issue discussed and rejected above—could
provide a basis for a breach of fiduciary duty claim on behalf of the
legacy TWA pilots.

APP-118
selection of Mr. Clarke as counsel for the TWA Pilots
Committee, seemingly dropping their prior claims
regarding his selection. In any event, the Court
concludes — for the same reasons discussed above
regarding selection of the members of the TWA Pilots
Committee — that APA acted appropriately in allowing
the TWA Pilots Committee to choose its own counsel.
Additionally, the Plaintiffs fail to establish that the
selection of Mr. Clarke caused them harm. They do not
claim that Mr. Clarke was unqualified to represent
them, and in fact engaged him in other proceedings
both prior and subsequent to the LOA 12-05 arbitration.33 Indeed, Mr. Clarke had extensive experience,
including arguing five cases at the Supreme Court,
three of which involved the interpretation of the RLA.
See Resp. to APA SMF ¶¶ 64, 67. Plaintiffs have not
even attempted to show that a different counsel might
have produced better results for the former TWA
pilots.34
33

In the year prior to the LOA 12-05 arbitration, Mr. Clarke
represented former TWA pilots in this Court, including Plaintiff
Sikes. See Resp. to APA SMF ¶ 65. Mr. Clarke was also chosen by
a group of former TWA pilots—including Plaintiffs Sikes, Horner,
and Krakowski—to represent them after the LOA 12-05 arbitration in an internal proceeding at APA related to the unsecured
claim obtained by APA in this bankruptcy. See Resp. to APA SMF
¶ 66.
34

The Plaintiffs offered no criticism of Mr. Clarke’s performance in the arbitration, other than commentary along the lines
of his being too “gentlemanly” and “long-winded.” See Resp. to APA
SMF ¶¶ 91-92. Such comments are clearly an insufficient basis for
a duty of fair representation claim against APA. Indeed, even
where an employee’s representative was not a licensed lawyer,
duty of fair representation claims have been rejected absent

APP-119
Turning to counsel for the AA Pilots Committee, the
Plaintiffs argue that APA displayed substantial bias in
retaining Mr. Kennedy, noting that Mr. Kennedy is
outside counsel to APA and has long represented it,
including in the AA/TWA merger and in connection
with the AA/U.S. Airways merger. See Pl. Add’l Facts
re: APA ¶¶ 59-61. Indeed, the TWA Pilots Committee
asserted at the time that Mr. Kennedy had an ethical
conflict of interest because he served as counsel to the
AA Pilots Committee in the LOA 12-05 arbitration, and
also as counsel to the committee advocating for all
American pilots—including legacy TWA pilots—in the
seniority merger with U.S. Airways. See Resp. to APA
SMF ¶ 72.
But once again, the Plaintiffs’ argument falls flat.
APA hired an attorney specializing in legal ethics to
review whether this “dual representation” would give
rise to a conflict. See Resp. to APA SMF ¶ 75. The
Plaintiffs do not dispute that the legal expert advised
APA that there was no conflict of interest. See Resp. to
APA SMF ¶ 78 (Plaintiffs admitting fact that ethics
counsel advised APA there was no conflict because
Mr. Kennedy did not represent the TWA Pilots Committee in the US Air integration); see also ¶¶ 75-76.
Such an admission is fatal to the Plaintiffs’ position.
See Bruce v. Local 333, Int’l Longshoremen’s Ass’n, 189
F. Supp. 2d 282, 288-90 (D. Md. 2002) (finding that

evidence that the representative was incompetent or that a different representative would have produced better results. See Mullen,
1999 U.S. Dist. LEXIS 16434, 1999 WL 974023, at *6; Sales v. YM
& YWHA of Washington Heights & Inwood, 2003 U.S. Dist. LEXIS
839, 2003 WL 164276, at *9 (S.D.N.Y. Jan. 22, 2003).

APP-120
union did not violate duty of fair representation
because it reasonably believed that it was acting appropriately on the advice of counsel); c.f. Power v. Kaiser
Found. Health Plan of Mid-Atl. States Inc., 87 F. Supp.
2d 545, 553 n.19 (E.D. Va. 2000).
Furthermore, allegations of an appearance of
impropriety do not establish a duty of fair representation claim given the lack of “causal connection between
the union’s wrongful conduct and [his or her] injuries.”
Vaughn, 604 F.3d at 709; c.f. Price v. Int’l Union,
United Auto. Aerospace & Agric. Implement Workers of
Am., 927 F.2d 88, 94 (2d Cir. 1991) (“appearance of
bias” with respect to arbitration procedures does not
raise due process concerns and does not support a duty
of fair representation claim) (citing Andrews v. Educ.
Ass’n of Cheshire, 829 F.2d 335, 340-41 (2d Cir. 1987)).
The Plaintiffs do not provide evidence that Mr. Kennedy’s role in the arbitration undermined the integrity
of the process or changed the result, as the TWA Pilots
Committee was given a full and fair opportunity to
participate and argue their case. C.f. Carr, 2016 U.S.
Dist. LEXIS 99895, 2016 WL 4061145, at *11 (union
failure to prevent witness participation “did not seriously undermine[] the integrity of the arbitral process,
which was otherwise fair, and which the neutral arbitrators—not [the union]—controlled, even if the failure
violated [the union’s] accounting and finance rules.”)
(internal citations and quotations omitted). Indeed, the
arbitrators rejected the proposal made by the AA Pilots
Committee, which was presented by Mr. Kennedy. See
Resp. to APA SMF ¶¶ 113-14, 116.

APP-121
4. Allegations Relating to Arguments at Arbitration
The Plaintiffs also allege APA violated its duty of
fair representation based on the positions taken by
different parties during the arbitration, specifically the
AA Pilots Committee proposal and APA’s objection to
the TWA Pilots Committee proposal. See Compl.
¶¶ 48(I), (J).
i. Position of the AA Pilots Committee
The Plaintiffs first argue that APA failed to prevent
the AA Pilots Committee from taking a position that
was unfair to the legacy TWA pilots. The Plaintiffs
appear to suggest that APA should have somehow
repudiated the proposal of the AA Pilots Committee
and defended the proposal of the TWA Pilots Committee. But the Plaintiffs position represents a misunderstanding of APA’s obligations with respect to the LOA
12-05 process. On this issue, the Court finds persuasive
the views in Carr v. Airline Pilots Association, International, 2016 U.S. Dist. LEXIS 99895, 2016 WL
4061145 (S.D. Tex. July 29, 2016). Carr involved the
seniority integration of two adverse pilot groups in the
merger of Continental and United Air Lines. See 2016
U.S. Dist. LEXIS 99895, [WL] at *1. In Carr, the union
representing all of the pilot groups chose to integrate
the merging carriers’ seniority lists through an arbitration process, pursuant to which each pilot group was
represented by its own merger committees. See 2016
U.S. Dist. LEXIS 99895, [WL] at *2. The plaintiff, a
Continental pilot, challenged the resulting arbitration
award, claiming that the union had violated its duty of
fair representation for several reasons, including by
refusing to intervene when the United pilot group

APP-122
made improper political arguments during the arbitration. See 2016 U.S. Dist. LEXIS 99895, [WL] at *7.
In its decision, the Carr court recognized that
“[u]nions have discretion when resolving internal disputes between conflicted groups and their actions are
judged by a ‘wide range of reasonableness.’” 2016 U.S.
Dist. LEXIS 99895, [WL] at *9 (quoting O’Neill, 939
F.2d 1199, 1204 (5th Cir. 1991)). The district court
found that a union satisfies its duty of fair representation in those circumstances by “establishing a ‘fair
process for determining seniority’ … .” Id. (quoting Air
Wisconsin Pilots Prot. Comm. v. Sanderson, 909 F.2d
213, 216 (7th Cir. 1990)). The court noted that “[o]ne
example of a fair process is a process to refer disputes
about seniority-list integration after airlines merge to
arbitration, under rules that require neutral arbitrators to integrate the seniority lists without intending to
favor one pilot group over the other.” Id. (citing Air
Wisconsin, 909 F.2d at 216). The court found that “[t]he
duty of fair representation does not require a union to
ensure a “fair” result in resolving disputes, including
disputes over seniority-list integration.” Id. (citing
O’Neill, 939 F.2d at 1201). With respect to the union’s
failure to interrupt the allegedly improper presentation
of the United pilot group, the Carr court noted that
there was no case law to support “the proposition that
a union must interject itself in this fashion into an
arbitration that has valid processes and procedures in
place. Instead the case law appears to support the
proposition that a union’s duty is satisfied by establishing neutral and valid processes and procedures for the

APP-123
arbitration.” 2016 U.S. Dist. LEXIS 99895, [WL] at *15
(citing Air Wisconsin, 909 F.2d at 216).35
The ruling in Carr accords with the Second Circuit’s
view that—when a union is “faced with two groups of
its members with objectives that [are] directly at odds”
—”[s]ubmission of the impending dispute to arbitration
[is] an equitable and reasonable method of resolving
it.” Gvozdenovic, 933 F.2d at 1107. In Gvozdenovic, the
Second Circuit concluded that the union members in
question had “fail[ed] to demonstrate that their interests were not fully represented in the arbitration
proceeding” and therefore the groups at issue “were
treated under the arbitration agreement with perfect
parity.” Id. (citing Cook v. Pan Am. World Airways,
Inc., 771 F.2d 635, 645 (2d Cir. 1985)) (finding no violation of a union’s duty of fair representation where the
evidence demonstrated that the interests of all
employee groups were represented vigorously throughout the proceedings).
Applying all these principles here, the Court finds
that the process established by APA was reasonable
and rejects the Plaintiffs’ argument based on the posi-

35

The Plaintiffs argue that the Carr decision is inapplicable
because the plaintiffs in Carr did “not attack core aspects of the …
process or procedures.” Carr, 2016 U.S. Dist. LEXIS 99895, 2016
WL 4061145, at *10. But the Plaintiffs’ claim with respect to the
proposal made by the AA Pilots Committee is also not an attack on
the procedures or process of the LOA 12-05 arbitration, but rather
an attack on the substantive positions of the parties and the
failure of APA to oppose those positions.

APP-124
tion taken by the AA Pilots Committee.36 Each side was
treated in a neutral manner. Both were given the
opportunity to fully represent themselves and state
their positions during the arbitration proceedings
through a representative empowered to independently
advocate on their behalf. See Resp. to APA SMF
¶¶ 84-87, 104-07, 110, 111-14, 116-23. Thus, neither
side could impose a “non-responsive” or “predatory”
proposal, Pl. Opp. to APA SJM at 14, without facing
rebuttal from the other. As the TWA Pilots Committee
had the full opportunity to counter any arguments
made by the AA Pilots Committee, APA had no obligation to interject itself into the process to prevent one
group from making its own arguments or to support
the arguments of the other side. This neutrality on the
part of APA did not prevent the arbitrators from considering the relevant evidence and arguments put
forward by both sides.37

36

Relatedly, the Court rejects as nonsensical the Plaintiffs’
argument that APA is somehow responsible for all the actions of
the AA Pilots Committee because it was a committee of APA and
was created pursuant to APA’s Constitution and Bylaws. See Pl.
Opp. to APA SJM at 15-16.
37

The Plaintiffs also cannot meet the requirement of causation on this claim, as the Plaintiffs have not shown that APA’s
failure to oppose the AA Pilots Committee proposal impacted the
result of the arbitration, since the arbitrators ultimately rejected
the proposal made by the AA Pilots Committee. See Resp. to APA
SMF ¶ 116.

APP-125
ii. APA Objection to Proposals of TWA Pilots
Committee
The Plaintiffs next argue that APA’s objection to the
proposal submitted by the TWA Pilots Committee
constituted a breach of fiduciary duty. But this argument overlooks that APA’s objection was a three-page
brief objecting to two procedural aspects of the TWA
Pilots Committee proposal for future arbitrations, and
offered no comment on the substantive proposals of the
TWA Pilots Committee regarding substitute job protections for Supplement CC. See Resp. to APA SMF
¶¶ 124-30. Indeed, the arbitrators saw APA as neutral
in the process, noting that APA had delegated its advocacy position to the two pilot committees and took no
position on the substantive positions submitted by
those committees. See APA Ex. 1-F (12-05 Arbitration
Merits Opinion at 6 n.9 [ECF No. 92-9]) (“For purposes
of the presentations, and in recognition of starkly
differing interests within the bargaining unit, APA
delegated its advocacy position in this case to two
committees composed of the former TWA pilots and the
AA pilots, respectively. APA takes no position on the
substantive positions submitted by the respective committees.”). The TWA Pilots Committee had the opportunity to respond to APA’s submission without interference and indeed did so. See Resp. to APA SMF ¶ 86.
In any event, the action of APA in responding to the
TWA Pilots Committee’s proposal on proceedings for
future arbitrations was not arbitrary, discriminatory,
or in bad faith. Rather, APA responded to the proposed
procedures for future arbitrations in a way that was
consistent with the governing text of LOA 12-05. Specifically, the APA brief opposed the proposal of the TWA

APP-126
Pilots Committee to appoint a “multi-party adjustment
board” to resolve future disputes as inconsistent with
LOA 12-05 and thus outside the jurisdiction of the
arbitrators. See APA Ex. 1-H at 2 (APA Response to
Proposal [ECF No. 92-11]). APA similarly opposed the
TWA Pilots Committee’s proposal to appoint a separate
committee of legacy TWA pilots in the seniority
integration between American and U.S. Airways as
conflicting with LOA 12-05, which excluded seniority
matters from the LOA 12-05 arbitrators’ jurisdiction.
See APA Ex. 1-H at 2-3 (APA Response to Proposal
[ECF No. 92-11]). APA’s position was that the latter
proposal sought to “bind a future statutory panel,” and
that this would be “improper.” APA Ex. 15 (James
Depo. Tr. 104:21-22, June 14, 2016 [ECF No. 111-23]).
Notably, the arbitrators rejected both of the procedural
proposals made by the TWA Pilots Committee. See
Resp. to APA SMF ¶ 130. The positions taken by APA
—that would only affect future proceedings—were well
within the “wide range of reasonableness” granted to
unions in such circumstances, O’Neill, 499 U.S. at 67,
served legitimate union interests, and did not run afoul
of its neutrality on the question of what substitute job
protections should be imposed by the arbitrators.38 To
rule otherwise would improperly and unfairly handcuff
a union’s ability to act to enforce the ground rules of
arbitrations such as contemplated by LOA 12-05, even
38

Once again, the Plaintiffs have failed to show causation
here as the arbitrators declined to accept the TWA Pilots Committee’s procedural proposals on the merits, despite the TWA Pilots
Committee having had the full opportunity to present them. See
Resp. to APA SMF ¶ 130 (citing APA Ex. 1-F, 12-05 Arbitration
Merits Opinion at 19-20 [ECF No. 92-9]).

APP-127
if the participants took positions that clearly violated
those ground rules.
iii. Arguments Regarding APA Contacts with
Arbitrators
The Plaintiffs also complain that APA failed to
disclose a prior personal relationship between APA’s
general counsel, Edgar James, and Arbitrator Stephen
Goldberg. See Plaintiffs’ Supp. Memo. in Opp. to APA
Renewed Mot. for Summ. J. [ECF No. 127] (“Pl. Supp.
Opp. to APA SJM”) at 1-2. The Plaintiffs assert that
this caused unreasonable bias on the part of Arbitrator
Goldberg towards Mr. James and APA, and that the
failure of APA to disclose these contacts demonstrates
bad faith by APA. See id.
The Plaintiffs’ allegations are based on an email
exchange between Mr. James and Arbitrator Goldberg,
regarding Arbitrator Goldberg attending a dinner
party at the home of Mr. James. See Pl. Ex. 27 (James
and Goldberg emails [ECF No. 127-2]). The Plaintiffs
note that several weeks after the email exchange,
Mr. James emailed Arbitrator Goldberg to ask him to
participate in the LOA 12-05 arbitration. See id. Based
upon this evidence, the Plaintiffs assert that the two
were “obvious social friends” and had a “personal relationship” that would lead a reasonable person to
conclude that Arbitrator Goldberg was biased in favor
of Mr. James and would give Mr. James’ input during
the arbitration—or lack thereof—more weight than
others. See Pl. Supp. Opp. to APA SJM at 2-3.
To state a claim for a bad faith breach of the duty of
fair representation, a plaintiff must allege that the
union engaged in fraud, dishonesty, or other intention-

APP-128
ally misleading conduct with an improper intent,
purpose, or motive. See Vaughn, 604 F.3d at 709-10.
There is no evidence of such an improper purpose,
motive, or intent based on the undisputed facts here.
Arbitrator Goldberg was not chosen by Mr. James or
APA but rather by Captain Gabel, chair of the TWA
Pilots Committee. See Resp. to APA SMF ¶¶ 51-52.
Indeed, Captain Gabel chose Arbitrator Goldberg specifically because he had ruled against American in a
prior arbitration with APA. See Resp. to APA SMF
¶¶ 51-52. And as discussed extensively above, neither
APA—nor Mr. James on its behalf)—took any positions
during the arbitration regarding the substantive
proposals made by the TWA Pilots Committee or the
APA Pilots Committee during the arbitration. Instead,
APA formed two committees to advocate their own
substantive positions in the arbitration and ultimately
the arbitrators rejected the proposals made by both
committees. See Resp. to APA SMF ¶¶ 116, 122.
Finally, the Court notes that none of the cases
relied upon by the Plaintiffs on this issue involve a
duty of fair representation claim. Rather, they are
based on petitions to vacate an arbitration award
based on an arbitrator’s bias. See Pl. Supp. Opp. to
APA SJM at 2 (citing Scandinavian Reinsurance Co. v.
St. Paul Fire & Marine Ins. Co., 668 F.3d 60 (2d Cir.
2012); Applied Indus. Materials Corp. v. Ovalar
Makine Ticaret Ve Sanayi, A.S., 492 F.3d 132 (2d Cir.
2007); Morelite Constr. Corp. v. New York City Dist.
Council Carpenters Ben. Funds, 748 F.2d 79 (2d Cir.
1984); Washburn v. McManus, 895 F. Supp. 392 (D.

APP-129
Conn. 1994)).39 But the case currently before the Court
is limited to fair representation claims “relating to how
the arbitration was conducted,” an issue which is
“independent of a request to vacate an arbitration
result.” See Krakowski, 536 B.R. at 372-73. In fact, the
Plaintiffs have filed another case in this Court seeking
to vacate the arbitration award on exactly this basis,
Adv. No. 16-01138 (“Krakowski III”).40 Motions to
dismiss have been briefed in Krakowski III and the
Court will address the request to vacate the arbitration
award it in that case.41

39

See also Washburn v. McManus, 895 F. Supp. 392, 399 (D.
Ct. 1994) (to vacate an arbitration award, the relationship between
the arbitrator and the party’s principal must be so intimate as to
cast doubt on the arbitrator’s impartiality); see also Morelite
Constr. Corp. v. New York City Dist. Council Carpenters Ben.
Funds, 748 F.2d 79, 83 (2d Cir. 1984) (“[T]o disqualify any arbitrator who had professional dealings with one of the parties (to say
nothing of a social acquaintanceship) would make it impossible, in
some circumstances, to find a qualified arbitrator at all.”).
40

The Court notes that motions to dismiss have been filed in
Krakowski III. Krakowski III is the third adversary proceeding
filed by the Plaintiffs before this Court related to the legacy TWA
pilots obtaining alternative job protections. Due to the overlapping
nature of these cases, the Court decided not to hear argument on
the motions to dismiss in Krakowski III until it fully resolved the
overlapping issues that were raised in the motions for summary
judgment addressed in this current decision. Now that these
summary judgment motions have been resolved, the Court directs
the parties to contact Chambers to schedule oral argument on the
motions to dismiss in Krakowski III within 30 days of the date of
this decision
41

The Plaintiffs argue that it is incorrect to parse this case
into the six specific allegations listed in the Complaint. They

APP-130
C. Collusion Claim Against American
The Court also grants American’s motion for
summary judgment with respect to the Plaintiffs’
claims that American colluded with APA in its alleged
breach of the duty of fair representation. See Compl.
¶¶ 51-57. The union’s breach of its duty of fair representation is an essential element to establish a claim
of an employer’s collusion. See United Indep. Flight
Officers, Inc. v. United Air Lines, Inc., 756 F.2d 1274,
1283 (7th Cir. 1985); see also Flight Attendants in
Reunion v. Am. Airlines, Inc., 813 F.3d 468, 475 (2d
Cir. 2016). As the Court concludes that the Plaintiffs’
claim that APA has breached its duty fails, the Court
must also conclude that the Plaintiffs’ claim against
American for collusion fails as well. See id.
Even if there were claims remaining against APA,
the Plaintiffs’ collusion claims against American suffer
from several defects. The majority of the Plaintiffs’
claims against American do not assert that American
took any action in collusion with APA, but rather
simply that American had knowledge of APA’s alleged
breach of fiduciary duty. But that is not enough under
applicable law.

assert that their duty of fair representation claim against APA is
based on a pattern of conduct, and must be evaluated on the whole
of the evidence and not any particular incident. See Pl. Opp. to
APA SJM at 3 (citing Compl. ¶ 49). But the Court has examined
each of the Plaintiffs’ allegations and has found no basis for the
individual claims asserted by the Plaintiff. This assessment does
not change whether those allegations are evaluated as a whole or
parsed individually.

APP-131
The Plaintiffs cite cases to support their position
that an employer’s knowledge of a breach by a union is
sufficient for a collusion claim. But these cases all
involve a hybrid claim, where a duty of fair representation claim against a union is combined with an allegation that the employer has breached the collective
bargaining agreement. See Jones v. Trans World Airlines, Inc., 495 F.2d 790, 796, 798 (2d Cir. 1974);
O’Mara v. Erie Lackawanna R.R. Co., 407 F.2d 674,
677, 679 (2d Cir. 1969); Ferro v. Ry. Express Agency,
Inc., 296 F.2d 847 (2d Cir. 1961); N.L.R.B. v. Am.
Postal Workers Union, 618 F.2d 1249 (8th Cir. 1980);
American Postal Workers Union, etc. v. American
Postal Workers Union, 665 F.2d 1096, 214 U.S. App.
D.C. 278 (D.C. Cir. 1981); Sullivan v. Air Transp. Local
501 TWU, 2004 U.S. Dist. LEXIS 29815, 2004 WL
2851785, at *2-3 (E.D.N.Y. Dec. 6, 2004); Musto v.
Transp. Workers Union of Am., AFL-CIO, 339 F. Supp.
2d 456, 469-71 (E.D.N.Y. 2004). There is no breach of
contract claim in this case, and thus no hybrid claim
upon which to anchor a claim of collusion against
American based on mere knowledge. Indeed, the Court
has already ruled against the Plaintiffs on this exact
issue earlier in this case. See Krakowski, 567 B.R. at
259-60 (rejecting Plaintiffs’ argument that case law in
the Second Circuit permits employees to add their
employer as a defendant solely by alleging the
employer’s knowledge of the union’s breach).
Absent such a hybrid claim, a plaintiff seeking to
hold an employer liable for collusion must allege
conduct by the employer evidencing bad faith, discrimination, or hostility towards the plaintiffs in connection
with the union’s alleged breach of its duty. See, e.g.,

APP-132
Rakestraw v. United Airlines, Inc., 765 F. Supp. 474,
493-94 (N.D. Ill. 1991) (dismissing claim against
carrier even though carrier was aware of the animosity
between the union and the minority group because
there was no evidence that the carrier “acted in bad
faith or discriminated against plaintiffs in accepting
[the union’s] proposal.”), aff’d in relevant part, rev’d in
part, 981 F.2d 1524 (7th Cir. 1992); Cunningham v.
United Airlines, Inc., 2014 U.S. Dist. LEXIS 13414,
2014 WL 441610, at *6 (N.D. Ill. Feb. 4, 2014) (holding
that potential knowledge of union discrimination
against its members is not enough to support a finding
of collusion by the carrier, absent extreme factual
scenarios).
The Plaintiffs only allege a few affirmative actions
by American here, and none satisfy the standard for a
collusion claim. For example, American entered into
LOA 12-05 and the Protocol Agreement that established the scope of the arbitration. But the Plaintiffs
have come forward with nothing to show that these
actions were somehow collusive with a breach of fiduciary duty by APA. Turning to the conduct of the arbitration itself, American took no active role in selecting the
arbitrators other than Arbitrator Bloch, but simply
acquiesced to the decision of others.42 See Resp. to
42

The Court finds no evidence of conduct by American that
would constitute discrimination, bad faith or hostility towards the
Plaintiffs or the legacy TWA pilots with respect to the Protocol
Agreement appointing Arbitrator Bloch. For example, American
and APA agreed on the choice of Arbitrator Bloch because he was
a prominent Railway Labor Act arbitrator who was familiar to
practitioners in the airline industry. See Resp. to American SMF
¶ 6. There is no evidence that American acted with an improper

APP-133
American SMF ¶ 12. As discussed earlier, American
had no involvement in, or knowledge regarding, the
selection of the union committee members or their
counsel. See Resp. to American SMF ¶¶ 17, 20-21. Nor
did American adopt the proposal of either the AA Pilots
Committee or the TWA Pilots Committee as to the
alternative job protections to be awarded to the legacy
TWA pilots. See Resp. to American SMF ¶¶ 26-31. In
the face of these facts, the Plaintiffs raise two arguments, neither of which have merit.
First, the Plaintiffs rely on the failure of American
to police APA’s actions. See Pl. Resp. to American Mot.
for Summ. J. at 14 [ECF No. 121] (“When examined as
a whole, it is clear that American had knowledge of
and was complicit in APA’s breach.”). For example,
regarding APA’s alleged breach of establishing the pilot
committees and choosing the participants for the
arbitration, the Plaintiffs assert that “American never
questioned it” and “did not object to this structure.” Pl.
Resp. to American Mot. for Summ. J. at 15. Similarly,
on the Plaintiffs’ allegation that APA acted improperly
in the selection of the counsel representing each of the
committees, Plaintiffs repeatedly argue that American
engaged in collusion simply because “American did
nothing.” Id. at 17.
But this is nothing more than a variation of the
Plaintiffs’ seeking to hold American liable based on
purpose or with animus against the legacy TWA pilots in acceding
to the other parties’ request to use Arbitrator Bloch here. Indeed,
the negotiation of an agreement with a union—in and of itself—
cannot constitute collusion. See United Indep. Flight Officers, 756
F.2d at 1283.

APP-134
knowledge. It is not “appropriate to impose liability
where the employer is charged with nothing more than
having acceded to the demands of the [u]nion, even
with knowledge of facts from which it might be inferred
that the [u]nion was not fulfilling its duty of fair representation to all of its constituents.” Am. Airlines
Flow-Thru Pilots Coalition v. Allied Pilots Ass’n, 2015
U.S. Dist. LEXIS 169657, 2015 WL 9204282, at *3
(N.D. Cal. Dec. 17, 2015). Doing so would require an
employer to supervise the actions of the union counterparty and make an independent evaluation of the
conduct and decisions of the union prior to entering a
collective bargaining agreement. See Cunningham,
2014 U.S. Dist. LEXIS 13414, 2014 WL 441610, at *6.
Such a requirement is unworkable, as
[a] union does not automatically breach the duty
of fair representation every time it negotiates
for contracts in which some of its members are
treated differently than others. At least outside
contexts such as discrimination against protected classes, the onus should not be on the
employer to evaluate and consider whether
distinctions a union draws among its members
are appropriate. Thus, something more than
merely acceding to union demands must be
alleged and proven to impose liability on an
employer for ‘colluding’ in a breach of what
ultimately remains the union’s duty.
Am. Airlines Flow-Thru, 2015 U.S. Dist. LEXIS
169657, 2015 WL 9204282, at *3; see also Am. Postal
Workers Union, 665 F.2d at 1109 (“The [employer] was
required only to bargain in good faith with the employees’ exclusive representative, and, in so doing, it was

APP-135
expected to represent its own interests, not those of the
employees.”); Cunningham, 2014 U.S. Dist. LEXIS
13414, 2014 WL 441610, at *6 (“[T]he employer must
in most circumstances be able to rely on the union’s
disposition’ in spite of some employee objections; and it
would have a detrimental effect on labor-management
relations if an employer were forced to ignore union
representations and take the initiative in dealing with
employees whenever it suspects a discriminatory union
motive.”) (internal citations and quotations omitted).
Second, the Plaintiffs claim collusion based on
email communications between Arbitrator Goldberg
and Mark Burdette, a consultant for American during
the time of the LOA 12-05 arbitration. See Plaintiffs’
Statement of Additional Material Facts Regarding
American (“Pl. Add’l Facts re: American”) [ECF No.
122] ¶ 6. Mr. Burdette was involved in the selection of
arbitrators, the reviewing of proposals, and the development of contract language implemented pursuant to
the arbitration opinion, and also testified on behalf of
American during the arbitration. See Pl. Add’l Facts re:
American ¶ 6. From January through July 2013,
Mr. Burdette engaged in an email exchange with Arbitrator Goldberg about, among other things, Mr. Burdette’s interest in serving as a mediator, and
Mr. Burdette’s preparation of a mock award for the
arbitration that he shared with Arbitrator Goldberg
after the arbitrators had issued their decision.43

43

In January 2013, Mr. Burdette emailed Arbitrator Goldberg to congratulate him on his appointment to the LOA 12-05
panel and inform Arbitrator Goldberg that Mr. Burdette would
likely be participating in the case. See Pl. Add’l Facts re: American

APP-136
Based on the email exchange, the Plaintiffs argue
that Mr. Burdette and Arbitrator Goldberg had a
¶ 7. Arbitrator Goldberg responded, “Thx for the note, but I’d
rather see you as a member of the arbitration panel than as a
witness. One of these days. …” Pl. Add’l Facts re: American ¶ 7
(quoting Goldberg email [ECF No. 122-8]). Arbitrator Goldberg
was the founder of Mediation Research and Education Project, Inc.
(“MREP”), a non-profit corporation of arbitrators and mediators.
See Pl. Add’l Facts re: American ¶ 8. In March 2013, Mr. Burdette
and Arbitrator Goldberg again emailed one another. See Pl. Add’l
Facts re: American ¶ 9. During this exchange, Mr. Burdette asked,
“You mentioned sometime back about training me and putting me
on the MREP panel. Is that still a possibility?” Pl. Add’l Facts re:
American ¶ 9 (quoting Burdette email [ECF No. 122-11]). The two
then discussed the logistics of Mr. Burdette traveling to Chicago
to receive MREP training by Arbitrator Goldberg. See Pl. Add’l
Facts re: American ¶ 9. In this same email, Mr. Burdette commented to Arbitrator Goldberg that he thought Edgar James, an APA
attorney, would recommend Arbitrator Goldberg to a lawyer for
U.S. Airways for mediation work. See Pl. Add’l Facts re: American
¶ 10. Arbitrator Goldberg responded, in part, “By the way, I know
that Ed is a great fan of yours. … He told me he thought you
should be Senior V-P, HR (to which I wholeheartedly agreed).” Pl.
Add’l Facts re: American ¶ 10 (quoting Goldberg email [ECF No.
122-11]). In April 2013, Mr. Burdette went to Chicago for MREP
training and then became a member of MREP. See Pl. Add’l Facts
re: American ¶ 11. In July 2013, Mr. Burdette and Arbitrator
Goldberg had another email exchange, during which Mr. Burdette
mentioned that he would be sending a voluntary contribution to
MREP. See Pl. Add’l Facts re: American ¶ 12. Mr. Burdette also
mentioned that he had prepared a mock award that he would
share with Arbitrator Goldberg after the real award was released.
See Pl. Add’l Facts re: American ¶ 13. After the arbitration
decision was released, Mr. Burdette shared his mock award with
Arbitrator Goldberg. See Pl. Add’l Facts re: American ¶ 14. American never disclosed the relationship between Mr. Burdette and
Arbitrator Goldberg during the arbitration. See Pl. Add’l Facts re:
American ¶ 15.

APP-137
“significant relationship” prior to Arbitrator Goldberg’s
appointment and that this relationship caused Arbitrator Goldberg to be unreasonably biased towards American. The Plaintiffs argue that by choosing an arbitrator
that was biased—and failing to disclose that bias to the
other participants—American was complicit in creating
a hostile and discriminatory arbitration that was
weighted in its favor and against the Plaintiffs.
The question at hand, however, is not whether
American itself breached some independent duty owed
by American to these legacy TWA pilots, but whether
American colluded in a breach of APA’s duty of fair
representation. Seen in that light, these emails are
insufficient. It is undisputed that APA had no knowledge of the communications between Mr. Burdette and
Arbitrator Goldberg. See APA Ex. 17 (Burdette Depo.
Tr. 73:23-85:11 [ECF No. 111-25]). Moreover, the
communications took place subsequent to Arbitrator
Goldberg being chosen,44 further attenuating any claim
that APA somehow breached its fiduciary duty of fair
representation in selecting the arbitrator. Thus, these
emails cannot be evidence of APA’s breach of duty or
American’s collusion in such an APA breach. Nor do
the communications suggest hostile or discriminatory
intent towards the Plaintiffs or the legacy TWA pilots.
See Pl. Exs. 8, 11-13 [ECF Nos. 122-8, 122-11, 122-12,

44

The first email cited by the Plaintiffs is from Mr. Burdette
to Arbitrator Goldberg on January 10, 2013, in which Mr. Burdette
congratulates Arbitrator Goldberg on having already been appointed to the LOA 12-05 arbitration panel. See Plaintiffs’ Statement of
Additional Material Facts Regarding American [ECF No. 122] ¶ 7
(citing Pl. Ex. 8, Burdette email [ECF No. 122-8]).

APP-138
122-13]. Rather, they establish that Mr. Burdette was
engaged in a severely misguided attempt to further his
career by becoming an arbitrator. See APA Ex. 17 (Burdette Depo. Tr. 82:15-20 [ECF No. 111-25]) (Mr. Burdette testifying that he was not attempting to influence
the arbitration award in any way).
Finally, the Court notes that the Plaintiffs in
Krakowski III seek to vacate the arbitration award
based on this same allegation of bias by Arbitrator
Goldberg, and the Court will address any such claim of
bias in that lawsuit.45
CONCLUSION
For the reasons stated above, the Defendants’
motions for summary judgment are granted and the
Plaintiffs’ motion to amend the Complaint is denied.
The Plaintiffs have failed to present an issue for trial
with respect to APA because, considering to all the
evidence in the Plaintiffs’ favor, a reasonable juror
could not find a breach of APA’s duty of fair representation. The Plaintiffs have also failed to present an
issue for trial with respect to their collusion claim
against American given the failure of their breach of
fiduciary duty against APA and because there is not
affirmative action that would constitute collusion by
American under applicable law.
The Defendants should settle an order on three
days’ notice. The proposed order must be submitted by
45

The Plaintiffs have raised many arguments in their
papers. To the extent that an argument made by the Plaintiffs has
not been specifically addressed by the Court in this decision, it is
rejected as being insufficient to survive summary judgment.

APP-139
filing a notice of the proposed order on the Case
Management/Electronic Case Filing docket, with a
copy of the proposed order attached as an exhibit to the
notice. A copy of the notice and proposed order shall
also be served upon counsel to the Plaintiffs.

APP-140
APRIL 2017 BANKRUPTCY COURT DECISION
(Krakowski II)
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 567 B.R. 247, 2017 Bankr. LEXIS 1035, 64
Bankr. Ct. Dec. 6, Adv. No. 14-01920 (Bankr. S.D.N.Y.
April 14, 2017) (“Krakowski II”).
UNITED STATES BANKRUPTCY COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
In re: AMR CORP., et al.,
Reorganized Debtors.
JOHN KRAKOWSKI, et al.,
individually and on behalf of
those similarly situated,
Plaintiffs,

Chapter 11
Case No. 11-15463
(SHL) (Confirmed)
Adv. No. 14-01920
(SHL)

v.
AMERICAN AIRLINES, INC.,
et al.,
Defendants.
April 14, 2017
Before Bankruptcy Judge Sean H. Lane

APP-141
MEMORANDUM OF DECISION
Before the Court are the Defendants’ motions to
dismiss [ECF Nos. 40, 41]1 the second amended
complaint (the “Second Amended Complaint”) [ECF
No. 33] that was filed by Plaintiffs John Krakowski,
Kevin Horner, and M. Alicia Sikes on behalf of themselves and all persons similarly situated against
Defendants American Airlines, Inc. (“American”) and
the Allied Pilots Association (the “APA”), which is the
pilots’ union at American. The Plaintiffs are former
Trans World Airlines (“TWA”) pilots now employed by
American. For the reasons set forth below, the Court
grants the Defendants’ motions to dismiss.
BACKGROUND
The factual background of this case is set forth in
the Court’s most recent decision in this case, familiarity with which is assumed. See Krakowski v. Am.
Airlines, Inc. (In re AMR Corp.), 538 B.R. 213 (Bankr.
S.D.N.Y. 2015) (the “September 2015 Decision”). The
parties and events involved have been the subject of
extensive litigation before this Court in several cases,
resulting in numerous other written decisions. See
Krakowski v. Am. Airlines, Inc. (In re AMR Corp.), 536
B.R. 360 (Bankr. S.D.N.Y. 2015); Krakowski v. Am.
Airlines, Inc. (In re AMR Corp.), 2015 Bankr. LEXIS
1721, 2015 WL 2414750 (Bankr. S.D.N.Y. May 19,
2015); Krakowski v. Am. Airlines, Inc. (In re AMR
Corp.), 2014 Bankr. LEXIS 2610, 2014 WL 2508729
1

Unless otherwise specified, references to the Case Management/Electronic Case Filing (“ECF”) docket are to this adversary
proceeding.

APP-142
(Bankr. S.D.N.Y. June 3, 2014). The Court takes judicial notice of these decisions, as they provide much
needed context for the motions now before the Court.2

2

Judicial notice is appropriate even though the parties’ litigation spans several different adversary proceedings in this
bankruptcy. See In re E.R. Fegert, Inc., 887 F.2d 955, 957-58 (9th
Cir. 1989) (“Whether these facts were supported by the record in
this adversary proceeding is unclear; however, all of the facts are
supported by the record of the underlying bankruptcy matter. …
‘The record in an adversary proceeding in bankruptcy presumes
and in large measure relies upon the file in the underlying case
…’”) (quoting Berge v. Sweet (In re Berge), 37 B.R. 705, 708 (W.D.
Wis. 1983)); Mirena IUD Prods. Liab. Litig., 29 F. Supp. 3d 345,
350 (S.D.N.Y. 2014) (“The Court may … rely on matters of public
record, such as judicial documents and official court records, in
deciding whether to dismiss a complaint.”); Ferrari v. Cty. of
Suffolk, 790 F. Supp. 2d 34, 38 n.4 (E.D.N.Y. 2011) (“In the Rule
12(b)(6) context, a court may take judicial notice of prior pleadings,
orders, judgments, and other related documents that appear in the
court records of prior litigation and that relate to the case sub
judice.”); Am. Tissue, Inc. v. Donaldson, Lufkin & Jenrette Sec.
Corp., 351 F. Supp. 2d 79, 96 n.17 (S.D.N.Y. 2004) (“The Court can
take judicial notice of matters of public record … including filings
in related lawsuits. …”); Messer v. Wei Chu (In re Gao), 560 B.R.
50, 55 & n.4 (Bankr. E.D.N.Y. 2016) (taking judicial notice of
relevant documents filed in debtor’s bankruptcy case and related
adversary proceedings) (citing cases); Citizens Bank v. Leach (In
re Leach), 35 B.R. 100, 101-02 & n.5 (Bankr. W.D. Ky. 1983) (use
of “entire file” is consistent with the Federal Rules of Evidence
given connections between a “case” and a “proceeding”) (citing
Leather Comfort Corp. v. Chem. Sales and Serv. Co. (In re Saco
Local Dev. Corp.), 30 B.R. 862, 865 (Bankr. D. Me. 1983) (“[B]ankruptcy judges would be remiss” if they did not take judicial notice
of the debtor’s bankruptcy case as a whole, including documents
filed in the case because of bankruptcy’s unique interrelated multiparty nature and a duty to “notice … records and files in [the]
cause. …”)).

APP-143
In April 2001, American acquired the assets of
TWA. Second Amended Compl. ¶ 16. Shortly thereafter, American and the APA executed Supplement CC,
which modified the pilot seniority list at American to
include the former TWA pilots, while it stripped them
of much of their existing seniority at TWA. Id.
¶¶ 17-19. Under Supplement CC, roughly half of these
former TWA pilots were placed at the bottom of
American’s seniority list, while others were integrated
into the list but retained only a fraction of the seniority
that they held at TWA. Id. ¶¶ 18-19.
To compensate for this loss of seniority, Supplement
CC created a “protective fence” in TWA’s former hub at
St. Louis. Id. ¶ 20. The protective fence set aside a
minimum number of Captain and First Officer positions in St. Louis for which these former “legacy” TWA
pilots were given preferential bidding. Id. “Thus, while
reducing the seniority of legacy TWA pilots put them at
a relative disadvantage for purposes of bidding against
a much larger number of American pilots for positions
on other routes, the protective fence guaranteed a
certain number of desired positions on routes from
St. Louis with bidding advantages for legacy TWA
pilots.” Krakowski, 2015 Bankr. LEXIS 1721, 2015 WL
2414750, at *1; see also Second Amended Compl. ¶ 20.
In November 2011, American filed for Chapter 11
protection. Second Amended Compl. ¶ 34. American
subsequently obtained the Court’s permission to abrogate its then-existing collective bargaining agreement
(the “Old CBA”) with the pilots and their union (the
APA) under Section 1113 of the Bankruptcy Code. Id.
¶ 36; see also In re AMR Corp., 477 B.R. 384, 454
(Bankr. S.D.N.Y. 2012) (finding that the Debtors estab-

APP-144
lished that changes were necessary to the collective
bargaining agreement and rejecting many of the APA
objections, but denying the Debtors’ motion under
Section 1113 of the Bankruptcy Code without prejudice
because the Debtors failed to show that certain proposed changes were justified by either reference to the
Debtors’ business plan or the practices of the Debtors’
competitors); In re AMR Corp., 478 B.R. 599, 602
(Bankr. S.D.N.Y. 2012) (granting the Debtors’ renewed
motion under Section 1113 of the Bankruptcy Code).
The Old CBA was void as of September 5, 2012. Second
Amended Compl. ¶ 37.
American and the APA subsequently negotiated a
new collective bargaining agreement for its pilots,
which took effect on January 1, 2013 (the “New CBA”).
Id. ¶¶ 39, 44. At the same time, American and the APA
entered into a letter agreement to continue using the
same pilot seniority list that had been utilized under
the Old CBA (“LOA 12-05”). See New CBA at LOA
12-05;3 Second Amended Compl. ¶ 39. LOA 12-05
provided that “[American] and [the] APA agree that
the [legacy] TWA pilots’ existing seniority placements
on the Pilots’ System Seniority List are final and shall
continue pursuant to Section 13 of the CBA notwithstanding the termination of Supplement CC and any
preferential flying rights associated with those seniority placements.” See New CBA at LOA 12-05-1. Under
the New CBA, therefore, American and the APA effectively agreed to use the same seniority list that was
utilized under the Old CBA and Supplement CC, which
3

The New CBA, including LOA 12-05, is attached as
Exhibit 1 to the Plaintiffs’ first amended complaint. [ECF No. 1-3].

APP-145
meant that the Plaintiffs and other former TWA pilots
remained at a lower seniority level than their actual
years of service at TWA. Second Amended Compl.
¶¶ 39, 40. But the New CBA did not include the protective fence that had existed under Supplement CC. Id.
¶ 39. Instead, “[t]he APA and American agreed to
appoint an arbitrator to decide how these [legacy TWA]
pilots should be compensated for the loss of the ‘protective fence’ in St. Louis. But the APA and American also
agreed that, when awarding relief, the arbitrator
would not be allowed to revisit the issue of these pilots’
loss of seniority in 2001.” Krakowski, 2014 Bankr.
LEXIS 2610, 2014 WL 2508729, at *1.
In their first amended complaint (the “First
Amended Complaint”) [ECF No. 1-9], the Plaintiffs
raised a variety of claims based on the treatment of
these legacy TWA pilots. Count I of the First Amended
Complaint asserted that through the continued use of
the seniority list under the Old CBA, American breached the terms of the New CBA. See First Amended
Compl. ¶¶ 38-40. Count II asserted that by agreeing to
use the old seniority list, the APA had breached its
duty of fair representation to former TWA pilots now at
American. See id. ¶¶ 49-50. Count III asserted that
American had colluded in the APA’s breach of its
fiduciary duty. See id. ¶¶ 52-53.
In the September 2015 Decision, the Court dismissed Counts I and III in their entirety. See Krakowski,
538 B.R. at 225. As to Count I, the Court held that
American’s use of the old seniority list did not breach
the terms of the New CBA. See id. at 218-21. On Count
III, the Court found the Plaintiffs’ conclusory allegations insufficient to state a claim for collusion against

APP-146
American, but ruled that the Plaintiffs could amend
their complaint to adequately plead a claim against
American for collusion in the APA’s alleged breach of
its duty of fair representation. See id. at 224-25.
As to the remaining claim for breach of the duty of
fair representation against the APA, the Court dismissed the portion of Count II that relied upon the breach
of contract claim asserted in Count I. See id. at 222-23.
The Court, however, left open two other theories of
liability under Count II. See id. at 223-24. These
theories alleged that the APA breached its fiduciary
duty to the legacy TWA pilots based on two actions:
Agreeing to a System Seniority List that mirrors
the prior list created under Supplement CC and
acknowledged by the APA in 2001 to be unfair to
the former TWA pilots; and
Agreeing to a System Seniority List that treats
the former TWA pilots differently (and worse)
than the pilots of other airlines acquired by
American.
First Amended Compl. ¶ 49; see also Second Amended
Compl. ¶ 42.
The Court noted that these claims did not relate to
the alleged breach of the New CBA but instead concluded that they could be construed to assert a claim
during the discrete period of time after the abrogation
of the Old CBA in September 2012 and before the
Defendants agreed to enter into the New CBA in
December 2012 (the “Post-Abrogation Period”). Krakowski, 538 B.R. at 223-24. With respect to these
surviving claims, the Court stated,

APP-147
[w]hile not expressly set forth in the Complaint,
it appears that the Plaintiffs argue that the APA
should not have agreed to use the old seniority
list for former TWA pilots once the Old CBA was
abrogated because the old seniority list was
unfair once the corresponding job protections in
Supplement CC had been eliminated. … Drawing all reasonable inferences in favor of the
Plaintiffs, therefore, the Court finds that the
two remaining claims under Count II are
distinct from the contract claim and survive
independently.
Id. at 223 (emphasis added). The Court characterized
these surviving claims as the APA having “violated its
duty by agreeing to use the old seniority list immediately after the Old CBA was abrogated even though the
job protections of Supplement CC were gone.” Id. at
224 (emphasis added).
The Court also distinguished the surviving aspects
of Count II from the claims asserted in the related case
of Krakowski v. Am. Airlines, Inc., et al., Adv. Proceeding No. 13-01283 (“Krakowski I”), which involves the
same parties. In Krakowski I, the Plaintiffs initially
alleged that the APA violated its duty of fair representation by entering into an agreement with American to
establish an arbitration process to replace the protections for legacy TWA pilots under Supplement CC, but
that restricted the arbitrator from modifying the
seniority of the legacy TWA pilots. In the September
2015 Decision, the Court noted that the claims in the
First Amended Complaint were distinct from those in
Krakowski I, which focused on (1) the arbitration
regarding the substitute job protections that should be

APP-148
given to former TWA pilots to replace those lost when
Supplement CC was terminated; and (2) the agreement
between the APA and American that the arbitrator’s
remedy in that proceeding could not include any
change in the seniority of these former TWA pilots. See
Krakowski, 538 B.R. at 223. The Court noted that the
First Amended Complaint cited neither of these events
and appeared to be crafted to avoid mention of them.
See id. at 223-24.
At a subsequent status conference, the Court
discussed the scope of its ruling on Count II. In
response to a request for clarification on the remaining
issues in the case, the Court set forth the surviving
claim:
there’s a period when the CBA—the old CBA
was abrogated under 1113 and before there was
a new CBA there was a decision made to use the
existing seniority lists, and that that use of the
seniority lists was a breach of the duty there.
Now, I recognize that that’s a very small …
that’s a very discrete statement in the context of
many of things that are going on in terms of
unions, the airlines, and employees in the aftermath of the 1113, so—but that’s the claim I
could see construing the complaint on behalf of
the plaintiff that I thought would exist as a duty
of fair representation claim.
(Hr’g Tr. 28:24-29:10, Oct. 15, 2015). In a later
colloquy, the Court further elaborated:
Mr. James: I think I got it. I think we’re talking
about that period before—

APP-149
The Court: After the 1113 the airline decided to
exercise its rights under 1113—
Mr. James: Correct.
The Court: —so the contract ceased to exist
before any new contract was agreed upon.
Mr. James: Correct. Thank you, Your Honor.
The Court: Mr. Press, is that how you understand it? I mean that’s—
Mr. Press: I think you’re correct.
(Hr’g Tr. 30:1-11, Oct. 15, 2015) [ECF No. 50].
On October 20, 2015, the Plaintiffs filed the Second
Amended Complaint that is the subject of these
motions. Instead of amending their complaint to
address the remaining claim under Count II—one for
the period after the Old CBA was abrogated and before
entry of the New CBA—the Plaintiffs revised the
complaint to include a new theory of liability relating
to the New CBA. More specifically, the Second Amended Complaint alleges liability based on American
offering, and the APA accepting, a new collective bargaining agreement in December 2012 that was free of
Supplement CC’s protective fences but implemented a
seniority list that mirrored the list created by Supplement CC. Second Amended Compl. ¶¶ 39-40. The
Defendants contend that this new theory is, in fact, an
old one and must be dismissed given the Court’s prior
rulings. The Court agrees.

APP-150
DISCUSSION
Federal Rule of Civil Procedure 12(b)(6), made
applicable by Bankruptcy Rule 7012, provides that a
complaint must be dismissed if it fails to state a claim
upon which relief can be granted. In analyzing a
motion to dismiss under Rule 12(b)(6), a court looks to
whether a plaintiff has pleaded “enough facts to state
a claim to relief that is plausible on its face.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955,
167 L. Ed. 2d 929 (2007). A court must proceed “on the
assumption that all the allegations in the complaint
are true.” Id. at 555. Taken as true, these facts must
establish “more than a sheer possibility that a defendant has acted unlawfully.” Ashcroft v. Iqbal, 556 U.S.
662, 677, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2007).
“However, this does not mean that a claim must
contain ‘detailed factual allegations’ to survive a Rule
12(b)(6) motion to dismiss.” Eastman Chem. Co. v.
Nestle Waters Mgmt. & Tech., 2012 U.S. Dist. LEXIS
141281, 2012 WL 4474587, at *4 (S.D.N.Y. Sept. 28,
2012) (citing Talley v. Brentwood Union Free Sch. Dist.,
2009 U.S. Dist. LEXIS 53537, 2009 WL 1797627, at *4
(E.D.N.Y. June 24, 2009)). Rather, the court must
determine “whether the well-pleaded factual allegations, assumed to be true, plausibly give rise to an
entitlement to relief.” Hayden v. Paterson, 594 F.3d
150, 161 (2d Cir. 2010) (citing Iqbal, 556 U.S. at 679).
The court must also draw all reasonable inferences in
favor of the non-moving party. Ganino v. Citizens Utils.
Co., 228 F.3d 154, 161 (2d Cir. 2000).

APP-151
A. Plaintiffs Are Barred From Pursuing Their
APA Claims Given the Court’s Prior Rulings
Claims dismissed in a prior court decision are
barred by the law of the case doctrine. That doctrine
provides that “[w]hen a court decides upon a rule of
law, that decision should continue to govern the same
issues in subsequent stages in the same case.” Arizona
v. California, 460 U.S. 605, 618, 103 S. Ct. 1382, 75 L.
Ed. 2d 318 (1983); see also De Johnson v. Holder, 564
F.3d 95, 99 (2d Cir. 2009). “Law of the case rules have
developed to maintain consistency and avoid reconsideration of matters once decided during the course of a
single continuing lawsuit. These rules do not involve
preclusion by final judgment; instead, they regulate
judicial affairs before final judgment.” In re PCH
Assoc., 949 F.2d 585, 592 (2d Cir. 1991). “Courts apply
the law of the case doctrine when their prior decisions
in an ongoing case either expressly resolved an issue or
necessarily resolved it by implication.” Aramony v.
United Way of Am., 254 F.3d 403, 410 (2d Cir. 2001)
(internal citations and quotation marks omitted). It
“operates to create efficiency, finality, and obedience
within the judicial system.” Allapattah Servs., Inc. v.
Exxon Corp., 372 F. Supp. 2d 1344, 1363 (S.D. Fla.
2005); see also Liani v. Baker, 2010 U.S. Dist. LEXIS
64785, 2010 WL 2653392, at *11 (E.D.N.Y. June 28,
2010) (“Law of the case is a doctrine of judicial efficiency that allows a court to avoid time-consuming relitigation of issues already decided. It is not a substantive
limit on the power of the court, however, and every
court retains the authority to reconsider its prior nonfinal rulings.”) (internal citations and quotations omitted); McGee v. Dunn, 940 F. Supp. 2d 93, 100 (S.D.N.Y.

APP-152
2013) (“The objective of the law of the case doctrine
includes promoting efficiency and avoiding endless litigation by allowing each stage of the litigation to build
on the last and not afford an opportunity to reargue
every previous ruling.”) (internal citations and quotations omitted).
Applying the doctrine here, the Court concludes
that the claims in the Second Amended Complaint are
barred by this Court’s prior decisions in Krakowski I
and in this case.
It is necessary to revisit the procedural background
in Krakowski I to explain why this is so. In the New
CBA, American and the APA settled on a binding arbitration process to replace the job protections lost
through the abrogation of Supplement CC, but also
agreed to preclude the arbitrator from modifying the
legacy TWA pilots’ seniority as a possible remedy.
Krakowski, 2014 Bankr. LEXIS 2610, 2014 WL
2508729, at *2. This arrangement was the basis for the
Plaintiffs’ claim in Krakowski I that the APA had
breached its duty of fair representation by agreeing to
terminate Supplement CC while precluding the arbitration from altering the seniority of legacy TWA
pilots. 2014 Bankr. LEXIS 2610, [WL] at *4, 6. But the
Court dismissed the Krakowski I complaint in its
entirety, ruling that the Plaintiffs failed to show the
actions taken by the APA were discriminatory, arbitrary or in bad faith. The Court noted that while the
Plaintiffs’ claims were rooted in a refusal to improve
the seniority of the legacy TWA pilots, the APA’s
actions did not actually remove the Plaintiffs’ seniority,
which had been lost over a decade prior through the
Old CBA. 2014 Bankr. LEXIS 2610, [WL] at *4.

APP-153
Instead, the APA agreed to an arbitration process to
determine substitute job protections for the protective
fence so long as the new protections did not alter
seniority. The Court recognized that
[i]n deciding whether to allow seniority to be
reopened … the APA necessarily was required to
balance the interests of the Plaintiffs and all the
other pilots that the APA represent[ed]. …
Courts have recognized that many decisions
made by a union require the union to make
distinctions among employees, but that these
distinctions do not necessarily constitute discrimination.
Id. The Court held that the Plaintiffs had not alleged
anything that would allow the Court to conclude that
the APA intended to unlawfully discriminate against
the legacy TWA pilots or that the APA had made this
decision without a legitimate union objective. 2014
Bankr. LEXIS 2610, [WL] at *4-5. The Court also noted
that the Plaintiffs had filed their action before the arbitration was completed and thus were essentially arguing that no possible remedy arising out of the arbitration could ever be sufficient. 2014 Bankr. LEXIS 2610,
[WL] at *5. Accordingly, the Court observed that the
actual harm to the Plaintiffs was speculative at that
time. Id.
The Plaintiffs subsequently supplemented the
complaint in Krakowski I, again alleging that the APA
breached its duty of fair representation. With numerous breaches asserted, the Court divided the Plaintiffs’
claims into three general categories: (1) the APA’s
failure to bargain about the termination of Supplement

APP-154
CC and agreement to terminate Supplement CC without securing equivalent job protections; (2) the APA’s
agreement to preclude the Supplement CC arbitrators
from addressing seniority and the APA’s failure to
pursue something to “replicate” the Supplement CC job
protections; and (3) claims that the Supplement CC
arbitration was not procedurally appropriate or fair,
including alleged deficiencies in the selection of the
arbitrators, the participants, and the lawyers. Krakowski, 536 B.R. at 369. The Court dismissed all of the
Plaintiffs claims, save for the third set of allegations
regarding how the arbitration was conducted. See id. at
372-74. In so doing, the Court noted that it had previously rejected the Plaintiffs’ position that the only
satisfactory remedy in the arbitration required a
modification of the seniority for the legacy TWA pilots.
See id. at 372.
The Court concludes that the Plaintiffs’ Second
Amended Complaint is simply a thinly veiled attempt
to make an end run around the prior rulings in
Krakowski I. The Plaintiffs’ allegations in the Second
Amended Complaint again revolve around the failure
to change the seniority of the legacy TWA pilots. The
Plaintiffs now assert that the APA breached its fiduciary duty by agreeing to preserve the seniority list
created by Supplement CC without the protective
fences. See Second Amended Compl. ¶ 42. But this is
essentially the same claim dismissed in Krakowski I,
where these same Plaintiffs alleged that the APA
breached its fiduciary duty by agreeing in the New
CBA to terminate Supplement CC and to limit any
potential relief from altering the seniority of the legacy
TWA pilots. The Court has already ruled on those alle-

APP-155
gations. Specifically, the Court found that the APA’s
agreement to preserve the pre-existing seniority list
did not in and of itself breach the APA’s fiduciary
duties, given the existence of the arbitration process to
create substitute job protections. In reaching that
conclusion, the Court was mindful that Supplement CC
was part of the pilots’ collective bargaining agreement
that was swept away by the Court’s grant of Section
1113 relief. Krakowski, 2014 Bankr. LEXIS 2610, 2014
WL 2508729, at *4; see also Krakowski, 536 B.R. at
369-372. Given the rulings in Krakowski I, the Court
cannot permit the Plaintiffs to once again pursue
essentially the same claims in the current litigation.
“Since different adversary proceedings in the same
main case do not constitute different ‘cases,’ it [follows]
that the law of the case doctrine as articulated in one
adversary proceeding would apply in another adversary proceeding filed in the same case.” Bourdeau
Bros., Inc. v. Montagne (In re Montagne), 2010 Bankr.
LEXIS 212, 2010 WL 271347, at *6 (Bankr. D. Vt. Jan.
22, 2010) (citing Cohen v. Bucci, 905 F.2d 1111, 1112
(7th Cir. 1990) (“Adversary proceedings in bankruptcy
are not distinct pieces of litigation; they are components of a single bankruptcy case,” for purposes of the
law of the case doctrine.)); Artra Grp., Inc. v. Salomon
Bros. Holding Co., 1996 U.S. Dist. LEXIS 16380, 1996
WL 637595 at *5 (N.D. Ill. Oct. 31, 1996) (holding law
of the case doctrine covers litigation in main case and
adversary proceeding); see, e.g., Thomas v. N.Y.C. Dep’t
of Educ., 938 F. Supp. 2d 314, 317 (E.D.N.Y. 2013) (dismissing claims in amended complaint when already
alleged in the original complaint and dismissed); Gardner v. Wansart, 2006 U.S. Dist. LEXIS 69491, 2006 WL
2742043, at *6 (S.D.N.Y. Sept. 26, 2006) (same).

APP-156
The Plaintiffs assert their claim in the Second
Amended Complaint is distinct from the prior litigation. They argue that “once defendants implemented the
result of that arbitration, the TWA pilots were …
damaged by defendants’ agreement at issue in this
case to use a seniority list that mirrored the old list,
but without Supplement CC’s protections.” Plaintiffs’
Opposition to Defendants’ Motions to Dismiss Second
Amended Complaint at 10-11 (the “Opposition”) [ECF
No. 44]. But this argument is just a repackaging of the
Plaintiffs’ earlier challenge to the Defendants’ establishment of an arbitration process that left in place the
existing seniority list while seeking a substitute for
Supplement CC’s job protections. See Krakowski, 2014
Bankr. LEXIS 2610, 2014 WL 2508729, at *4-6 (ruling
that Plaintiffs failed to state a claim that the APA
breached its duty of fair representation by agreeing to
terminate Supplement CC and to limit any potential
relief in the arbitration from altering the seniority of
legacy TWA pilots); see also Krakowski, 536 B.R. at
369-72.4
Even putting aside Krakowski I, the Second
Amended Complaint is also at odds with the guidance

4

Of course, the Plaintiffs can challenge the results of the
arbitration. They have done so in Krakowski I by contesting the
putative unfairness in how the arbitration was conducted. See
Krakowski, 536 B.R. at 372-74; Krakowski I, September 22, 2015
Order at 2 [Adv. P. No. 13-01283, ECF No. 80]. Moreover, the
Plaintiffs recently filed a new adversary proceeding seeking to
vacate the arbitration award based upon one or more of the arbitrators allegedly violating the agreement to arbitrate and displaying bias and hostility. See Complaint to Vacate Arbitration Award
¶¶ 60-71 [Adv. P. No. 16-01138, ECF No. 1].

APP-157
provided by the Court in this case about what claims
survived dismissal. As the Court made repeatedly
clear, the surviving claims covered the Post-Abrogation
Period but before the entry of the New CBA. See
Krakowski, 538 B.R. at 223-24; (Hr’g Tr. 28:25-29:3,
Oct. 15, 2015). But the Second Amended Complaint
does not allege any conduct by the Defendants during
this period. Rather, the Second Amended Complaint
focuses on the APA’s entry into the New CBA, complaining that it permitted use of the old seniority list
without the protections of Supplement CC. See Second
Amended Compl. ¶¶ 39, 42, 45. The Plaintiffs argue
that the Second Amended Complaint should not be
limited to the Post-Abrogation Period. See Opposition
at 3-4, 7-8. They assert that the Court’s orders, rulings
and remarks did not contain a temporal limitation to
the Post-Abrogation Period. But that is incorrect. At
the status conference on October 15, 2015, the Court
explicitly defined the surviving claims as relating to
the period when “the old CBA was abrogated under
1113 and before there was a new CBA.” (Hr’g Tr.
28:25-29:1, Oct. 15, 2015). The Court stated that during that period “there was a decision made to use the
existing seniority lists and that that use of the seniority lists was a breach of the duty there.” (Hr’g Tr.
29:1-3, Oct. 15, 2015); see U.S. v. Spallone, 399 F.3d
415, 418 (2d Cir. 2005) (noting a trial court’s “inherent
authority to interpret ambiguities in its own orders
and judgments.”). The September 2015 Decision
characterized any surviving claims in a similar way:
While not expressly set forth in the Complaint,
it appears that the Plaintiffs argue that the APA
should not have agreed to use the old seniority

APP-158
list for former TWA pilots once the Old CBA was
abrogated because the old seniority list was
unfair once the corresponding job protections in
Supplement CC had been eliminated. … Drawing all reasonable inferences in favor of the
Plaintiffs, therefore, the Court finds that the
two remaining claims under Count II are
distinct from the contract claim and survive
independently.
Krakowski, 538 B.R. at 223 (reference to 49(B) and (C)
of the First Amended Complaint) (emphasis added).5
Indeed, the Court distinguished this case from Krakowski I, which challenged the New CBA with its agreement to arbitrate. The Court noted that “Krakowski I
is distinct from the Plaintiffs’ claim here that the APA
violated its duty by agreeing to use the old seniority
list immediately after the Old CBA was abrogated even
though the job protections of Supplement CC were
gone.” Id. at 224 (emphasis added).6
5

The order entered by the Court on dismissal reflected this
distinction. See Order, dated Oct. 5, 2015 [ECF No. 28] (granting
leave to file an amended complaint for the purpose of alleging
collusion against American for the only remaining breach of duty
claims left in the case, which were found in 49(B)-(C)).
6

The Plaintiffs assert that, to the extent the Court meant
what it said, the Court should now reconsider its decision. But the
Plaintiffs have not filed a motion for this Court to reconsider its
decision, and even if such a request were to be made, it would be
untimely. See Fed. R. Civ. P. 59(e); Fed. R. Bankr. P. 9023; Local
Rule 9023-1 (14 day time limit). Moreover, such a motion would
need to show clear error, newly discovered evidence, or a change
in controlling law, none of which is demonstrated in the Plaintiffs’
Opposition. See In re Residential Capital, LLC, 537 B.R. 161, 169

APP-159
The Court’s rulings about the scope of the surviving
claims in this case reflected a concern about the
duplication of claims and inefficiency in the litigation
of these disputes. The Court attempted to clarify—
without success—the remaining claims so as to avoid
duplication with Plaintiffs’ other cases and other
claims that have already been dismissed. Indeed, these
disputes about the Plaintiffs’ seniority have been pending for an extended period of time but are not much
closer to reaching conclusion, despite this Court having
issued numerous decisions. This is in large part due to
the piecemeal and overlapping nature of the litigation
in these adversary proceedings, with numerous amendments and new adversary proceedings being filed after
each of the decisions issued by this Court. C.f. Curtis v.
Citibank N.A., 226 F.3d 133, 138-39 (2d Cir. 2000)
(noting complex problems that can arise from multiple
case filings and discussing rule against duplicative
litigation to “foster judicial economy and the comprehensive disposition of litigation” and to “protect parties
from the vexation of concurrent litigation over the
same subject matter.”) (internal citations and quotations omitted); Kanciper v. Suffolk Cty. SPCA, Inc., 722
F.3d 88, 92-93 (2d Cir. 2013) (noting that “plaintiffs
generally have no right to maintain two separate
actions involving the same subject matter at the same

(Bankr. S.D.N.Y. 2015) HN5[ ] (“Reconsideration is not appropriate unless the movant has demonstrated an ‘intervening change
of controlling law, the availability of new evidence, or the need to
correct a clear error or prevent manifest injustice.’”) (quoting Kolel
Beth Yechiel Mechil of Tartikov, Inc. v. YLL Irrevocable Tr., 729
F.3d 99, 104 (2d Cir. 2013)).

APP-160
time in the same court and against the same defendant.”) (internal citations and quotations omitted).7
B. Plaintiffs Fail to State a Claim Against
American for Collusion
Given the Court’s dismissal of the duty of fair representation claims against the APA, the Court must also
dismiss the claims of collusion against American. See
United Indep. Flight Officers, Inc. v. United Air Lines,
Inc., 756 F.2d 1274, 1283 (7th Cir. 1985) (“If the RLAbased [duty of fair representation] claim against the
union is dismissed, the claim against the employer
must also be dismissed.”) (citing Graf v. Elgin, Joliet &
E. Ry. Co., 697 F.2d 771, 781 (7th Cir. 1983)).

7

As an alternative to dismissal, the Defendants request
that the Court grant summary judgment on their behalf. More
specifically, the Defendants assert that the Plaintiffs are unable
to make a claim during the Post Abrogation period because the job
protections of Supplement CC were maintained throughout the
Post-Abrogation Period and until substitute terms were constructed by arbitrators and subsequently implemented. See November
10, 2012 Letter from L. Einspanier to N. Roghair, attached as Ex.
2 to Decl. of Keith Wilson [Adv. P. No. 13-01283, ECF No. 36-3]
(“Until issuance of an arbitration award, the Company will
continue to staff the STL Captain positions at the level that would
have satisfied the October 2012 Supplement CC report were it still
in effect.”). The Plaintiffs do not challenge this assertion, and in
fact concede that the protections of Supplement CC remained in
place throughout the Post-Abrogation Period. See Opposition at 7
(“As defendants point out, although American terminated Supplement CC as part of the 1113, it maintained the status quo by keeping its protections in place pending the outcome of the LOA 12-05
interest arbitration.”). Given the dismissal of the Second Amended
Complaint based on the Court’s prior rulings, it is unnecessary to
consider the Defendants’ alternative request for relief.

APP-161
Dismissal of the collusion claim is also required
because the Second Amended Complaint fails to allege
any conduct that could constitute collusion on the part
of American in any alleged breach of that duty. The
Plaintiffs’ allegations of collusion here remain as perfunctory and conclusory as those dismissed in the First
Amended Complaint. While “a court must accept as
true all of the allegations contained in a complaint,”
that is not true for legal conclusions. Iqbal, 556 U.S. at
678 (citing Twombly, 550 U.S. at 555). As the Supreme
Court has counseled, “[t]hreadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556 U.S.
at 678 (citing Twombly, 550 U.S. at 555). The Plaintiffs
have not alleged facts evidencing bad faith, discrimination, or hostility. The Second Amended Complaint
instead only contains two broad but related allegations
against American: (1) that “American offered, and APA
accepted, a new collective bargaining agreement free of
Supplement CC’s protective fences, and which implemented a seniority list that mirrored the admittedly
unfair list created by Supplement CC,” and (2) that
American “implemented the new seniority list on
January 1, 2013 with knowledge that APA had
breached its duty of fair representation to the former
TWA pilots. …” Second Amended Compl. ¶¶ 39, 44
(emphasis added). Neither allegation is sufficient to
state a claim for collusion.
As for the Plaintiffs’ first assertion, the mere negotiation of a collective bargaining agreement cannot be
the basis of a collusion claim against an employer.
“[S]imple ‘negotiation between [an] employer and union
is not evidence of collusion.’” Cunningham v. United

APP-162
Airlines, Inc., 2014 U.S. Dist. LEXIS 13414, 2014 WL
441610, at *5 (N.D. Ill. Feb. 4, 2014) (quoting Air Wisc.
Pilots Prot. Comm. v. Sanderson, 124 F.R.D. 615, 617
(N.D. Ill. 1988)); see also United Indep. Flight Officers,
Inc. v. United Air Lines, Inc., 756 F.2d 1274, 1282-83
(7th Cir. 1985) (rejecting “patently fallacious” argument that negotiation of a collective bargaining agreement between a carrier and union “necessarily entails
collusion”). As the Plaintiffs have not alleged any
conduct by American beyond its negotiation of a new
agreement with the APA, this first allegation standing
alone does not state a claim.
The Plaintiffs’ second and related allegation fares
no better. The Plaintiffs assert that they have
adequately plead knowledge on the part of American of
the APA’s breach, arguing that case law in the Second
Circuit permits employees to add their employer as a
defendant merely “by alleging the employer’s knowledge of or complicity in the union’s breach.” Opposition
at 11-12 (quoting Krakowski, 536 B.R. at 367). But the
cases cited by the Plaintiffs apply that standard in a
hybrid claim, where a duty of fair representation claim
against a union is combined with an allegation that the
employer has breached the collective bargaining agreement. See Long Island City Lodge 2147 v. Ry. Express
Agency, Inc., 217 F. Supp. 907 (S.D.N.Y. 1963); Ferro v.
Ry. Express Agency, Inc., 296 F.2d 847 (2d Cir. 1961);
N.L.R.B. v. Am. Postal Workers Union, 618 F.2d 1249
(8th Cir. 1980); Fruin-Colnon Corp. v. N.L.R.B., 571
F.2d 1017 (8th Cir. 1978); Lummus Co. v. N.L.R.B., 339
F.2d 728, 119 U.S. App. D.C. 229 (D.C. Cir. 1964); Am.
Postal Workers Union, Local 6885, 665 F.2d 1096, 214
U.S. App. D.C. 278 (D.C. Cir. 1981). As no such breach

APP-163
of contract claim exists here, there is no hybrid claim
upon which to anchor a conclusory claim of collusion
against American.
Absent such a hybrid claim, a plaintiff seeking to
hold an employer liable for collusion in connection with
entering a collective bargaining agreement that is
alleged to violate a union’s duty of fair representation
must allege conduct by the employer evidencing bad
faith, discrimination, or hostility towards the plaintiffs.
See, e.g., Rakestraw v. United Airlines, Inc., 765 F.
Supp. 474, 493-94 (N.D. Ill. 1991) (dismissing claim
against carrier even though carrier was aware of the
animosity between the union and the minority group
because there was no evidence that the carrier “acted
in bad faith or discriminated against plaintiffs in
accepting [the union’s] proposal.”), aff’d in relevant
part, rev’d in part, 981 F.2d 1524 (7th Cir. 1992);
Cunningham, 2014 U.S. Dist. LEXIS 13414, 2014 WL
441610, at *6 (holding that potential knowledge of
union discrimination against its members is not
enough to support a finding of collusion by the carrier,
absent extreme factual scenarios). No such allegations
have been made here. It is not “appropriate to impose
liability where the employer is charged with nothing
more than having acceded to the demands of the
[u]nion, even with knowledge of facts from which it
might be inferred that the [u]nion was not fulfilling its
duty of fair representation to all of its constituents.”
Am. Airlines Flow-Thru Pilots Coalition v. Allied Pilots
Ass’n, 2015 U.S. Dist. LEXIS 169657, 2015 WL
9204282, at *3 (N.D. Cal. Dec. 17, 2015). Doing so
would require an employer to supervise the actions of
the union counterparty and make an independent

APP-164
evaluation of the conduct and decisions of the union
prior to entering a collective bargaining agreement. See
Cunningham, 2014 U.S. Dist. LEXIS 13414, 2014 WL
441610, at *6. Such a requirement is unworkable, as
[a] union does not automatically breach the duty
of fair representation every time it negotiates
for contracts in which some of its members are
treated differently than others. At least outside
contexts such as discrimination against protected classes, the onus should not be on the
employer to evaluate and consider whether
distinctions a union draws among its members
are appropriate. Thus, something more than
merely acceding to union demands must be
alleged and proven to impose liability on an
employer for ‘colluding’ in a breach of what
ultimately remains the union’s duty.
Am. Airlines Flow-Thru, 2015 U.S. Dist. LEXIS
169657, 2015 WL 9204282, at *3; see also Am. Postal
Workers Union, Local 6885, 665 F.2d at 1108-09 (“The
[employer] was required only to bargain in good faith
with the employees’ exclusive representative, and, in so
doing, it was expected to represent its own interests,
not those of the employees.”); Cunningham, 2014 U.S.
Dist. LEXIS 13414, 2014 WL 441610, at *6 (“‘[T]he
employer must in most circumstances be able to rely on
the union’s disposition’ in spite of some employee objections; and it would have a ‘detrimental effect on labormanagement relations’ if an employer were ‘forced to
ignore union representations and take the initiative in
dealing with employees whenever it suspects a discriminatory union motive.’”) (quoting Carroll v. Bhd. of R.R.

APP-165
Trainmen, 417 F.2d 1025, 1028 (1st Cir. 1969) (internal
quotation marks omitted)).
CONCLUSION
For the reasons stated above, the Court grants the
Defendants’ motions to dismiss the Second Amended
Complaint in its entirety. The Defendants should settle
an order on three days’ notice. The proposed order
must be submitted by filing a notice of the proposed
order on the Case Management/Electronic Case Filing
docket, with a copy of the proposed order attached as
an exhibit to the notice. A copy of the notice and
proposed order shall also be served upon counsel to the
Plaintiffs.

APP-166
SEPT. 22, 2015 BANKRUPTCY COURT DECISION
(Krakowski II)
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 538 B.R. 213, 2015 Bankr. LEXIS 3189, Adv.
No. 14-01920 (Bankr. S.D.N.Y. Sept. 22, 2015).
UNITED STATES BANKRUPTCY COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
In re: AMR CORP., et al.,
Reorganized Debtors.
JOHN KRAKOWSKI, et al.,
individually and on behalf of
those similarly situated,
Plaintiffs,

Chapter 11
Case No. 11-15463
(SHL) (Confirmed)
Adv. No. 14-01920
(SHL)

v.
AMERICAN AIRLINES, INC.,
et al.,
Defendants.
September 22, 2015
Before Bankruptcy Judge Sean H. Lane
MEMORANDUM OF DECISION
Before the Court are the Defendants’ motions to
dismiss the amended complaint (the “Complaint”)

APP-167
(ECF No. 1-9),1 filed by Plaintiffs John Krakowski,
Kevin Horner, and M. Alicia Sikes on behalf of themselves and all persons similarly situated against Defendants American Airlines, Inc. (“American”) and the
Allied Pilots Association (the “APA”), which is the
pilots’ union at American. The Plaintiffs are former
Trans World Airlines (“TWA”) pilots now employed by
American.2
As part of American’s bankruptcy restructuring, it
sought and received authority to reject its then-existing collective bargaining agreement with the APA (the
“Old CBA”). American subsequently negotiated a new
collective bargaining agreement for its pilots (the “New
CBA”). At the same time, American and the APA
entered into a letter agreement to continue using the
same pilot seniority list that had been utilized under
the Old CBA. In the three counts of their Complaint,
the Plaintiffs allege that through the continued use of
this seniority list: (1) American breached the terms of
the New CBA, (2) the APA breached its duty of fair
representation, and (3) American colluded in the APA’s
breach of that duty.

1

Unless otherwise specified, references to the Case Management/Electronic Case Filing (“ECF”) docket are to this adversary
proceeding.
2

The Plaintiffs originally brought this action in the United
States District Court for the Eastern District of Missouri. The
Missouri District Court transferred the case to this Court on
March 19, 2014. See Memorandum and Order, Case No. 4:13-cv00838-JAR (ECF No. 43).

APP-168
For the reasons set forth below, the Court agrees
with the Defendants that the Plaintiffs have failed to
state a claim for breach of the New CBA. The Court
therefore grants the Defendants’ motions to dismiss
Count I of the Complaint, as well as the claims within
Counts II and III that depend upon the breach of
contract claim. The Court, however, denies the motions
with respect to the remaining claims in Count II and
III, finding that they sufficiently state a claim for a
breach of the duty of fair representation and do not
rely upon the breach of contract claim. As to the final
collusion claim, the Court finds that the Plaintiffs have
failed to set forth facts sufficient to allege a plausible
claim of collusion.
BACKGROUND
As is the case with any motion to dismiss, the Court
accepts the allegations of the Complaint as true. See
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 127 S.
Ct. 1955, 167 L. Ed. 2d 929 (2007). In April 2001,
American acquired the assets of TWA. Compl. ¶ 8.
Shortly thereafter, American and the APA executed
Supplement CC, which modified American’s pilot
seniority list to include the former TWA pilots, but
stripped them of much of their seniority. Id. ¶ 10.
Under Supplement CC, roughly half of the TWA pilots
were moved to the bottom of the seniority list, while
others were integrated into the list but retained a
fraction of the seniority that they held at TWA. Id. ¶¶
11-12.
In November 2011, American filed for Chapter 11
protection. Id. ¶ 14. American subsequently obtained
the Court’s permission to abrogate the Old CBA under

APP-169
Section 1113 of the Bankruptcy Code. Id. ¶ 15; see also
In re AMR Corp., 477 B.R. 384, 401 (Bankr. S.D.N.Y.
2012); In re AMR Corp., 478 B.R. 599 (Bankr. S.D.N.Y.
2012). The Old CBA was void as of September 5, 2012.
Compl. ¶ 16. As of September 5, 2012, all American
pilots were technically at-will employees not subject to
a valid collective bargaining agreement. Id. ¶ 17.
American and the APA subsequently negotiated the
New CBA, which became effective on January 1, 2013.
Id. ¶ 18.3
The New CBA outlined how pilot seniority would be
determined. Id. ¶¶ 21-24. It also expressly provided
“that certain other rules in this Agreement stipulating
specific methods and procedures of applying system
seniority shall govern such application of system
seniority only to the extent of the specific provisions of
such rules.” See New CBA Section 13(D). The New
CBA included a letter of agreement numbered 12-05
(“LOA 12-05”) that was entered into between American
and the APA on January 1, 2013. See New CBA at
LOA 12-05-1.4 LOA 12-05 provided that “[American]
3

The New CBA is attached as Exhibit 1 to the Complaint.
Compl. ¶ 18.
4

Section 26(A) of the New CBA provides that:
Either party hereto may at any time propose, in writing,
to the other party any amendment which it may desire to
make to this Agreement, and if such amendment is agreed
to by both parties hereto, such amendment shall be stated,
in writing, signed by both parties and the amendment
shall then be deemed to be incorporated in and shall
become a part of this Agreement.

APP-170
and [the] APA agree that the TWA pilots’ existing
seniority placements on the Pilots’ System Seniority
List are final and shall continue pursuant to Section 13
of the CBA notwithstanding the termination of Supplement CC and any preferential flying rights associated
with those seniority placements.” Id. While the phrase
“preferential flying rights” in Supplement CC is not
relevant to the pending motions, these rights were
described in a prior decision in a related case between
these parties in this Court:
“To compensate for … loss of seniority, Supplement CC created a ‘protective fence’ in St Louis,
creating minimum Captain and First Officer
positions in St. Louis and granting the legacy
TWA pilots preferential bidding for these positions. Thus, while reducing the seniority of
legacy TWA pilots put them at a relative disadvantage for purposes of bidding against a much
larger number of American pilots for positions
on other routes, the protective fence guaranteed
a certain number of desired positions on routes
from St. Louis with bidding advantages for
legacy TWA pilots.”
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 2015 Bankr. LEXIS 1721, at *3-4 (Bankr.
S.D.N.Y. May 19, 2015). In effect, American and the
APA agreed to use the same seniority list that was utilized under the Old CBA and Supplement CC, which
New CBA, Section 26-1. LOA-12-05, which is appended to the New
CBA, is by its terms incorporated as part of the New CBA. See
New CBA table of contents, listing numbered letters of agreement,
including LOA 12-05.

APP-171
meant that the Plaintiffs and other former TWA pilots
remained at a lower seniority level than their actual
years of service. Compl. ¶ 28.
DISCUSSION
Federal Rule of Civil Procedure 12(b)(6), made
applicable by Bankruptcy Rule 7012, provides that a
complaint must be dismissed if it fails to state a claim
upon which relief can be granted. In analyzing a
motion to dismiss under Rule 12(b)(6), a court looks to
whether a plaintiff has pleaded “enough facts to state
a claim to relief that is plausible on its face.” Twombly,
550 U.S. at 570. A court must proceed “on the assumption that all the allegations in the complaint are true.”
Id. at 555. Taken as true, these facts must establish
“more than a sheer possibility that a defendant has
acted unlawfully.” Ashcroft v. Iqbal, 556 U.S. 662, 677,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2007). “However,
this does not mean that a claim must contain ‘detailed
factual allegations’ to survive a Rule 12(b)(6) motion to
dismiss.” Eastman Chem. Co. v. Nestlé Waters Mgmt.
& Tech., No. 11-2589, 2012 U.S. Dist. LEXIS 141281,
2012 WL 4474587, at *4 (S.D.N.Y. Sept. 28, 2012) (citing Talley v. Brentwood Union Free Sch. Dist., 08 Civ.
790, 2009 U.S. Dist. LEXIS 53537, 2009 WL 1797627,
at *4 (E.D.N.Y. June 24, 2009)). Rather, the court must
determine “whether the well-pleaded factual allegations, assumed to be true, plausibly give rise to an
entitlement to relief.” Hayden v. Paterson, 594 F.3d
150, 161 (2d Cir. 2010) (citing Iqbal, 556 U.S. at 679).
The court must also draw all reasonable inferences in
favor of the non-moving party. Ganino v. Citizens Utils.
Co., 228 F. 3d 154, 161 (2d Cir. 2000).

APP-172
A Rule 12(b)(6) motion is addressed to the face of
the pleading. Goldman v. Belden, 754 F.2d 1059,
1065-66 (2d Cir. 1985). But the parties in this case
have asked this Court to consider events and documents that go beyond the pleadings, including the New
CBA. As the New CBA is both cited in and attached to
the Complaint as an exhibit, it can be considered. See
Cortec Indus. Inc. v. Sum Holding L.P., 949 F.2d 42, 47
(2d Cir. 1991) (“[T]he complaint is deemed to include
any written instrument attached to it as an exhibit or
any statements or documents incorporated in it by
reference.”); Fed. R. Civ. P. 10(c) (“A copy of a written
instrument that is an exhibit to a pleading is a part of
the pleading for all purposes.”).
The Defendants seek to rely upon a second document, which is an arbitration decision issued on March
12, 2014 by Richard I. Bloch, Esq. (the “Bloch Decision”). This arbitration decision addressed pilot grievances on the very same issues raised in the Complaint.
The Plaintiffs acknowledge the arbitration took place
and address the merits of it in their opposition. But
while the Plaintiffs do not object to the Court taking
judicial notice of the decision, the decision is not
attached to or mentioned in the Complaint. As such,
the Court takes judicial notice only of the existence of
the decision, but not of the truth of the facts contained
within it. See Global Network Commc’ns, Inc. v. City of
New York, 458 F.3d 150, 157 (2d Cir. 2006) (HN3[] “A
court may take judicial notice of a document filed in
another court not for the truth of the matters asserted
in the other litigation, but rather to establish the fact
of such litigation and related filings. … Hence,
although the final determination … may be public

APP-173
records of which a court may take judicial notice, it
may do so on a motion to dismiss only to establish the
existence of the opinion, not for the truth of the facts
asserted in the opinion.”).5
A. Plaintiffs Fail to State a Claim that American Breached the New CBA
In Count One of the Complaint, the Plaintiffs assert
that the pilot seniority list currently used by American
violates the terms of the New CBA. See Compl. ¶ 38
(“In breach of the New CBA, American has put forth a
System Seniority List which does not accord Named
Plaintiffs and members of the Class proper placement
under the New CBA …”) Specifically, the Plaintiffs
allege that the seniority level currently assigned by

5

The Plaintiffs complain that American has gone beyond
the pleadings in arguing about the arbitration. See Plaintiffs’ Opp.
to American MTD, at 4 n.1 [ECF No. 16]. The Plaintiffs request
that they also be allowed to go beyond the pleadings in responding
to American’s argument by submitting the Declaration of Ben
Thompson, one of the aggrieved pilots involved in the arbitration.
See id. Mr. Thompson’s Declaration discusses the experiences of
both himself and Theodore Case—a similarly situated pilot—
during the grievance process with American. See Thompson Decl.,
attached as Exh. 1 to the Plaintiffs’ Opp. to American MTD. But
the Court cannot consider such evidence on a motion to dismiss.
See Sharette v. Credit Suisse Int’l, 127 F. Supp. 3d 60, 2015 U.S.
Dist. LEXIS 111966, at *25 (S.D.N.Y. August 20, 2015) (“The task
of a court in ruling on a motion to dismiss is to ‘assess the legal
feasibility of the complaint, not to assay the weight of the evidence
which might be offered in support thereof.’”) (quoting In re Initial
Pub. Offering Sec. Litig., 383 F. Supp. 2d 566, 574 (S.D.N.Y.
2005)). In any event, Plaintiffs’ request to submit the Thompson
Declaration to rebut American’s arguments is moot as the Court
declines to consider the facts set forth in the Bloch Decision.

APP-174
American to the former TWA pilots does not correspond to these pilots’ “Occupational Date” and “Date of
Hire,” as those terms are defined by the New CBA and
by American’s practices. As a result, the Plaintiffs
assert that they received a lower seniority placement
than they should. But the Plaintiffs’ claim is inconsistent with the plain language of the New CBA.
Courts apply traditional rules of contract interpretation to collective bargaining agreements, so long as
the rules are consistent with federal labor policies.
Aeronautical Indus. Dist. Lodge 91 of Int’l Ass’n of
Machinists & Aerospace Workers, AFL-CIO v. United
Techs. Corp., 230 F.3d 569, 576 (2d Cir. 2000). “When
provisions in the [collective bargaining agreement] are
unambiguous, they must be given effect as written.” Id.
(citations omitted). “Only when provisions are ambiguous may courts look to extrinsic factors—such as
bargaining history, past practices, and other provisions
in the [collective bargaining agreement]—to interpret
the language in question.” Id. Additionally, courts
should attempt to read collective bargaining agreements in such a way that no language is rendered
superfluous. Id.
Pilot seniority is generally addressed under Section
13 of the New CBA. Section 13(D) provides that:
Seniority shall govern all pilots in case of promotion, demotion, their retention in case of reduction of force, their recall from furlough, their
assignment or reassignment due to expansion or
reduction in force or schedules, and their choice
of vacancies. … This paragraph shall apply,
provided that certain other rules in this Agree-

APP-175
ment stipulating specific methods and procedures of applying system seniority shall govern
such application of system seniority only to the
extent of the specific provisions of such rules.
New CBA, Section 13(D) (emphasis added). Thus, the
New CBA clearly contemplates circumstances in which
system seniority will be applied differently from the
methods outlined in Section 13. The Defendants assert,
and this Court agrees, that LOA 12-05 is one such
provision in the New CBA that sets out “specific
methods and procedures of applying system seniority.”
Under LOA 12-05, which has the same effective
date as the New CBA, “[t]he Company and [the] APA
agree[d] that the TWA Pilots’ existing seniority placements on the Pilots’ System Seniority List are final and
shall continue pursuant to Section 13 of the CBA notwithstanding the termination of Supplement CC. …”
Id. By including LOA 12-05, therefore, the New CBA
explicitly provides that the Plaintiffs are to have the
same placement on the System Seniority List as
existed under the Old CBA.
The Plaintiffs dismiss LOA 12-05 as a “red herring.”
They argue that because the Court granted American
authorization to reject the Old CBA effective September 5, 2012, see In re AMR Corp., 2012 Bankr. LEXIS
4168, 2012 WL 3834798 (Bankr. S.D.N.Y. Sept. 5,
2012), the pilots had no seniority rights until the new
seniority list was in place. See Opp. to APA MTD at 7
(ECF No. 15). The Plaintiffs state that “[t]he pilots’
seniority rights, as reflected by the ‘Pilots’ System
Seniority List’ referred to in LOA 12-05 were only

APP-176
established when the New CBA was entered into on
January 1, 2013.” Id.
But the Plaintiffs’ argument misses the point. LOA
12-05 is expressly part of the New CBA. See New CBA,
Section 1(B)(2) (defining “Agreement” as “this collective
bargaining agreement between the [Allied Pilots] Association and the Company and all supplements and
letters of agreement between the [Allied Pilots] Association and the Company.”) (emphasis added); New CBA,
Section 26(A) (providing that amendments of the New
CBA are “deemed to be incorporated in and … become
a part of” the New CBA). As part of the New CBA, LOA
12-05 cannot be read to breach the very agreement of
which it is a part. The letter memorializes the agreement of American and the APA to alter the general
seniority provisions of the New CBA as they apply to
the former TWA pilots. The Plaintiffs’ argument would
render LOA 12-05 superfluous. Indeed, whether or not
the pilots had seniority rights during the period
between abrogation of the Old CBA and the effective
date of the New CBA is irrelevant to the breach of
contract claim, which rests upon the seniority rights
that Plaintiffs have under the New CBA.6 Those senior-

6

American and the APA dispute the Plaintiffs’ argument
that during the abrogation period, the pilots had no seniority
rights. Both argue that American never sought to abrogate the
pilot seniority list or seniority provisions in Section 13 of the Old
CBA and the Court therefore never authorized such action. While
the Court need not reach this issue, it notes that American in fact
continued to use the preexisting pilot seniority positions throughout the abrogation period. See November 10, 2012, Letter from L.
Einspanier to N. Roghair, attached as Exhibit 2 to Declaration of
Keith Wilson, Krakowski I, ECF No. 36-3 at 48-50.

APP-177
ity rights are squarely addressed by the language of
LOA 12-05, which is undisputedly part of the New
CBA.
Even without considering LOA 12-05, the Plaintiffs’
contract claim would still fail given default language in
the New CBA about how seniority is determined. As
the Plaintiffs correctly note, a pilot’s placement on the
System Seniority List is controlled by the “Occupational Date” assigned to the pilot by American. The “Occupational Date” is discussed in Section 2(AA), which
states that “[o]ccupational seniority is used for determining placement on the Pilot System Seniority list
and for bidding purposes” and that “[a]ny references to
seniority in this Agreement are to Occupational Seniority, unless otherwise specified.” New CBA, Section
2(AA). That same section goes on to define a pilot’s
Occupational Date, as the pilot’s time with “the
Company”:
[g]enerally occupational seniority shall begin to
accrue from the date a pilot is first scheduled to
complete initial new hire training with the
Company and shall continue to accrue during
such period of duty except as provided in
Sections 11 and 12 of this Agreement.
New CBA, Section 2(AA) (emphasis added). The
“Company” is defined in the New CBA as American
Airlines, Inc. See New CBA at Section 1(8); see also
New CBA at 1 (preamble defining American Airlines,
Inc. as the “Company”). Thus, the plain language of the
New CBA ties seniority to a pilot’s time at American.
The Plaintiffs argue that Section 2(AA) is inapplicable to them since they were experienced pilots at the

APP-178
time they joined American and therefore had no need
to participate in “initial new hire training.” The Plaintiffs ask the Court to take judicial notice of this fact
based on the record regarding American’s acquisition
of TWA in these proceedings. But the Plaintiffs cite to
nothing that supports this interpretation. See Plaintiffs’ Opp. to APA MTD at 5 n.4.7 In any event, the
Court rejects the Plaintiffs reading as contrary to the
language in the agreement.
The Plaintiffs allege that American’s general
practice—since the acquisition of TWA and continuing
through to the present—has been to construe a pilot’s
Occupational Date as the pilot’s “Date of Hire” at TWA
plus a time period of between 45 to 49 days thereafter.
Compl. ¶¶ 20, 22. But the Plaintiffs’ interpretation flies
in the face of the New CBA’s explicit language. The
New CBA clearly defines a pilot’s “Date of Hire” as
“[t]he first day as an AA pilot.” New CBA, Section 2(L)
(emphasis added). The language of the New CBA
makes no reference whatsoever to service with any
other employer, including TWA. Thus, the explicit
7

The Plaintiffs have pointed to nothing to support their
contention that even a seasoned pilot hired by American would
simply be put in the pilot’s seat on his or her first day on the job,
without going through any training in or testing on American’s
practices, rules and regulations. Such a matter is not an appropriate subject for judicial notice. See Federal Rule of Evidence
201(c)(2) (HN6 “The court … must take judicial notice if a party
requests it and the court is supplied with the necessary information.”) (emphasis added); Guzman-Ruiz v. Hernandez-Colon, 406
F.3d 31, 36 (1st Cir. 2005) (refusing to take judicial notice where,
among other things, “plaintiffs made no attempt to specify what
‘adjudicable facts’ met the requirements of Federal Rule of
Evidence 201.”).

APP-179
language of both Section 2(AA) and Section 2(L)
explicitly tie a pilot’s seniority only to his or her
employment with American. This is consistent with
language elsewhere in the New CBA. For example,
Section 13(A) provides that “seniority as a pilot shall be
based upon the length of service as a flight deck
operating crew member with the Company. …” New
CBA, Section 13(A) (emphasis added); see also New
CBA, Section 2(MM) (defining “Service” as “the period
of time assigned to active duty as a flight deck operating crewmember or supervisor with the Company.”)
(emphasis added).
Moreover, the Plaintiffs’ reliance on alleged general
practices fails as a matter of law. It is true that “collective-bargaining agreements may include implied, as
well as express, terms. … Furthermore, it is well established that the parties’ practice, usage and custom is of
significance in interpreting their agreement.” Conrail
v. Railway Labor Executives’ Ass’n, 491 U.S. 299, 311,
109 S. Ct. 2477, 105 L. Ed. 2d 250 (1989) (internal citations and quotations omitted). But the Plaintiffs here
advocate using such alleged practices to negate the
express and unambiguous language of the New CBA
and LOA 12-05.8 This is contrary to well-established
law for interpreting labor agreements, where “tradi8

The Plaintiffs also note that as a result of the Section 1113
proceedings in American’s bankruptcy case, “the Old CBA and its
supplements (including Supplement CC) were null and void as of
September 5, 2012.” To the extent that the Plaintiffs rely on prior
practices that existed under the Old CBA, these arguably would be
irrelevant when that CBA was abrogated and subsequently
replaced by the specific seniority language in the New CBA, which
includes LOA 12-05.

APP-180
tional rules of contractual interpretation are applied so
long as their application is consistent with federal
labor policies.” NYS v. UPS, 198 F. Supp. 2d 188, 196
(N.D.N.Y. 2002) (quoting Int’l Org. of Masters, Mates &
Pilots v. Victory Carriers, Inc., 1985 U.S. Dist. LEXIS
20563, at *6 (S.D.N.Y. Apr. 19, 1985)). “Thus, if the
agreement is unambiguous, the court is not free to
consider the practice, usage and custom applicable to
such agreements.”9UPS, 198 F. Supp. 2d at 196-97
(citing Victory Carriers, 1985 U.S. Dist. LEXIS 20563
at *7-8 (“The Union argues that the language of the
duration clause should be construed in light of
industrial practice, usage and custom pertaining to all
such agreements … However if the language of the
contract is unambiguous the court is not free to look to
such factors and summary judgment is appropriate.”);
Hunt Ltd. v. Lifschultz Fast Freight, Inc., 889 F.2d
1274, 1277 (2d Cir. 1989)).10
9

The Plaintiffs’ argument regarding American’s alleged
practices also appears to be inconsistent with the Plaintiffs’ litigation position. Specifically, the Plaintiffs state that they were not
properly credited for their TWA seniority under Supplement CC
and the TWA pilots’ integration into American’s seniority list. See
Compl. ¶¶ 11-12. Thus, the Plaintiffs sue here to seek seniority
rights consistent with their date of hire at TWA, a system which
would give them better seniority than they currently possess. It is
hard to see why the Plaintiffs would seek such relief if, in fact,
American already provided the Plaintiffs with seniority consistent
with their date of hire at TWA.
10

Putting aside the merits of the contract claim, there are
serious questions about the Plaintiffs’ ability to pursue this claim
in federal court in the first instance. The Railway Labor Act, 45
U.S.C. § 151, et seq. imposes a system of arbitration before the
Board of Adjustment for minor disputes, which are disputes that

APP-181

involve the interpretation or application of collective bargaining
agreements. See 45 U.S.C. §§ 184, 153 First (i); Addington v. US
Airline Pilots Ass’n, 588 F. Supp. 2d 1051, 1063 (D. Ariz. 2008).
The Board of Adjustment provides the exclusive remedy in minor
disputes. See Addington, 588 F. Supp. 2d at 1063 (citing Consol.
Rail Corp. v. Railway Labor Execs.’ Ass’n, 491 U.S. 299, 310, 109
S. Ct. 2477, 105 L. Ed. 2d 250 (1989)). When arbitration is mandatory, an employee must at least attempt to exhaust the contractual
and administrative remedies before seeking judicial review of his
claim. Atkins v. Louisville & N.R. Co., 819 F.2d 644, 649 (6th Cir.
1987) (citing Republic Steel Corp. v. Maddox, 379 U.S. 650, 85 S.
Ct. 614, 13 L. Ed. 2d 580 (1965)). This requirement may be
excused only if exhaustion would be futile. See id.; see also Addington, 588 F. Supp. 2d at 1063. The Plaintiffs here concede that their
breach of contract claim is a minor dispute but invoke the futility
exception, claiming that arbitration by a four or five member board
would be “rigged” with two representatives selected by American
and two by the APA. Compl. ¶ 45. But the fact that a board is
composed of union and company representatives does not by itself
render exhaustion futile as a matter of law. Addington, 588 F.
Supp. 2d at 1063-64 (citing United Farm Workers of Am., AFL-CIO
v. Ariz. Agric. Employment Relations Bd., 727 F.2d 1475, 1478-80
(9th Cir. 1984) (en banc); Haney v. Chesapeake & Ohio R.R., 498
F.2d 987, 992, 162 U.S. App. D.C. 254 (D.C. Cir. 1974)). Nor does
the use of a single neutral arbitrator such as Richard Bloch. See
Addington, 588 F. Supp. 2d at 1064. Indeed, the fact that the
board is likely to rule against the plaintiff on the merits does not
necessarily make the process futile. See id. (citing Everett v. USAir
Grp., 927 F. Supp. 478, 485 (D. D.C. 1996), aff’d, 194 F.3d 173, 338
U.S. App. D.C. 383 (D.C. Cir.); Atkins, 819 F.2d at 649-50 (6th Cir.
1987)). But despite the Court’s concerns about this issue, the
Court does not need to rule on the question of futility given its
conclusion that Plaintiffs have not stated a claim for breach of
contract.

APP-182
B. Plaintiffs’ Second Claim Fails to the Extent
it is a Hybrid Claim
In Count II of the Complaint, the Plaintiffs
challenge their existing seniority by claiming that it is
a result of the APA’s breach of its duty of fair representation to former TWA pilots now at American. Plaintiffs claim the APA breached its duty to them by:
(A) Agreeing to a System Seniority List which
violates the terms of the New CBA, to the severe
detriment of its former TWA members;
(B) Agreeing to a System Seniority List that
mirrors the prior list created under Supplement
CC and acknowledged by the APA in 2001 to be
unfair to the former TWA pilots; and
(C) Agreeing to a System Seniority List that
treats the former TWA pilots differently (and
worse) than the pilots of other airlines acquired
by American.
Compl. ¶ 49.
A labor union’s duty of fair representation has three
distinct aspects: “the exclusive agent’s statutory authority to represent all members of a designated unit
includes a statutory obligation to serve the interests of
all members without hostility or discrimination toward
any, to exercise its discretion with complete good faith
and honesty, and to avoid arbitrary conduct.” Vaca v.
Sipes, 386 U.S. 171, 177, 87 S. Ct. 903, 17 L. Ed. 2d
842 (1967). The duty of fair representation applies to
all union activity, including contract negotiation. Air
Line Pilots Ass’n v. O’Neill, 499 U.S. 65, 67, 111 S. Ct.
1127, 113 L. Ed. 2d 51 (1991).

APP-183
A union’s duty of fair representation extends to the
negotiation of seniority rights for union members. “In
general, a union owes a duty of fair representation to
all members of the bargaining unit in negotiating an
integrated seniority list.” Bernard v. Air Line Pilots
Ass’n Intern., AFL-CIO, 873 F.2d 213, 216 (9th Cir.
1989) (citing Humphrey v. Moore, 375 U.S. 335, 84 S.
Ct. 363, 11 L. Ed. 2d 370 (1964)). “While a union may
make seniority decisions within a wide range of reasonableness in serving the interests of the unit it represents, such decisions may not be made solely for the
benefit of a stronger, more politically favored group
over a minority group.” Barton Brands Ltd. v. NLRB,
529 F.2d 793, 798-99 (7th Cir. 1976). “An essential
element, then, necessary to raise a limitation upon a
union’s discretion in bargaining with respect to seniority rights is a bad faith motive, an intent to hostilely
discriminate against a portion of the union’s membership.” Hardcastle v. Western Greyhound Lines, 303
F.2d 182, 185 (9th Cir. 1962).
To state a breach of duty claim, the plaintiff must
plausibly allege that the union’s wrongful conduct
caused his injury. Vaughn v. Air Line Pilots Ass’n, Int’l,
604 F.3d 703, 709 (2d Cir. 2010) (citations omitted). In
other words, a plaintiff must demonstrate that he actually suffered an injury as a result of the union’s alleged
misconduct. Sim v. New York Mailers’ Union Number
6, 166 F.3d 465, 472 (2d Cir. 1999) (“[I]n addition to
proving that the Union acted arbitrarily and in bad
faith, plaintiffs must demonstrate that any alleged
misconduct had an effect on the outcome”); see Phillips
v. Lenox Hill Hosp., 673 F. Supp. 1207, 1214 (S.D.N.Y.

APP-184
1987) (failing to take action that imposed no prejudice
on plaintiff does not satisfy the causation test).
“Although formally comprised of two separate
causes of action, a suit in which an employee alleges
that an employer has breached a [collective bargaining
agreement] and that a union has breached its duty of
fair representation by failing to enforce the [collective
bargaining agreement] is known as a ‘hybrid … claim.’”
Acosta v. Potter, 410 F. Supp. 2d 298, 308 (S.D.N.Y.
2006) (quoting DelCostello v. Int’l Bhd. of Teamsters,
462 U.S. 151, 164-65, 103 S. Ct. 2281, 76 L. Ed. 2d 476
(1983)). To establish a hybrid claim, therefore, a plaintiff is required to prove both “(1) that the employer
breached a collective bargaining agreement and (2)
that the union breached its duty of fair representation
vis-à-vis the union members. The plaintiff may sue the
union or the employer, or both, but must allege violations on the part of both.” White v. White Rose Food,
237 F.3d 174, 178-79 (2d Cir. 2001). Given the Court’s
conclusions regarding the breach of contract claim
against American, the Plaintiffs’ “hybrid” claim in
paragraph 49(A) of the Complaint must also fail. See
Acosta, 410 F. Supp. 2d at 309 (“[I]n a hybrid claim, if
the employer is not liable to the employee, neither is
the union.”) (citing DelCostello, 462 U.S. at 165); see
also Herr v. Cineplex Odeon Corp., 1994 U.S. Dist.
LEXIS 2539, at *12 (S.D.N.Y. Mar. 4, 1994).
This does not, however, dispose of the Plaintiffs’
remaining two theories of liability for breach of the
duty of fair representation against the APA in paragraphs 49(B) and (C) of the Complaint. The Plaintiffs
there claim that the APA breached its duty of fair
representation in (1) agreeing to a seniority list that

APP-185
mirrored the list under Supplement CC, and (2) agreeing to a seniority list that treats the former TWA pilots
differently from others. These claims are not based on
an alleged breach of the New CBA. Rather, the premise
of these claims is that the seniority agreed to by the
APA is unfair to the former TWA pilots. See Compl.
¶¶ 10-13, 43-46. While not expressly set forth in the
Complaint, it appears that the Plaintiffs argue that the
APA should not have agreed to use the old seniority list
for former TWA pilots once the Old CBA was abrogated
because the old seniority list was unfair once the
corresponding job protections in Supplement CC had
been eliminated. See Compl. ¶ 17 (all pilots at-will
employees once Old CBA terminated). Drawing all
reasonable inferences in favor of the Plaintiffs, therefore, the Court finds that the two remaining claims
under Count II are distinct from the contract claim and
survive independently.
The APA’s only theory for dismissal of these two
claims relies upon arguments made in a related case
brought by the same Plaintiffs, Krakowski v. American
Airlines, Inc., et al., Adv. Proceeding No. 13-01283
(“Krakowski I”). See APA MTD at 14-15. The APA
argues without elaboration that the Plaintiffs’ claims
are precluded for the same reasons they seek dismissal
of the complaint in Krakowski I. See Krakowski I APA
MTD and Reply [Adv. No. 13-01283, ECF Nos. 14-1,
25]. But while similar, the facts and arguments in
Krakowski I are distinct from those in this case.
Krakowski I focuses on two things: (1) the arbitration
regarding the substitute job protections that should be
given to former TWA pilots to replace those lost when
Supplement CC was terminated; and (2) the agreement

APP-186
between the APA and American that the arbitrator’s
remedy in that proceeding could not include any
change in the seniority of these former TWA pilots. The
Complaint in this case cites neither of these events.
Indeed, it appears to be carefully crafted to avoid any
mention of either, even though the events in the two
cases are obviously related. In any event, Krakowski I
is distinct from the Plaintiffs’ claim here that the APA
violated its duty by agreeing to use the old seniority
list immediately after the Old CBA was abrogated even
though the job protections of Supplement CC were
gone.11
C. Plaintiff’s Third Count of the Complaint
Fails to the Extent that it Relies Upon Breach of
Contract
In Count III of the Complaint, the Plaintiffs allege
that the “APA’s agreement with American to implement a System Seniority List—one which does not
follow the formula described in the New CBA, to the
detriment of the former TWA Pilot [sic]—is discriminatory and arbitrary on its face.” Compl. ¶ 52 (emphasis
added). The Plaintiffs also state that “American colluded with [the] APA in its breach of its duty of represen11

The Court notes that the Defendants have disputed the
merits of these additional allegations against the APA. See
Rakestraw v. Ari Line Pilots Ass’n, 981 F.2d 1524, 1536 (7th Cir.
1992) (“Employers are free to prefer one group of employees over
another. …”); Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 2014 Bankr. LEXIS 2610, at *14 (Bankr. S.D.N.Y. June 3,
2014) (“[S]eniority is a zero sum game … if someone’s bumped up,
someone else goes down.”). It is premature, however, for the Court
to rule on those issues where there is not an adequate factual
record or briefing.

APP-187
tation in order to secure [the] APA’s approval of the
new CBA.” Compl. ¶ 53. The Court has already ruled
that the implementation of the System Seniority List
does not constitute a breach of the New CBA. Therefore, to the extent that Count III relies upon this
premise, it is dismissed for the reasons set forth above.
The Plaintiffs’ remaining allegations with respect to
Count III are insufficient to establish a claim. These
allegations are the Plaintiffs’ conclusory statements
that American colluded with the APA in its breach of
representation to secure the APA’s approval of the New
CBA, Compl. ¶ 53, and that American and the APA
entered into a facially discriminatory and arbitrary
agreement and colluded with one another, Compl. ¶ 54.
It is true that when deciding a motion to dismiss, a
court must proceed “on the assumption that all the
allegations in the complaint are true,” Twombly, 550
U.S. at 555, and must draw all reasonable inferences
in favor of the nonmoving party. Ganino, 228 F.3d at
161. But “[t]he same deference does not extend, however, to pleaded legal conclusions.” Johnson v. Priceline.com, Inc., 711 F.3d 271, 275 (2d Cir. 2013) (citing
Iqbal, 556 U.S. at 678).
Citing Steffens v. Brotherhood of Ry., Airline and
S.S. Clerks, Freight Handlers, Exp. & Station
Employees, 797 F.2d 442, 445 (7th Cir. 1986), the
Plaintiffs allege that the pleading burden in these
circumstances is not high. But in Steffens, the court
stated that “[t]he complaint alleges facts which, if true,
would support a finding that the union had breached
its duty of fair representation and that the union and
employer had colluded to deprive plaintiffs of their
rights under the collective bargaining agreement. ..

APP-188
This is enough to state a claim for a hybrid duty of fair
representation suit.” Id. But the Plaintiffs do not do
this here. The Complaint simply makes statements
amounting to the legal conclusion that American
colluded with the APA to gain the APA’s approval of
the New CBA and that the Defendants “entered into a
facially discriminatory and arbitrary agreement.”
These legal conclusions are not supported or tied to
facts in the Complaint. So “[w]hile an employer may be
jointly and severally liable for a unions’ breach of its
fiduciary obligations to its members, such liability can
only exist where the facts permit a rational inference
that the employer has colluded with, and participated
in the union’s breach.” Kozera v. Int’l Broth. of Elec.
Workers AFL-CIO, 892 F. Supp. 536, 545 (S.D.N.Y.
1995); see Lewis v. Tuscan Dairy Farms, Inc., 25 F.3d
1138, 1146 (2d Cir. 1994). The Plaintiffs are free to
make such allegations in an amended complaint. See
Van Buskirk v. N.Y. Times Co., 325 F.3d 87, 91 (2d Cir.
2003) (“[A] court granting a 12(b)(6) motion should
consider a dismissal without prejudice when a liberal
reading of the complaint gives any indication that a
valid claim might be stated.”) (internal citations and
quotations omitted).
CONCLUSION
For the reasons stated above, the Court grants the
Defendants’ Motions in part and dismisses Count I of
the Complaint. The Court also dismisses the hybrid
claim contained in Count II of the complaint to the
extent such claim is based upon an alleged breach of
the New CBA. Finally, the Court dismisses Count III
of the Complaint. The Defendants should settle an
order on three days’ notice. The proposed order must be

APP-189
submitted by filing a notice of the proposed order on
the Case Management/Electronic Case Filing docket,
with a copy of the proposed order attached as an exhibit to the notice. A copy of the notice and proposed
order shall also be served upon counsel to the Plaintiffs.

APP-190
SEPT. 3, 2015 BANKRUPTCY COURT DECISION
(Krakowski I)
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 536 B.R. 360, 2015 Bankr. LEXIS 3038, 61
Bankr. Ct. Dec. 138, Adv. No. 13-01283 (Bankr.
S.D.N.Y. Sept. 3, 2015) (“Krakowski I”).
UNITED STATES BANKRUPTCY COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
In re: AMR CORP., et al.,
Reorganized Debtors.
JOHN KRAKOWSKI, et al.,
individually and on behalf of
those similarly situated,
Plaintiffs,

Chapter 11
Case No. 11-15463
(SHL) (Confirmed)
Adv. No. 13-01283
(SHL)

v.
AMERICAN AIRLINES, INC.,
et al.,
Defendants.
September 3, 2015
Before Bankruptcy Judge Sean H. Lane
MEMORANDUM OF DECISION
Before the Court is the motion of Defendant American Airlines, Inc. seeking to dismiss the modified

APP-191
supplemental class action complaint in the abovecaptioned adversary proceeding. Plaintiffs are American Airlines’ pilots who previously worked at TWA. At
American, Plaintiffs enjoyed special job opportunities
at the St. Louis hub until those opportunities ended
when the pilots’ collective bargaining agreement was
abrogated in American’s bankruptcy. Plaintiffs allege
that their union—the APA—breached its duty of fair
representation in ten ways regarding Plaintiffs’ loss of
those special opportunities, including failing to bargain
for Plaintiffs in connection with the lost opportunities,
failing to replicate the lost opportunities, and failing to
fairly represent Plaintiffs in an arbitration to provide
substitute job protections. Unhappy with the results of
that arbitration, they seek a declaration voiding the
arbitrators’ award, among other things.
For the reasons set forth below, the Court dismisses
the first four claims in light of the prior proceedings
before this Court to abrogate the pilots’ collective
bargaining agreement under Section 1113 of the Bankruptcy Code and the Court’s subsequent approval of a
new agreement. But the Court denies the rest of the
motion, finding that Plaintiffs have stated claims
regarding the conduct of the arbitration, the merits of
which require further factual development.
BACKGROUND
As it must on a motion to dismiss, the Court
assumes to be true all the facts in the complaint. In
April 2001, American acquired the assets of former
airline TWA, including its unionized employees. Plaintiffs’ Modified Supplemental Class Action Complaint
[ECF No. 48] (“MSCompl.”) ¶ 1. Given the acquisition,

APP-192
American and the APA negotiated and executed an
addendum to their collective bargaining agreement
entitled “Supplement CC,” which provided terms for
integrating legacy TWA pilots into American’s pilot
seniority list. MSCompl. ¶ 8. Supplement CC completely subordinated the seniority of about 1,200 legacy
TWA pilots to that of all American pilots. MSCompl.
¶ 9. The seniority of the remaining 1,100 legacy TWA
pilots was reduced by Supplement CC, and they were
reintegrated into American’s seniority list at their
reduced seniority level. MSCompl. ¶ 9. But to compensate for this loss of seniority, Supplement CC constructed a “protective ‘fence’ in St. Louis,” which created a
minimum number of Captain and First Officer positions in St. Louis and granted the legacy TWA pilots
preferential bidding for these positions. MSCompl.
¶ 10. So, while reducing the seniority of legacy TWA
pilots put them at a relative disadvantage for purposes
of bidding against 8,000 American pilots for positions
on other routes, the protective fence guaranteed a
certain number of desired positions on routes from
St. Louis. MSCompl. ¶¶ 10-11. The protective fence in
St. Louis was the only consideration the legacy TWA
pilots received for their reduced seniority. MSCompl.
¶ 14.
The APA has “long desired to terminate Supplement CC, and the protective fence in St. Louis it
provided” for the legacy TWA pilots. MSCompl. ¶ 46.
American knew of the APA’s hostility toward legacy
TWA pilots after May 2012. MSCompl. ¶ 52. A former
APA president promised as part of his election platform to remove the St. Louis fence without restoring
seniority to the legacy TWA pilots. MSCompl. ¶ 46.

APP-193
After American filed for Chapter 11 bankruptcy protection in November 2011, it represented that it would
“close its St. Louis base and eliminate the protective
fence by the end of 2012.” MSCompl. ¶¶ 12-13. The
legacy TWA pilots contended that either their pre-integration seniority should be restored or the protective
fence maintained. MSCompl. ¶ 15.
At some point, American proposed sending this
issue to arbitration, and “initially proposed a seemingly
fair dispute resolution mechanism as to the [legacy]
TWA pilots[‘] issue that did not limit the arbitrators’
remedy.” MSCompl. ¶ 53. But American and the APA
later agreed that the arbitrators would be powerless to
restore the legacy TWA pilots’ seniority. MSCompl.
¶ 53. Thus, the “APA, in collusion with American,
agreed that American [could] close the St. Louis base,
and that … an arbitrator [would] decide what if any
protection should be afforded” to the legacy TWA
pilots. MSCompl. ¶ 15. But “under no circumstance
[could] the arbitrator modify the [legacy] TWA pilots’
seniority at American.” MSCompl. ¶ 15. This agreement would be implemented later through the collective bargaining agreement process. MSCompl. ¶ 16.
Plaintiffs’ original complaint in this case alleged
that the APA breached its duty of fair representation
by agreeing with American to take seniority off the
table as a possible remedy in the arbitration, regardless of the ultimate result of that arbitration. See
Krakowski v. Am. Airlines, Inc. (In re AMR Corp.),
2014 Bankr. LEXIS 2610, 2014 WL 2508729, at *1
(Bankr. S.D.N.Y. June 3, 2014). In June 2014, however,
this Court granted the APA and American’s motions to
dismiss the original complaint. 2014 Bankr. LEXIS

APP-194
2610, [WL] at *6. In the June decision, the Court
concluded that the Plaintiffs had not alleged sufficient
facts to plausibly show that the seniority restriction on
the Supplement CC arbitration—in and of itself—fell
outside the APA’s legitimate union objectives. 2014
Bankr. LEXIS 2610, [WL] at *4. In reaching its June
decision, the Court observed that the Plaintiffs’ seniority had been lost more than a decade before when
American acquired TWA and that the results of the
arbitration were unknown. 2014 Bankr. LEXIS 2610,
[WL] at *4-5.
The parties refer to events in the main bankruptcy
case.1 The Court takes judicial notice of the proceedings in this bankruptcy case which are relevant to this
motion.2 These are the Section 1113 proceedings—
1

See, e.g., Plaintiffs Opp. at 1 (“The lengthy set of facts
underlying this case have been briefed several times in this and
the related case. Plaintiffs will not repeat them here. …”); Motion
to Dismiss, at 2 (“This motion … is based on the facts alleged …
and matters of which this Court may take judicial notice, including
prior decisions. The Court can take notice of its own docket and
the decisions already rendered.”); Motion to Dismiss, at 3-4 (“During the bankruptcy reorganization proceedings, American sought
to negotiate a new collective bargaining agreement with APA. …
American petitioned the Court for authority to reject. … American
and the APA continued to negotiate and eventually agreed to a
new collective bargaining agreement.”).
2

See In re E.R. Fegert, Inc., 887 F.2d 955, 957-58 (9th Cir.
1989) (“Whether these facts were supported by the record in this
adversary proceeding is unclear; however, all of the facts are
supported by the record of the underlying bankruptcy matter. …
‘The record in an adversary proceeding in bankruptcy presumes
and in large measure relies upon the file in the underlying case
…’”) (quoting Berge v. Sweet (In re Berge), 37 B.R. 705, 708 (W.D.

APP-195
discussed in Plaintiffs’ Modified Supplemental
Complaint—that granted authority to the Debtors to
reject the collective bargaining agreement with the
APA and ultimately led to a new agreement. See, e.g.,
MSCompl. ¶ 17 (“American’s contract impasse with
APA led it to seek authority from the Bankruptcy
Court to reject its then existing collective bargaining
agreement pursuant to [Section] 1113. Its [Section]
1113 motion was granted on September 12, 2012, and
American rejected its collective bargaining agreement
with APA.”). In the Section 1113 proceedings, Debtor
American Airlines sought permission to abrogate its
collective bargaining agreement with the APA. See11
U.S.C. § 1113 (permitting a debtor to reject a collective
bargaining agreement if it demonstrates, among other
things, that it has made a proposal for modifications

Wis. 1983)); Citizens Bank v. Leach (In re Leach), 35 B.R. 100,
101-02 & n.5 (Bankr. W.D. Ky. 1983) (bankruptcy judge’s use of
“entire file” is consistent with the Federal Rules of Evidence given
connections between a “case” and a “proceeding”) (citing Leather
Comfort Corp. v. Chem. Sales and Serv. Co. (In re Saco), 30 B.R.
862, 865 (Bankr. D. Me. 1983) (“[B]ankruptcy judges would be
remiss” if they did not take judicial notice of the debtor’s bankruptcy case as a whole, including the documents filed in the case
because of bankruptcy’s unique interrelated multi-part nature and
duty to “notice … records and files in [the] cause. …”); cf Aramony
v. United Way of Am., 254 F.3d 403, 410 (2d Cir. 2001) (“The
doctrine of the law of the case posits that if a court decides a rule
of law, that decision should continue to govern in subsequent
stages of the same case. Courts apply the law of the case doctrine
when their prior decisions in an ongoing case either expressly
resolved an issue or necessarily resolved it by implication.”)
(internal citations and quotation marks omitted). None of the
parties have objected to the Court taking judicial notice of the
prior proceedings before it in this bankruptcy case.

APP-196
that are necessary for reorganization). The APA opposed the request, as did representatives of the Supplement CC pilots. In re AMR, 477 B.R. 384, 411-12,
450-54 (Bankr. S.D.N.Y. 2012). After a three-week
trial, the Court issued a decision denying the Debtors’
motion, largely agreeing with the need for Section 1113
relief but identifying two flaws in American’s proposal
for a new collective bargaining agreement. Id. at 454.
In that decision, the Court rejected the contention that
the rights provided under Supplement CC could not be
rejected under Section 1113. Id. at 451-54 (noting that
“nothing in Section 1113 itself … supports the notion
that a collective bargaining right can exist in perpetuity. Indeed, the case law says otherwise.”). After revising their proposal, American once again sought relief
under Section 1113, relief that was once again opposed
by the APA. In re AMR, 478 B.R. 599, 604 (Bankr.
S.D.N.Y. 2012). This time the Court granted the
motion. Id. at 609-10. That decision was affirmed by
the District Court. See In re AMR, 523 B.R. 415
(S.D.N.Y. 2014). In its decision, the District Court
concluded that the old collective bargaining agreement,
and the supplements to it, were rejected under Section
1113. Id. at 423.3
3

In the appeal, a group of pilots were relying on rights that
they claimed still existed under another supplement to the collective bargaining agreement—Supplement B—which contained “a
guarantee that American would ‘take no action, at any time, by
way of notice, negotiations or otherwise, to diminish the pay or the
retirement programs’ to which those pilots had agreed.” Id. at 419.
The district court rejected the pilots’ reliance on this guarantee,
concluding that “the old CBA, including [S]upplement B, was
rejected” under Section 1113. Id.

APP-197
After American abrogated its then-existing collective bargaining agreement with the APA, MSCompl.
¶ 17, American and the APA negotiated a new collective bargaining agreement and multiple related side
letter agreements, including letter agreement 12-05
(“LOA 12-05”). See LOA 12-05 [Case No. 11-15463,
ECF No. 5626, at 527-29]. LOA 12-05 “confirms [the]
agreement concerning the termination of Supplement
CC, the planned closure of the STL base, interest arbitration related to that action, and the schedule of any
other base closures.” Id. During a hearing where
American sought authority to enter into a new collective bargaining agreement and approve related side
letters, including LOA 12-05, the “APA and American
represented to the Bankruptcy Court that while LOA
12-05 precluded the arbitrators from modifying the
seniority list, [the APA and American’s] intent was
that the arbitrators would ‘replicate’ the job protections
for former [legacy] TWA pilots created by Supplement
CC.” MSCompl. ¶ 22.
In its motion, American seeks dismissal on a variety
of grounds. It argues that some of Plaintiffs’ claims are
precluded by the Section 1113 process before this Court
or already rejected by a prior decision issued in this
adversary proceeding. American also contends that
Plaintiffs cannot challenge the results of the arbitration by filing a duty of fair representation claim but
must instead seek to directly vacate the arbitration
award.

APP-198
DISCUSSION
I. Applicable Legal Standards
A. Motion to Dismiss
To survive a motion to dismiss under Rule 12(b)(6),
a plaintiff’s complaint must plead “enough facts to
state a claim to relief that is plausible on its face.”4 Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct.
1955, 167 L. Ed. 2d 929 (2007). These facts must establish “more than a sheer possibility that a defendant has
acted unlawfully.” Ashcroft v. Iqbal, 556 U.S. 662, 677,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2007). “However,
this does not mean that a claim must contain ‘detailed
factual allegations’ to survive a Rule 12(b)(6) motion to
dismiss.” Eastman Chem. Co. v. Nestlé Waters Mgmt.
& Tech., 2012 U.S. Dist. LEXIS 141281, at *14
(S.D.N.Y. Sept. 28, 2012). In ruling on such a motion,
a court must “assum[e] that all the allegations in the
complaint are true.” Id. at 555. But courts need not
“credit conclusory allegations or legal conclusions
couched as factual allegations.” Rothstein v. UBS AG,
708 F.3d 82, 94 (2d Cir. 2014). Ultimately, the court
must determine “whether the well-pleaded factual allegations, assumed to be true, plausibly give rise to an
entitlement to relief.” Hayden v. Paterson, 594 F.3d
150, 161 (2d Cir. 2010) (citing Iqbal, 556 U.S. at 679)
(emphasis added); see also Eatz v. DME Unit of Local
Union No. 3, 794 F.2d 29, 34 (2d Cir. 1986) (“[W]hen an
action involves a union’s duty of fair representation,
4

Federal Rule of Civil Procedure 12(b)(6) is made applicable
to this adversary proceeding by Federal Rule of Bankruptcy
Procedure 7012(b).

APP-199
the Supreme Court advises the lower courts, as guardians of this duty, to construe complaints … to avoid
dismissals and to give plaintiffs the opportunity to file
supplemental pleadings unless … beyond doubt … a
good cause of action cannot be stated.”) (citing Czosek,
397 U.S. at 27); Kavowras v. New York Times Co., 328
F.3d 50, 53 (2d Cir. 2003).5
B. The Duty of Fair Representation
“A union ‘has a duty to represent fairly all employees subject to the collective bargaining agreement.’”
Vaughn v. Air Line Pilots Ass’n, Int’l, 604 F.3d 703, 709
(2d Cir. 2010) (quoting Spellacy v. Airline Pilots
Ass’n-Int’l, 156 F.3d 120, 126 (2d Cir. 1998)). This duty
requires adequate, honest, and good faith representation. Air Line Pilots Ass’n, Int’l v. O’Neill, 499 U.S. 65,
75, 111 S. Ct. 1127, 113 L. Ed. 2d 51 (1991) (citing
Restatement (Second) of Trusts § 174 (1959) (trustee’s
duty of care) (additional citations omitted)). It applies
across many contexts, including when challenges are
leveled at a union’s contract administration, contract
enforcement, negotiation efforts, or “instances in which
a union is acting in its representative role, such as
when the union operates a hiring hall.” O’Neill, 499
U.S. at 77 (citing Breininger v. Sheet Metal Workers,
493 U.S. 67, 87-89, 110 S. Ct. 424, 107 L. Ed. 2d 388
(1989) (additional internal citations and quotations
omitted)). It has been referred to as the “statutory duty
5

The APA has vigorously contested Plaintiffs’ allegations
about the conduct of the arbitration in other pleadings filed before
this Court. See Decl. of Edgar James ¶¶ 2-22 [ECF No. 36-2]; Decl.
of Keith Wilson ¶¶ 11-18 [ECF No. 36-3]. But such factual issues
are not before the Court on this motion to dismiss.

APP-200
of fair representation,” but the “doctrine was judicially
developed in Steele [v. Louisville & Nashville R. Co.]
and its progeny,” and is more precisely described as
“grounded in federal statutes.” See Vaca v. Sipes, 386
U.S. 171, 177, 87 S. Ct. 903, 17 L. Ed. 2d 842 (1967)
(“The statutory duty of fair representation was developed over 20 years ago in a series of cases involving
alleged racial discrimination. …”) (citing Steele v.
Louisville & Nashville R. Co., 323 U.S. 192, 204, 65
S. Ct. 226, 89 L. Ed. 173 (1944)); see also O’Neill, 499
U.S. at 76 (“This description of the ‘duty grounded in
federal statutes’ has been accepted without question by
Congress and in a line of our decisions spanning almost
a quarter of a century.”) (citations omitted); Int’l Bhd.
of Elec. Workers v. Foust, 442 U.S. 42, 47, 99 S. Ct.
2121, 60 L. Ed. 2d 698 (1979) (“The right to bring
unfair representation actions is judicially implied from
the statute and the policy. … Our function, therefore,
is to implement a remedial scheme that will best
effectuate the purposes of the Railway Labor Act. …”)
(citations and quotation marks omitted); Breininger v.
Sheet Metal Workers Int’l Ass’n Local Union No. 6, 493
U.S. 67, 79, 110 S. Ct. 424, 107 L. Ed. 2d 388 (1989)
(explaining an unfair representation claim is a “creature of labor law” and “part of federal labor policy”).
To prove a breach of the duty of fair representation,
plaintiff must satisfy two elements. Nikci v. Quality
Bldg. Servs., 995 F. Supp. 2d. 240, 246 (S.D.N.Y. 2014)
(quoting White v. White Rose Food, 237 F.3d 174, 179
(2d Cir. 2001)); Vaughn, 604 F.3d at 709. First, the
plaintiff must show “that the union’s ‘conduct toward
a member of the bargaining unit is arbitrary, discriminatory, or in bad faith.’” Id. (quoting White Rose Food,

APP-201
237 F.3d at 179); Vaughn, 604 F.3d at 709 (conduct
consists of action or inaction). A union’s conduct is
arbitrary if “‘in light of the factual and legal landscape
at the time of the union’s actions [or inactions], the
union’s behavior is so far outside a wide range of
reasonableness as to be irrational.’” Vaughn, 604 F.3d
at 709 (quoting O’Neill, 499 U.S. at 67). It is discriminatory if “‘substantial evidence’” indicates that the
union engaged in discrimination that “‘was intentional,
severe, and unrelated to legitimate union objectives.’”
Vaughn, 604 F.3d at 709 (quoting Amalgamated Ass’n
of Street, Elec. Ry. & Motor Coach Emps. of Am. v.
Lockridge, 403 U.S. 274, 301, 91 S. Ct. 1909, 29 L. Ed.
2d 473 (1971)). And a union’s conduct is in bad faith if
there is proof that the union acted with “an improper
intent, purpose, or motive” and that action “encompasses fraud, dishonesty and other intentionally misleading conduct.” Vaughn, 604 F.3d at 709-10 (quoting
Spellacy, 156 F.3d at 126). A union’s good faith “[t]actical errors” or “mere negligence” will not give rise to a
breach of the duty of fair representation, because “‘[a]s
long as the union acts in good faith, the courts cannot
intercede on behalf of employees who may be prejudiced by rationally founded decisions which operate to
their particular disadvantage.’” Barr v. United Parcel
Serv., Inc., 868 F.2d 36, 43-44 (2d Cir. 1989) (quoting
Cook v. Pan Am. World Airways, Inc., 771 F.2d 635,
645 (2d Cir. 1985)).
Second, the plaintiff must show “‘a causal connection between the union’s wrongful conduct and [the
plaintiff’s] injuries.’” Barr, 868 F.2d at 43-44 (quoting
White Rose Food, 237 F.3d at 179); Vaughn, 604 F.3d
at 709.

APP-202
Duty of fair representation cases “are matters to be
decided by the courts in the first instance.” See, e.g.,
Ferro v. Ry. Exp. Agency, Inc., 296 F.2d 847, 851 (citing
Conley v. Gibson, 355 U.S. 41, 47, 78 S. Ct. 99, 2 L. Ed.
2d 80 (1957)); Boivin v. Cent. Vermont Ry., Inc., 1982
U.S. Dist. LEXIS 9994, 1982 WL 177535, at *8 (D. Vt.
Feb. 16, 1982) (“It is clear that a federal district court
has subject matter jurisdiction over an employee[‘s]
claim against a union for breach of duty of fair representation.”) (citing O’Mara v. Erie Lackawan R.R. Co.,
407 F.2d 674 (2d Cir. 1969) aff’d sub nom, Czosek v.
O’Mara, 397 U.S. 25, 90 S. Ct. 770, 25 L. Ed. 2d 21
(1970)). Thus, an employee does not need to exhaust
other administrative remedies prior to bringing a duty
of fair representation claim. Czosek, 397 U.S. at 28
(“And surely it is beyond cavil that a suit against the
union for breach of its duty of fair representation is not
within the jurisdiction of the National Railroad Adjustment Board or subject to the ordinary rule that
administrative remedies should be exhausted before
resort to the courts. …”) (citations and footnotes omitted)).
An employee bringing a breach of duty of fair
representation claim against his union can add his
employer as a defendant by alleging the employer’s
knowledge of or complicity in the union’s breach. See
Long Island City Lodge 2147 etc. v. Ry. Express Agency,
Inc., 217 F. Supp. 907, 910 (S.D.N.Y. 1963) (National
Railroad Adjustment Board lacks primary jurisdiction
over employees’ hostile discrimination claim against
union and employer). This approach bypasses a fruitless arbitration process in which two collusive parties,
the employer and union, could strike a bargain at the

APP-203
employee’s expense. See Sullivan v. Air Transp. Local
501 TWU, 2004 U.S. Dist. LEXIS 29815, 2004 WL
2851785, at *2 (E.D.N.Y. Dec. 6, 2004) (citing Glover v.
St. Louis-S.F. Ry. Co., 393 U.S. 324, 328-29, 89 S. Ct.
548, 21 L. Ed. 2d 519 (1969) (additional citations
omitted)); see also Boivin, 1982 U.S. Dist. LEXIS 9994,
1982 WL 177535, at *4 (citing O’Mara, 407 F.2d at
674).
C. Judicial Review Under the Railway Labor Act
The Railway Labor Act (the “RLA”) separately
addresses finality and judicial review of awards issued
by “any division of the [National Railroad] Adjustment
Board,” and awards issued by “a board of arbitration.”
Compare 45 U.S.C. §§ 153 First (q), (m) & Second with
45 U.S.C. § 159 Third. Section 159 provides that an
award of a board of arbitration is “conclusive on the
parties as to the merits and facts of the controversy”
unless a petition to impeach the award is properly filed
on fairly limited grounds:
(a) That the award plainly does not conform to
the substantive requirements laid down by this
chapter for such awards, or that the proceedings
were not substantially in conformity with this
chapter;
(b) That the award does not conform, nor confine
itself, to the stipulations of the agreement to
arbitrate; or
(c) That a member of the board of arbitration
rendering the award was guilty of fraud or
corruption; or that a party to the arbitration
practiced fraud or corruption which fraud or

APP-204
corruption affected the result of the arbitration.
… Provided further, that an award contested as
herein provided shall be construed liberally by
the court, with a view to favorite its validity,
and that no award shall be set aside for trivial
irregularity or clerical error, going only to form
and not to substance.
45 U.S.C. § 159 Third.
As a general matter, if an employee disagrees with
a “final and binding” arbitration award and can show
that his union breached its duty of fair representation
in a way that “seriously undermine[d] the integrity of
the arbitral process,” then that arbitration award is no
longer final or binding. United Parcel Service, Inc., v.
Mitchell, 451 U.S. 56, 61, 101 S. Ct. 1559, 67 L. Ed. 2d
732 (quoting Hines v. Anchor Motor Freight, Inc., 424
U.S. 554, 567, 96 S. Ct. 1048, 47 L. Ed. 2d 231 (1976))
(“[I]f it seriously undermines the integrity of the arbitral process the union’s breach also removes the bar of
finality”). Such a tainted award may be vacated. See
Hines, 424 U.S. at 572 (quoting Margetta v. Pam Pam
Corp., 501 F.2d 179, 180 (9th Cir. 1974)) (“‘To us, it
makes little difference whether the union subverts the
arbitration process by refusing to proceed … or follows
the arbitration trail to the end, but in so doing subverts
the arbitration process. … In neither case, does the
employee receive fair representation.’”).
While the Hines decision involved the Labor
Management Relations Act of 1947, 29 U.S.C. §§ 141 et
seq., the duty of fair representation exception to finality and remedy of vacatur of a tainted final and binding
arbitration award is similarly available under the RLA.

APP-205
See, e.g., Barnett v. United Air Lines, Inc., 738 F.2d
358, 362 (10th Cir. 1984) (“If an employee can establish
that his union breached its implied duty of fair representation, then even a binding decision of the board
can be set aside if the breach seriously undermined the
integrity of the arbitral process.”) (citing Hines, 424
U.S. at 567); Del Casal v. E. Airlines, Inc., 634 F.2d
295, 299 (5th Cir. 1981) (applying Hines, but declining
to vacate the System Board’s final and binding conclusions because the facts did not show that the union’s
breach of its duty of fair representation seriously
undermined the integrity of the arbitral process).
Indeed, many courts assume the application of this
duty of fair representation exception to final and binding awards under the RLA without discussion. See, e.g.,
Del Casal, 634 F.2d at 299 (citing Hines for existence
of duty of fair representation exception and, without
further discussion, applying it to determine that
“[h]ere, the union’s breach … did not ‘seriously undermine’ the integrity of the arbitral process.”).
II. The Plaintiffs’ Alleged Breaches of the Duty
of Fair Representation
The Plaintiffs allege that the “APA violated its duty
to fairly represent the plaintiffs and the putative
Class” in ten ways. MSCompl. ¶ 48(A)-(J). These alleged breaches cover three general categories: 1) failing
to bargain about the termination of Supplement CC
and agreeing to terminate Supplement CC without
securing equivalent job protections, MSCompl.
¶¶ 48(A)-(B); 2) precluding the Supplement CC arbitrators from addressing seniority and failing to pursue
something to “replicate” the Supplement CC job protections, MSCompl. ¶¶ 48(C)-(D); and 3) claims that the

APP-206
Supplement CC arbitration was not procedurally
appropriate or fair, including problems with the selection of the arbitrators, the participants, and the lawyers, MSCompl. ¶¶ 48(E)-(J). Plaintiffs further allege
that American knew of and colluded with the APA in
these breaches. MSCompl. ¶¶ 52-53.
A. Plaintiffs’ First Two Claims Fail to Allege a
Breach of the APA’s Duty of Fair Representation
Because They Ignore the Section 1113 Proceedings in
This Bankruptcy
In its first two claims, Plaintiffs complain that the
APA failed to bargain on their behalf as to the termination of Supplement CC and that APA agreed with
American to terminate Supplement CC without securing equivalent job protections. MSCompl. ¶¶ 48(A)-(B).
But these claims cannot survive given the Section 1113
proceedings in American’s bankruptcy. As those proceedings make clear, the APA collective bargaining
agreement—including Supplement CC—remained in
effect until American received Court approval to reject
the collective bargaining agreement, including Supplement CC. APA opposed the termination of the collective bargaining agreement at every turn, as did the
Supplement CC Pilots.6 Ultimately, American rejected

6

The APA made many attempts to prevent American from
rejecting its collective bargaining agreements, which included
Supplement CC. See, e.g., Brief of APA for American’s Proposals
Pursuant to Section 1113 [Case No. 11-15463, ECF No. 2577];
APA’s Memorandum in Opp’n to Motion to Reject Pursuant to
Section 1113 [ECF No. 2722]; APA’s Objection to Debtors’ Motion
in Limine [ECF No. 2794]; APA’s Supplemental Authority in
Opposition to Debtors’ Motion to Reject Pursuant to Section 1113

APP-207
its collective bargaining agreement with the APA after
contentious Section 1113 proceedings. Until it was
rejected, former TWA pilots had—and exercised
—rights under Supplement CC, which was part of the
underlying collective bargaining agreement between
American and the APA. But the former TWA pilots’
Supplement CC rights ceased to exist when American
rejected the underlying APA collective bargaining
agreement. Hr’g Tr. 76:14-22, Dec. 19, 2012 [Case No.
11-15463, ECF No. 6282].
Plaintiffs seek to avoid the consequences of the
Section 1113 proceedings by arguing that the APA
breached its duty of fair representation before the
Section 1113 proceedings began. More specifically, they
allege that before American was even authorized to
reject Supplement CC, the APA had agreed—without
bargaining on Plaintiffs’ behalf—that American can
close the St. Louis base and that an arbitrator will
decide what protections, if any, should be afforded the
former TWA pilots. MSCompl. ¶¶ 15-16. But Plaintiffs
concede that this “agreement” before the Section 1113
proceeding was only a piece of the negotiations
between American and the APA, which ultimately were
unsuccessful. See MSCompl. ¶ 17 (discussing impasse
in negotiation caused American to seek Section 1113
relief). As this Court previously recognized in the
Section 1113 proceeding:

[ECF No. 2895]; APA’s Appeal for Rejection Pursuant to Section
1113 [ECF No. 4232]; APA’s Objection to Motion to Reject [ECF
No. 4251]; APA’s Amended Declaration in Opposition to Section
1113 Rejection [ECF No. 4285].

APP-208
Because of the complicated nature of these
collective bargaining agreements, the parties
negotiate on an issue-by-issue basis with each
issue subject to the normal tradeoffs inherent in
collective bargaining. Notwithstanding any
meeting of the minds on a particular issue, the
parties have no agreement on a collective bargaining agreement until such time as a union
sends out a specific proposed agreement for a
vote and it is ratified by the union membership.
So while the parties at Trial made repeated
references to agreements on specific issues
reached during negotiations, those reflect only
progress towards an agreement, not a binding
agreement itself.
In re AMR Corp., 477 B.R. at 403 n.9.7 And when
negotiations hit an impasse, American sought and
received authority to reject the collective bargaining
agreement with the APA, causing the former TWA
pilots to lose their rights to the special job protections
in Supplement CC. Hr’g Tr. 76:14-22, Dec. 19, 2012; see
Nw. Airlines Corp. v. Ass’n of Flight Attendants-CWA
(In re Nw. Airlines Corp.), 483 F. 3d 160, 173 (2d Cir.
2007) (a debtor’s abrogation of its collective bargaining
7

The record reflects that the APA and American engaged in
some negotiations about Supplement CC. See, e.g., Memo. in
Support of 1113, Part Two: APA-Pilots, at 49-50 [Case No.
11-15463, ECF No. 2042] (“American originally proposed to eliminate these [minimum staffing] provisions [in St. Louis created by
Supplement CC] and close its base in St. Louis. However, after
negotiations with APA, the Company has accepted APA’s proposal
to solve the issue of any new protections for former TWA pilots
through interest arbitration.”).

APP-209
agreement under Section 1113 terminates the parties’
agreed-to working conditions and absolves them of
status quo duties under the RLA); In re AMR Corp.,
477 B.R. at 453. Given that rejection of Supplement CC
only occurred as a result of this Court’s grant of American’s Section 1113 request, the Court concludes that
Plaintiffs have not plausibly plead a fair representation claim in paragraphs 48 (A)-(B).
B. Plaintiffs’ Third and Fourth Claims are
Dismissed
In claims three and four, Plaintiffs complain that
the APA falsely represented to the Bankruptcy Court
that the intent of the LOA 12-05 arbitration was to
“replicate” Supplement CC’s job protections and that
the APA wrongly agreed with American to preclude the
LOA 12-05 arbitrators from modifying the former TWA
pilots’ seniority. MSCompl. ¶ 48(C) & (D).
Turning to the first allegation, the Court concludes
that the representation about “replicate” is not a basis
for a duty of fair representation claim. The actual
terms of LOA 12-05 were presented to the Court as
part of the request to approve the new collective bargaining agreement. See Mot. for Order Authorizing
Entry into Collective Bargaining Agreement and
Settlement Letter and Approving Settlements in
Connection Therewith (“Mot. Authorizing New CBA”),
Ex. B, at 527-28 [ECF No. 5626]. The intent of LOA
12-05 was clear from its written terms: “The Company
and the APA agree that a dispute resolution procedure
is necessary to determine what alternative contractual
rights should be provided to TWA Pilots as a result of
the loss of flying opportunities due to termination of

APP-210
Supplement CC and the closing of the STL base.” LOA
12-05, at 1 [ECF No. 5626, page 527 of 529] (emphasis
added); id. (parties will engage in binding arbitration
“to establish certain terms of the CBA as a substitute
for the loss of Supplement CC preferential flying opportunities … “) (emphasis added).
The word “replicate” is not used anywhere in LOA
12-05. Rather, it was used by counsel in a court hearing as a short-hand description of the terms of the
agreement. This informal description does not trump
the written terms of the agreement, which was provided to all interested parties at the time of the hearing.
See LOA 12-05, filed Dec. 7, 2012; Hr’g Tr., Dec. 19,
2012 [Case No. 11-15463, ECF No. 6282] (hearing on
Motion Authorizing New CBA); cf. White v. Wash. Pub.
Power Supply Sys., 692 F.2d 1286, 1289 n.1 (9th Cir.
1982) (“It is settled that to the extent a trial court’s
oral decision is inconsistent with a formal written
order, the formal order controls”); Cashco Fin. Servs. v.
McGee (In re McGee), 359 B.R. 764, 774 n.9 (9th Cir.
2006) (“[A] judgment is rendered only when it is set
forth in writing, not when it is orally pronounced in
court.”) (quoting 11 Fed. Prac. & Proc. Civ. 2D Section).
Indeed, it was clear at the hearing that the term
“replicate” could not to be taken literally as the parties
represented that American intended to close the
St. Louis base and, therefore, the job protections for
TWA Pilots at that base would no longer exist. Hr’g Tr.
31:8-33:10, Dec. 19, 2012 [Case No. 11-15463, ECF No.
6282] (Mr. James: “[T]he company is closing St. Louise
[sic] as a result of the abrogation of Sup[plement] CC
and we said there was protected flying that we
promised those pilots back in 2001 and so we’re going

APP-211
to … let … three respected neutrals decide how to
replicate those [p]rotections.”); see also LOA 12-05
(“This letter confirms … the planned closure of the STL
base …”). Given that fact, it would be impossible to
make an exact copy or duplicate of those St. Louis protections. See American Heritage Dictionary, 1480 (4th
ed. 2000) (defining “replicate” as “to repeat, duplicate,
or reproduce”); Random House Dictionary, 1634 (2d ed.
1987) (defining “replicate” as “[t]o duplicate, copy,
reproduce, or repeat”).
Taking judicial notice of the proceedings before this
Court that are part of this bankruptcy case, the Court
categorically rejects Plaintiffs’ reliance on the term
“replicate” as an independent basis for any rights
asserted by the Plaintiffs. Cf. In re Applin, 108 B.R.
253, 258 (Bankr. E.D. Ca. 1989) (“[T]o be given conclusive effect, the putative admission would have to be
deemed a judicial admission. … Some degree of formality is entailed. The court has discretion to accept or
reject the … admission. Judicial admissions are not
made upon ambiguous … comments by counsel and are
not made upon inconsistent pleas.”) (citations and
quotation marks omitted); see id. at 259 (“An inadvertent statement by counsel is more likely to be treated
as an evidentiary admission … [which is] mere
evidence … not conclusive, and may be contradicted by
other evidence.”).8

8

It is unclear whether the term “replicate” would create any
additional rights for the TWA pilots beyond those that exist by
virtue of the terms of LOA 12-05. But to the extent that Plaintiffs
cite to the word “replicate” as a separate basis for relief in paragraph 48(C)-(D) of the Modified Supplemental Complaint, the

APP-212
For different reasons, the Court also dismisses the
claim in paragraph 48(D) of the Modified Supplemental
Complaint. This claim complains about the agreement
to preclude the arbitrators from modifying the seniority of the former TWA pilots. That issue was squarely
presented to this Court and resolved in the Court’s
decision in June 2014 dismissing the original
complaint in this action. In the original Complaint,
Plaintiffs alleged:
28. APA is violating its duty of fair representation in agreeing with American to terminate
Supplement CC’s protective fence and that an
arbitrator can fashion some “remedy” for the
former TWA pilots, which “remedy” cannot modify the former TWA pilots’ seniority. This agreement is the product of APA’s hostility toward
the former TWA pilots, is facially discriminatory
against them, and is so unreasonable as to be
arbitrary.
Original Complaint ¶ 28. The June decision dismissed
this claim. In that decision, the Court rejected the
Plaintiffs’ position that the only satisfactory remedy in
the arbitration required modifying the seniority of the
legacy TWA pilots. In re AMR Corp., 2014 Bankr.
LEXIS 2610, 2014 WL 2508729, at *4 (Bankr. S.D.N.Y.
June 3, 2014). The Court recognized that “[r]eopening
seniority affects all pilots at American that are
represented by the APA, not just the Plaintiffs,” which
required the APA necessarily to balance the interests

Court rejects that argument and thus dismisses this as an
independent claim.

APP-213
of the Plaintiffs and all the other pilots that the APA
represents. Id. The Court concluded that the Plaintiffs
had not alleged anything to infer that the APA’s
exercise of its discretion on that issue was discriminatory. 2014 Bankr. LEXIS 2610, [WL] at *4-5. As this
issue has already been ruled upon, the Court dismisses
this claim. See Aramony, 254 F.3d at 410 (discussing
the doctrine of law of the case).
C. Plaintiffs’ Remaining Claims Survive
In its remaining claims, Plaintiffs raise duty of fair
representation claims relating to how the arbitration
was conducted. The allegations range from complaints
about how the arbitrators, lawyers, and participants in
the arbitration were selected to the positions taken by
the APA during the arbitration. MSCompl. ¶¶ 48(E)(J). American lumps these claims together as “allegations concerning the conduct of the interest arbitration
proceeding within the parameters of LOA 12-05,” and
asserts that “as a result of those allegations what
Plaintiffs are seeking is to vacate the [interest arbitration] award.” Hr’g Tr. 86:17-87:2, Sept. 4, 2014
(Counsel for American, Mr. Fritts). American argues
that the “Railway Labor Act prescribes the only way
to” impeach an arbitration award, which is enumerated
in Section 159 Third. See Motion to Dismiss, at 13; see
also 45 U.S.C. § 159 Third. As Plaintiffs did not seek
relief under Section 159 Third, American contends that
these claims must be dismissed.9 American categor
9

American reasons that Plaintiffs elected not to file a claim
seeking to vacate the interest arbitration awards because Plaintiffs could not satisfy those standards, which are “among the
narrowest known to the law.” Union Pac. R.R. v. Sheehan, 439

APP-214
ically asserts that there “is no [duty of fair representation] exception” to RLA arbitration awards. Hr’g Tr.
131:10-13, Sept. 24, 2014. More specifically, American
contends that where “plaintiffs elected not to file a
petition to vacate or modify the arbitration award, they
could not ‘now collaterally attack the … award in the
context of [a] hybrid claim for breach of the duty of fair
representation.’” Motion to Dismiss, at 14 (citing Musto
v. Transp. Workers Union of Am., 818 F. Supp. 2d 621,
640 (E.D.N.Y. 2011)).
The Court disagrees. In fact, the case law recognizes that a duty of fair representation claim can be
brought independent of a request to vacate an arbitration result. See Schum v. South Buffalo Ry. Co., 496
F.2d 328, 332-33 (2d Cir. 1974) (plaintiff brought
breach of fair duty of representation claim where reliance on union and union’s failure to timely act caused
employer’s adverse decision in wrongful discharge
grievance proceeding to become final and binding, but
plaintiff did not seek to vacate employer’s decision);
Childs v. Penn. Federation Bhd. of Maint. Way Emps.,
831 F.2d 429, 432, 441 (3d Cir. 1987) (plaintiff sued for
breach of the duty of fair representation where union
agreed with defendant that plaintiff would not raise
new contentions in arbitration, but plaintiff did not
move to vacate NRAB’s adverse decision); Peters v.
Burlington N. R. Co., 914 F.2d 1294, 1300-02 (9th Cir.
1990), reh’g denied, 931 F.2d 534 (1991) (plaintiff
claimed that union breached the duty of fair representation by inexplicably failing to present a strong substantive argument at arbitration survived defendant’s
U.S. 89, 93, 99 S. Ct. 399, 58 L. Ed. 2d 354 (1978).

APP-215
motion for summary judgment, but plaintiff did not
request to vacate adverse decision); cf. Williams v. Air
Wisconsin, 874 F. Supp. 710, 712-14 (E.D. Va. 1995),
aff’d, 74 F.3d 1235 (4th Cir. 1996) (court evaluated
evidence in granting summary judgment to defendant
where plaintiff claimed the union breached its duty of
fair representation by failing to emphasize plaintiff’s
case theory and call particular witnesses at an arbitration proceeding but plaintiff never sought to vacate
arbitration decision); see also The Railway Labor Act,
Ch. 5.v.A-F (Chris A. Hollinger, ed., 3rd ed. 2012)
(discussing a union’s duty of fair representation).
American contends that Plaintiffs’ fair representation claim must be dismissed given the participation of
former TWA pilots in the arbitration. See AMR’s Letter
Response [ECF No. 63] (citing, among other things, Del
Casal v. E. Airlines, Inc., 465 F. Supp. 1254 (S.D. Fla.
1979), aff’d, 634 F.2d 295 (5th Cir. 1981)). But the Del
Casal case is distinguishable. In Del Casal, the plaintiff had a union-provided attorney assist with his initial grievance process and the attorney later submitted
plaintiff’s grievance to the System Board of Adjustment. Id. at 1256. But after discovering the plaintiff
was not a member of the union, the attorney stopped
working with plaintiff and recommended that he retain
a private attorney to assist with the upcoming System
Board hearings. Id. at 1256. The plaintiff pursued a
duty of fair representation claim against the union for
discontinuing his representation, and the Del Casal
court agreed the union breached the duty of fair representation. Id. at 1259. But the plaintiff decided to continue with the System Board hearings after retaining
new non-union counsel of his choosing. Id. Because the

APP-216
plaintiff failed to allege the union attorney “could have
adduced additional evidence in appellant’s favor”
beyond that found by his privately retained attorney,
his complaints about the integrity of the Board’s
process based on his legal representation were “mere
conjecture and invalid.” Del Casal, 634 F.2d at 300.
Having litigated his position, therefore, the court rejected his wrongful discharge claim that was based on the
allegedly defective arbitration process. By contrast, the
Plaintiffs here allege they were effectively shut out of
the arbitration, including the selection of the Pilots
Committees who participated in the arbitration and
the retention of counsel for those committees. See
MSCompl. ¶¶ 26-36.10
Finally, American complains that the Plaintiffs
have not set forth the results of the arbitration. See
AMR’s Letter Response at 3-4 [ECF No. 63] (raising
concerns regarding the Court’s ability to evaluate the
results of the interest arbitration); see also Ghartey v.
St. John’s Queens Hosp., 869 F.2d 160, 163 (2d Cir.
1989) (finding results of arbitration relevant to duty of
fair representation claim as court should not have to
speculate on the outcome of an arbitration where alleg-

10

Indeed, unlike cases relied upon by American, it is unclear
whether Plaintiffs had the right to move to vacate the arbitration
award as they were not participants in the proceeding. See Air
Wisconsin Pilots Protection Comm. v. Sanderson, 909 F.2d 213 (7th
Cir. 1990); see also Musto v. Transp. Workers Union of Am. AFLCIO, 818 F. Supp. 2d 621, 640 (E.D.N.Y. 2011) (noting that a
“party who has litigated an issue before the Adjustment Board on
the merits may not relitigate that issue in an independent judicial
proceeding.”) (quoting Andrews v. Louisville & Nashville Railroad
Co., 406 U.S. 320, 324, 92 S. Ct. 1562, 32 L. Ed. 2d 95 (1972)).

APP-217
ed injury presumes harm from same); Kavowras v. New
York Times Co., 328 F.3d 50, 56 (2d Cir. 2003) (noting
plaintiff could not have been expected to bring suit
before outcome of arbitration and court should not be
compelled to adjudicate the same where efficacy of
union’s representation turned on arbitration outcome)
(citing Ghartey, 869 F.2d at 163). But it is enough to
remove the bar of finality here for Plaintiffs to allege a
breach of the duty of fair representation that “seriously
undermine[d] the integrity of the arbitral process” and
caused harm to the Plaintiffs.11 See Hines, 424 U.S. at
567; see also Kavowras, 328 F.3d at 53. Of course, such
claims are subject to the same strict standards as any
other duty of fair representation claims. See Williams,
874 F. Supp. at 716 (evidence must tend to establish
severely deficient union conduct required for breach);
Ash v. U.P.S., Inc., 800 F.2d 409, 411 (4th Cir. 1986).12
CONCLUSION
For the reasons stated above, the Court grants the
Motion in part, and denies it in part, dismissing the
allegations in ¶ 48 (A)-(D) from the Modified Supplemental Complaint without prejudice. The Defendants
shall settle an order on three days’ notice. The
11

See MSCompl. ¶ 36 (alleging that as a result of the
proposal adopted by the LOA 12-05 arbitrators, “the majority of
former TWA pilots lost their jobs in St. Louis, and because of their
lack of seniority, most of them are unable to hold equivalent jobs
at any of American’s other bases.”).
12

Given the conclusions reached in this decision, it is not
necessary for the Court to address the other arguments raised in
American’s motion, including American’s reliance on the NoerrPennington doctrine.

APP-218
proposed order must be submitted by filing a notice of
the proposed order on the Case Management/Electronic
Case Filing docket, with a copy of the proposed order
attached as an exhibit to the notice. A copy of the
notice and proposed order shall also be served upon
opposing counsel.

APP-219
JUNE 2014 BANKRUPTCY COURT DECISION
(Krakowski I)
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 2014 Bankr. LEXIS 2610, 199 L.R.R.M. 3584,
164 Lab. Cas. (CCH) P10,695, Adv. No. 13-01283
(Bankr. S.D.N.Y. June 3, 2014) (“Krakowski I”).
UNITED STATES BANKRUPTCY COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK
In re: AMR CORP., et al.,
Reorganized Debtors.
JOHN KRAKOWSKI, et al.,
individually and on behalf of
those similarly situated,
Plaintiffs,

Chapter 11
Case No. 11-15463
(SHL) (Confirmed)
Adv. No. 13-01283
(SHL)

v.
AMERICAN AIRLINES, INC.,
et al.,
Defendants.
June 3, 2014
Before Bankruptcy Judge Sean H. Lane
MEMORANDUM OF DECISION
Before the Court are two motions (the “Motions”) to
dismiss the complaint in the above-captioned advers-

APP-220
ary proceeding (the “Complaint”). Plaintiffs John Krakowski, Kevin Horner, and M. Alicia Sikes bring this
action on behalf of themselves and all persons similarly
situated. They allege that their union, the Allied Pilots
Association (the “APA”), breached its duty of fair representation in representing them and other pilots who
joined American Airlines, Inc. (“American”) when it
acquired Trans World Airlines, Inc. (“TWA”) in 2001.
The Plaintiffs further claim that American colluded
with the APA in breaching this duty.
The APA is the collective bargaining representative
for all pilots at American, of which the legacy TWA
pilots are a relatively small number. When joining
American in 2001, these legacy TWA pilots lost all or
much of their seniority in the integration of the two
work forces. To compensate for this loss, these pilots
were given special job opportunities at the St. Louis
hub of American. This so-called “protective fence” at
St. Louis was eliminated when American decided to
close the St. Louis hub as part of its bankruptcy
restructuring. The APA and American agreed to
appoint an arbitrator to decide how these pilots should
be compensated for the loss of the “protective fence” in
St. Louis. But the APA and American also agreed that,
when awarding relief, the arbitrator would not be
allowed to revisit the issue of these pilots’ loss of
seniority in 2001. The Plaintiffs contend that the APA
violated its duty of fair representation by taking
seniority off the table as a possible remedy in the arbitration. The Defendants APA and American, together
with the Official Committee of Unsecured Creditors as
Intervenor, move to dismiss the Complaint for failure
to state a claim, contending that the APA’s act cannot

APP-221
be arbitrary or discriminatory given the APA’s duty to
take into account the interests of all APA members.
The APA also argues that the Plaintiffs’ claims are
precluded by collateral estoppel because of prior litigation on these issues. For the reasons stated below, the
Court grants the Motions and dismisses the
Complaint.1
BACKGROUND
As it must on a motion to dismiss, the Court
assumes all the facts in the Complaint to be true. In
January 2001, American acquired the assets of TWA.
Complaint (“Compl.”) ¶ 7.2 Given this acquisition,
American and the APA negotiated how to integrate
legacy TWA pilots into the seniority lists for American’s pilots. Id. ¶ 8.3 The parties memorialized their

1

After the filings of these Motions, the Plaintiffs sought to
amend the Complaint to add additional allegations regarding the
arbitration, which was not complete when the Motions were filed.
See Motion for Leave to File Supplemental Complaint (ECF No.
32). For reasons explained at the hearing on these Motions, this
decision addresses only the Motions to dismiss the original
Complaint. See Hr'g Tr., June 13, 2013, 71:15-21 (ECF No. 30).
2

The Plaintiffs initially filed this case in the United States
District Court for the Eastern District of Missouri on May 24,
2012. The case was transferred to this Court in March 2013. The
Complaint can be found on the docket of the Missouri court under
Case Number 4:12-cv-00954 (JAR).
3

To understand the instant dispute, it is important to note
that seniority "has become one of the cornerstones of American
unionism … It is one of the chief protections a worker has from
management's vagaries, and it preserves the self-esteem and
financial security of workers. …" In re Royal Composing Room,

APP-222
agreement on the new seniority terms in Supplement
CC, an addendum to the collective bargaining agreement between American and the APA. Id. Supplement
CC completely subordinated the seniority of about
1,200 legacy TWA pilots to that of all American pilots.
Id. ¶ 9. For the remaining 1,100 legacy TWA pilots,
Supplement CC reduced and reintegrated their seniority with the American pilot seniority list. Id. To
compensate for this loss of seniority, Supplement CC
created a protective “fence” for these legacy TWA pilots
around the St. Louis airport, the former hub of TWA’s
operations. Id. ¶ 10. This fence created a minimum
number of Captain and First Officer positions at the
St. Louis airport and gave legacy TWA pilots preferential bidding for these positions. Id. This was beneficial to the legacy TWA pilots because they would face
difficulty bidding against American pilots with higher
seniority at other airports bases, where TWA Captains
could be demoted to First Officer positions, and First
Officers would be forced to stand “on call” for several
days in a row. Compl. ¶ 11.
The APA has “long desired to terminate Supplement CC.” Compl. ¶ 26. A former APA president made
promises as part of his election platform to remove the
St. Louis fence without restoring seniority to the legacy
TWA pilots. Compl. ¶ 26. Despite the perceived hostility against it, Supplement CC remained in effect until

Inc., 848 F.2d 345, 356 (2d Cir. 1988); see also Naugler v. Air Line
Pilots Ass'n, Int'l, 2008 U.S. Dist. LEXIS 25173, at *44 ("[S]eniority affect[s] virtually every aspect of the pilots' careers, including
determining who goes on furlough and who has rights to bid for
flying awards.").

APP-223
American’s Chapter 11 bankruptcy in 2011. As part of
their efforts to reorganize, the Debtors sought permission to abrogate American’s collective bargaining
agreement with the APA pursuant to Section 1113 of
the Bankruptcy Code. See 11 U.S.C. § 1113 (permitting
a debtor in possession to reject a CBA if, among other
things, it makes a proposal with modifications necessary for reorganization). Ultimately, the Court granted
Debtors’ application to reject their collective bargaining
agreement with the APA. See In re AMR Corp., 477
B.R. 384, 401 (Bankr. S.D.N.Y. 2012); In re AMR Corp.,
478 B.R. 599 (Bankr. S.D.N.Y. 2012). In the course of
negotiations for a new collective bargaining agreement,
the Debtors disclosed their intentions to close the
St. Louis hub and eliminate the protective fence
created by Supplement CC. Compl. ¶ 13.
During those negotiations, American initially
offered to ask an arbitrator to decide a remedy for the
legacy TWA pilots with no limit on the arbitrator’s
authority. Compl. ¶ 29. At the APA’s request, however,
American removed this from the proposed term sheet.
Id. Ultimately, the APA and American agreed to
submit the question of relief for the legacy TWA pilots
to binding arbitration, but to restrict the arbitrator
from modifying the legacy TWA pilots’ seniority.
Compl. ¶ 31.
There has been prior litigation regarding Supplement CC and the protective fence at the St. Louis hub.
Shortly after the execution of Supplement CC in 2002,
a class action was filed on behalf of legacy TWA pilots
against the APA and American, among others. See
Bensel v. Allied Pilots Association, 271 F. Supp. 2d 616

APP-224
(D.N.J. 2003).4 In Bensel, the pilots alleged that the
APA breached its duty of fair representation by negotiating and executing Supplement CC’s seniority integration. See Bensel Compl. ¶ 120 (ECF No. 14-2). They
alleged that the APA further breached the duty by
failing to “negotiate a fair and equitable integration of
the TWA pilots” after the National Mediation Board
certified the APA as the bargaining representative of
the combined American pilots, including the former
TWA pilots. Bensel Compl. ¶ 125. The district court
granted summary judgment in favor of the APA with
respect to the duty of fair representation claim. The
court in Bensel found that the APA owed no duty to the
TWA pilots at the time of negotiation because the APA
was not yet the certified bargaining representative for
the legacy TWA pilots, and once the APA was their
representative, there was “nothing to negotiate”
because Supplement CC was already in effect. Bensel,
271 F. Supp. 2d at 625, aff’d in relevant part by 387
F.3d 298, 312-17.
DISCUSSION
To survive a motion to dismiss under Rule 12(b)(6),
a plaintiff’s complaint must plead “enough facts to

4

The legacy TWA pilots also brought suit against their
former union, the Air Line Pilots Association ("ALPA"), which
represented them until American's purchase of TWA. The district
court granted summary judgment in favor of the ALPA, but the
Third Circuit reversed and remanded with respect to that claim.
See Bensel v. Allied Pilots Association ("Bensel II"), 387 F.3d 298,
304 (3d Cir. 2004). The ultimate resolution of that lawsuit is not
relevant to this decision.

APP-225
state a claim to relief that is plausible on its face.”5 Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct.
1955, 167 L. Ed. 2d 929 (2007). These facts must
establish “more than a sheer possibility that a defendant has acted unlawfully.” Ashcroft v. Iqbal, 556 U.S.
662, 677, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2007).
“However, this does not mean that a claim must
contain ‘detailed factual allegations’ to survive a Rule
12(b)(6) motion to dismiss.” Eastman Chem. Co. v.
Nestlé Waters Mgmt. & Tech., 2012 U.S. Dist. LEXIS
141281, at *14 (S.D.N.Y. Sept. 28, 2012). In ruling on
the motion, a court must “assum[e] that all the
allegations in the complaint are true.” Id. at 555. But
courts need not “credit conclusory allegations or legal
conclusions couched as factual allegations.” Rothstein
v. UBS AG, 708 F.3d 82, 94 (2d Cir. 2013). Ultimately,
the court must determine “whether the well-pleaded
factual allegations, assumed to be true, plausibly give
rise to an entitlement to relief.” Hayden v. Paterson,
594 F.3d 150, 161 (2d Cir. 2010) (citing Iqbal, 556 U.S.
at 679) (emphasis added).
In addition to the facts alleged in the Complaint,
the Defendants request that the Court take judicial
notice of certain documents referenced in the
Complaint. More specifically, the Defendants request
that the Court take judicial notice of the filings in the
Bensel case and the record in this Chapter 11 case. See
Motion at 2, 8 (ECF No. 14); Hr’g Tr., June 13, 2013,
16:20-17:15 (ECF No. 30). Federal Rule of Evidence
5

Federal Rule of Bankruptcy Procedure 7012(b) incorporates Federal Rule of Civil Procedure 12(b)(6) into adversary
proceedings in bankruptcy.

APP-226
201(b) allows a court to take judicial notice of a fact
that is not subject to reasonable dispute. Judicial
notice is appropriate where a fact “(1) is generally
known within the trial court’s territorial jurisdiction;
or (2) can be accurately and readily determined from
sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b); cf. Cortec Indus., Inc. v. Sum
Holding, L.P., 949 F.2d 42, 47 (2d Cir. 1991) (“Where
[the respondent] has actual notice of all the information in the movant’s papers and has relied upon [outside] documents in framing the complaint,” the court
may rely upon those outside documents in deciding the
motion to dismiss without converting the Rule 12(b)(6)
motion to a Rule 56 motion). As these documents are of
a type appropriate for judicial notice and the Plaintiffs
have not opposed this request, Hr’g Tr. 49:13-50:18, the
Court will take judicial notice of these documents and
consider them in reviewing the Motions.
A. The Duty of Fair Representation
Under the duty of fair representation, a union must
represent employees adequately, honestly, and in good
faith. Air Line Pilots Ass’n, Intern. v. O’Neill, 499 U.S.
65, 75, 111 S. Ct. 1127, 113 L. Ed. 2d 51 (1991). While
the duty of fair representation extends to negotiations
between the union and the employer, a court cannot
substitute its own views of a proper negotiating strategy for the judgment of the union. O’Neill, 499 U.S. at
78. Judicial review of a union’s negotiations with the
employer must therefore defer to the judgment of the
union. Id. (the deferential standard “recogniz[es] the
wide latitude that negotiators need for the effective
performance of their bargaining responsibilities.”). But
evidence of discrimination, arbitrariness, or bad faith

APP-227
serves to prove that a union violated its duty. See Vaca
v. Sipes, 386 U.S. 171, 190, 87 S. Ct. 903, 17 L. Ed. 2d
842 (1967). A plaintiff must also establish that such
wrongful conduct caused him or her harm. Vaughn,
604 F.3d at 709.
A union’s actions are discriminatory if they were
“intentional, severe, and unrelated to legitimate union
objectives.” Amalgamated Ass’n of St., Elec., Ry., and
Motor Coach Emps. of Am. v. Lockridge, 403 U.S. 274,
301, 91 S. Ct. 1909, 29 L. Ed. 2d 473 (1971); see also
Nikci v. Quality Bldg. Servs., 995 F. Supp. 2d 240, 2014
U.S. Dist. LEXIS 10323, at *17 n.4 (S.D.N.Y. Jan. 27,
2014) (dismissing complaint for failure to allege the
Lockridge factors). “There is no requirement that
unions treat their members identically as long as their
actions are related to legitimate union objectives.”
Vaughn v. Air Line Pilots Ass’n Int’l, 604 F.3d 703, 712
(2d Cir. 2010). The Supreme Court in O’Neill found
that discrimination in the form of granting one union
member seniority over another similarly situated
member did not per se violate a union’s duty of fair
representation. O’Neill, 499 U.S. at 81. Rather, discrimination is improper where the union prefers or
disparages the union members based upon characteristics that are irrelevant to legitimate union objectives.
See Jones v. Trans World Airlines, 495 F.2d 790,
797-98 (2d Cir. 1974) (union membership alone is not
proper ground for union to determine seniority); Wolf
Trap Foundation for the Performing Arts, 287 N.L.R.B.
1040, 1059 (1988) (finding discrimination where union
singled out an employee only because she was female
and a non-union member).

APP-228
A union acts in an improperly arbitrary way “only
if, in light of the factual and legal landscape at the
time of the union’s actions, the union’s behavior is so
far outside a wide range of reasonableness as to be
irrational.” Vaughn, 604 F.3d at 708 (quoting O’Neill,
499 U.S. at 67). Courts must review a union’s actions
“in light of both the facts and the legal climate that
confronted the negotiators at the time the decision was
made.” Id. In hindsight, a union’s decision may “appear
to the losing employee to have been erroneous,” but
“tactical errors are insufficient to show a breach of the
duty of fair representation.” Barr v. United Parcel
Serv., Inc., 868 F.2d 36, 43 (2d Cir. 1989).
To state a claim for bad faith, a plaintiff must allege
that the union engaged in fraud, dishonesty, or other
intentionally misleading conduct with an improper
intent, purpose, or motive. See Vaughn, 604 F.3d at
709-10 (cited in Summary Order, Bejjani v. Manhattan
Sheraton Corp., No. 13-2860, 567 Fed. Appx. 60, 2014
U.S. App. LEXIS 9684 (ECF No. 69) (2d Cir. May 27,
2014)).
B. Counts 1 and 2 Fail to State a Claim
In Count 1, the Plaintiffs allege that the APA
breached its duty of fair representation by agreeing to
terminate Supplement CC and to limit any potential
relief from altering the seniority of legacy TWA pilots.
Compl. ¶ 28. The Plaintiffs contend in Count 1 that
“the agreement is the product of APA’s hostility toward
the former TWA pilots, is facially discriminatory
against them, and is so unreasonable as to be arbitrary.” Compl. ¶ 28. At the hearing, the Plaintiffs’
counsel confirmed their position that, regardless of the

APP-229
result of the arbitration, the agreement itself violated
the APA’s duty because it precluded restoring seniority
as a possible remedy. See Hr’g Tr. 44:16-20 (ECF No.
30) (“The Court: Let me ask what the crux of the
alleged discrimination is … the interest arbitration is
problematic before it ever occurs, because it takes [the
seniority issue] off the table / Mr. Press: That’s true.
You’ve characterized it properly.”). Thus, the Plaintiffs’
position is that the only satisfactory remedy in arbitration requires modifying the seniority of the legacy TWA
pilots. But the Court does not agree.
Reopening seniority affects all pilots at American
that are represented by the APA, not just the Plaintiffs. See Hr’g Tr. 36:4-6, 36:13-18 (“[S]eniority is a zero
sum game … if someone’s bumped up, someone else
goes down.”). In deciding whether to allow seniority to
be reopened, therefore, the APA necessarily was
required to balance the interests of the Plaintiffs and
all the other pilots that the APA represents. Based on
the allegations in the Complaint, however, it is unclear
how the APA’s exercise of its discretion on that issue
was discriminatory. Courts have recognized that many
decisions made by a union require the union to make
distinctions among employees, but that these distinctions do not necessarily constitute discrimination. See
Ford Motor Co. v. Huffman, 345 U.S. 330, 338-39, 73
S. Ct. 681, 97 L. Ed. 1048 (1953) (“Variations acceptable in the discretion of bargaining representatives …
may well include differences based upon such matters
as the unit within which seniority is to be computed,
the nature of the work, the time at which it is done.
…”); see also Vaughn, 604 F.3d at 712 (“Without additional evidence that the union intended to discriminate

APP-230
against plaintiffs, the mere fact that older pilots were
disproportionally affected is not sufficient to show that
the [union] acted in a discriminatory manner.”);
Bejjani v. Manhattan Sheraton Corp., 2013 U.S.Dist.
LEXIS 90467, at *21-22 (S.D.N.Y. June 27, 2013)
(“[U]nion actions that reveal good faith trade-offs
among employee constituencies do not give rise to
[duty of fair representation] claims.”).
The Plaintiffs’ case is further weakened because
they complain of a refusal to disturb existing seniority.
Here, the APA agreed to arbitration to determine a
remedy for TWA pilots who lost the Supplement CC
protections, but limited that remedy so as not to reopen
seniority issues resolved in 2001. Thus, the APA’s
actions that are the subject of this lawsuit did not
remove the seniority of the legacy TWA pilots; that
seniority was lost more than a decade ago. Rather, the
APA decided to replicate the job protections of the
St. Louis protective fence through an arbitration that
does not address seniority. The Plaintiffs have not
alleged anything that would allow the Court to infer
that the APA intended to unlawfully discriminate
against the legacy TWA pilots or that the APA made
this decision without some legitimate union objective.
The timing of this case also highlights another problem with the Plaintiffs’ claim. The Plaintiffs filed the
Complaint before completing arbitration, so there was
no result in that process at the time of filing. Prior to
completing arbitration, though, the actual harm to the
Plaintiffs is speculative, as conceded at the hearing:
Mr. Press: If my clients go out into the American
Airlines’ system, to a different base and try to

APP-231
bid for work, they will not be—existing captains
won’t be able to fly captain; senior first officers
will be on reserve.
The Court: Well, how do we know any of this, if
the interest arbitration hasn’t reached a result
yet?
Mr. Press: It’s an excellent point, Judge, and I
can only say we don’t. …
The Court: So the only thing we have thus far is
the notion that seniority’s been taken off the
table, right?
Mr. Press: True.
Hr’g Tr. 46:15-47:2. For purposes of these Motions
therefore, the Plaintiffs are arguing that none of the
possible remedies in that process—remedies that presumably include all manner of job protections—could
ever be sufficient. Absent more, however, the Court has
no basis to conclude that the parameters of the arbitration are a sufficient basis for a claim for unlawful
discrimination. Aside from the Plaintiffs’ conclusory
statements about the APA’s acts being discriminatory,
therefore, the Complaint lacks factual allegations sufficient to state a claim as to why the APA’s position was
unrelated to legitimate union objectives or so far outside the range of reasonableness as to be irrational. See
Rothstein, 708 F.3d at 94 (conclusory allegations are
insufficient for proper pleadings); see also Lockridge,
403 U.S. at 301.66Link to the text of the note
6

The Complaint's only allegation in this regard is that the
APA's was hostile to Supplement CC. But that does not suffice, in

APP-232
For these same reasons, the Complaint also fails to
sufficiently allege why the APA’s actions were arbitrary or in bad faith. Once again, the Complaint’s allegations are very general. See Compl. ¶ 28 (“This agreement … is so unreasonable as to be arbitrary”). The
Complaint says only that the arbitration was the product of negotiations between the APA and American.
See Compl. ¶ 16 (the legacy TWA pilot seniority was
one of “dozens of contract items being negotiated by
American and APA”); see also Compl. ¶¶ 29-32. But the
Court must extend “the wide latitude that negotiators
need” to all of the items that the APA addressed during
the collective bargaining negotiations with American,
including the arbitration. O’Neill, 499 U.S. at 78. The
Complaint here does not allege facts that would plausibly state a claim given the broad latitude that the
Court must extend to such collective bargaining negotiations. The Plaintiffs fail to allege any facts that
plausibly show that the arbitration, as part of the
APA’s negotiation strategy, falls “so far outside a wide
range of reasonableness as to be irrational.” O’Neill,
499 U.S. at 67 (internal citation omitted).
Indeed, the Second Circuit has recognized that
sending a contentious seniority dispute to arbitration
was “an equitable and reasonable method of resolving
[the dispute].” See Gvozdenovic v. United Air Lines,
Inc., 933 F.2d 1100, 1107 (2d Cir. 1991) (affirming

and of itself, to state of claim that the APA's actions here were
discriminatory—that is, unrelated to any legitimate union
objective—given that the decision to close the St. Louis hub and
end Supplement CC was made by American, not the APA. See
Compl. ¶¶ 24-26, 28.

APP-233
district court’s finding that union fairly represented
employees under arbitration agreement). The Plaintiffs
have not alleged anything from which the Court can
infer that the APA’s decision was arbitrary given the
factual and legal landscape surrounding that decision.
See Spellacy v. Airline Pilots Association-International,
156 F.3d 120, 129 (2d Cir. 1998) (“A union’s reasoned
decision to support the interests of one group of
employees over the competing interests of another
group does not constitute arbitrary conduct.”); Bejjani,
2013 U.S. Dist. LEXIS 90467, at *21 (“[U]nion actions
that reveal good faith trade-offs among employee
constituencies do not give rise to [duty of fair representation] claims.”).
The Complaint is also deficient with respect any
claim of bad faith. It does not allege facts that suggest
the APA engaged in fraud, dishonesty, or misleading
conduct, nor that it was acting with an improper
intent, purpose, or motive. See, e.g., Lindsay v. Ass’n of
Prof’l Flight Attendants, 581 F.3d 47, 62 (2d Cir. N.Y.
2009) (finding no evidence to infer union acted in bad
faith when it chose telephonic voting procedures
because the vote was time-sensitive); Mullen v. Bevona,
1999 U.S. Dist. LEXIS 16434, at *9 (S.D.N.Y. Oct. 26,
1999) (“Plaintiff has offered the Court no reason to
believe that defendant targeted him for inferior treatment, nor that it sought … to benefit itself at the
expense of its members by providing unlicensed attorneys at grievance hearings.”).
Turning to Count 2, the Plaintiffs allege that American colluded with the APA to produce a breach in the
union’s duty of fair representation. Where a union fails
to fulfill its duty of fair representation, an employer

APP-234
may also be liable if the employee can show “that the
employer’s conduct somehow contributed to the union’s
breach.” Steffens v. Brotherhood of Railway, Airline &
Steamship Clerks, Freight Handlers, Express and
Station Employees, 797 F.2d 442, 445 (7th Cir. 1986);
O’Mara v. Erie Lackawanna R. Co., 407 F.2d 674, 679
(2d Cir. 1969) (if union “acted from a motive to
discriminate or with knowledge that the (union) was
discriminating,” then the plaintiff may hold the employer liable for damages suffered by the plaintiff) (internal citations omitted), aff’d sub nom, Czosek v. O’Mara,
397 U.S. 25, 90 S. Ct. 770, 25 L. Ed. 2d 21 (1970). But
the union’s breach of its duty of fair representation is
an essential element to establish a claim of an employer’s collusion. See United Indep. Flight Officers, Inc.
v. United Air Lines, Inc., 756 F.2d 1274, 1283 (7th Cir.
1985). As the Court concludes that the Plaintiffs have
failed to state a claim that the APA has breached its
duty, the Court must also conclude that no claim has
been stated against American for collusion. Id.
C. The Court Declines to Rehear the Issue of
Collateral Estoppel
The APA argues that the Complaint’s allegations
are barred under the doctrine of collateral estoppel.
But given the Court’s conclusion above, the Court does
not need to decide this issue. The Court does note,
however, that this collateral estoppel argument has
previously been invoked—and rejected—by the
Missouri Court that transferred these proceedings
here. Before transferring this dispute to this Court, the
District Court for the Eastern District of Missouri
heard arguments on this issue and ruled that the
action was not barred by collateral estoppel. See

APP-235
Memorandum and Order of Judge Ross, Mar. 4, 2013
(ECF No. 1). Given this decision of the Missouri Court,
the “law of the case” doctrine would appear to preclude
a rehearing of this issue because “when a court decides
upon a rule of law, that decision should continue to
govern the same issues in the subsequent stages in the
same case.” Arizona v. California, 460 U.S. 605, 618,
103 S. Ct. 1382, 75 L. Ed. 2d 318 (1983); Lillbask ex rel.
Mauclaire v. State of Conn. Dept. of Educ., 397 F.3d 77,
94 (2d Cir. 2005) (a court may, within its discretion,
refrain from reopening a ruling previously made by
another judge or another court in the same case).
CONCLUSION
For the reasons stated above, the Court grants the
Defendants’ Motions and dismisses the Complaint. The
Defendants shall settle an order on three days’ notice.
The parties are directed to confer regarding the proper
way to proceed on the pending motion to amend the
Complaint. After conferring, the parties shall be prepared to discuss further proceedings at the conference
currently scheduled on June 5, 2014 at 2:00PM.

APP-236
DENIAL OF REHEARING
AND REHEARING EN BANC
Krakowski v. Allied Pilots Association, Docket Nos.
19-3506 (L), 19-4378 (Con.), Case 19-3506 Document
156 (March 24, 2021)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
IN RE: AMR CORP.,
Debtor,

No. 19-3506(L)
No. 19-4378(CON)

JOHN KRAKOWSKI, et al.,
Plaintiffs-Appellants

D.C. No. 17-CV-03237
(KMW)

v.
ALLIED PILOTS ASSOC.,
AMERICAN AIRLINES, INC.
Defendants-Appellees.

D.C. No. 18-cv-06187
(LAK)
UNPUBLISHED
OPINION

Appeal from the United States District Court
for the Southern District of New York
District Judges Kimba Wood and Lewis A. Kaplan
March 24, 2021
On Petition for Rehearing or Rehearing En Banc

APP-237
ORDER
Appellants, Kevin Horner, John Krakowshi, and M.
Alicia Sikes, filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

APP-238
45 U.S.C. § 152
First. Duty of carriers and employees to settle
disputes
It shall be the duty of all carriers, their officers,
agents, and employees to exert every reasonable effort
to make and maintain agreements concerning rates of
pay, rules, and working conditions, and to settle all
disputes, whether arising out of the application of such
agreements or otherwise, in order to avoid any interruption to commerce or to the operation of any carrier
growing out of any dispute between the carrier and the
employees thereof.
Second. Consideration of disputes by representatives
All disputes between a carrier or carriers and its or
their employees shall be considered, and, if possible,
decided, with all expedition, in conference between
representatives designated and authorized so to confer,
respectively, by the carrier or carriers and by the
employees thereof interested in the dispute.
Third. Designation of representatives
Representatives, for the purposes of this chapter,
shall be designated by the respective parties without
interference, influence, or coercion by either party over
the designation of representatives by the other; and
neither party shall in any way interfere with, influence, or coerce the other in its choice of representatives. Representatives of employees for the purposes of
this chapter need not be persons in the employ of the
carrier, and no carrier shall, by interference, influence,
or coercion seek in any manner to prevent the designa-

APP-239
tion by its employees as their representatives of those
who or which are not employees of the carrier.
Fourth. Organization and collective bargaining;
freedom from interference by carrier; assistance in
organizing or maintaining organization by carrier
forbidden; deduction of dues from wages forbidden
Employees shall have the right to organize and
bargain collectively through representatives of their
own choosing. The majority of any craft or class of
employees shall have the right to determine who shall
be the representative of the craft or class for the
purposes of this chapter. No carrier, its officers, or
agents shall deny or in any way question the right of
its employees to join, organize, or assist in organizing
the labor organization of their choice, and it shall be
unlawful for any carrier to interfere in any way with
the organization of its employees, or to use the funds of
the carrier in maintaining or assisting or contributing
to any labor organization, labor representative, or
other agency of collective bargaining, or in performing
any work therefor, or to influence or coerce employees
in an effort to induce them to join or remain or not to
join or remain members of any labor organization, or to
deduct from the wages of employees any dues, fees,
assessments, or other contributions payable to labor
organizations, or to collect or to assist in the collection
of any such dues, fees, assessments, or other contributions: Provided, That nothing in this chapter shall be
construed to prohibit a carrier from permitting an
employee, individually, or local representatives of
employees from conferring with management during
working hours without loss of time, or to prohibit a
carrier from furnishing free transportation to its

APP-240
employees while engaged in the business of a labor
organization.
Fifth. Agreements to join or not to join labor organizations forbidden
No carrier, its officers, or agents shall require any
person seeking employment to sign any contract or
agreement promising to join or not to join a labor
organization; and if any such contract has been
enforced prior to the effective date of this chapter, then
such carrier shall notify the employees by an appropriate order that such contract has been discarded and
is no longer binding on them in any way.
Sixth. Conference of representatives; time; place;
private agreements
In case of a dispute between a carrier or carriers
and its or their employees, arising out of grievances or
out of the interpretation or application of agreements
concerning rates of pay, rules, or working conditions, it
shall be the duty of the designated representative or
representatives of such carrier or carriers and of such
employees, within ten days after the receipt of notice of
a desire on the part of either party to confer in respect
to such dispute, to specify a time and place at which
such conference shall be held: Provided, (1) That the
place so specified shall be situated upon the line of the
carrier involved or as otherwise mutually agreed upon;
and (2) that the time so specified shall allow the designated conferees reasonable opportunity to reach such
place of conference, but shall not exceed twenty days
from the receipt of such notice: And provided further,
That nothing in this chapter shall be construed to

APP-241
supersede the provisions of any agreement (as to
conferences) then in effect between the parties.
Seventh. Change in pay, rules, or working conditions contrary to agreement or to section 156 forbidden
No carrier, its officers, or agents shall change the
rates of pay, rules, or working conditions of its employees, as a class, as embodied in agreements except in
the manner prescribed in such agreements or in section
156 of this title.
Eighth. Notices of manner of settlement of disputes;
posting
Every carrier shall notify its employees by printed
notices in such form and posted at such times and
places as shall be specified by the Mediation Board
that all disputes between the carrier and its employees
will be handled in accordance with the requirements of
this chapter, and in such notices there shall be printed
verbatim, in large type, the third, fourth, and fifth
paragraphs of this section. The provisions of said paragraphs are made a part of the contract of employment
between the carrier and each employee, and shall be
held binding upon the parties, regardless of any other
express or implied agreements between them.
Ninth. Disputes as to identity of representatives;
designation by Mediation Board; secret elections
If any dispute shall arise among a carrier’s employees as to who are the representatives of such
employees designated and authorized in accordance
with the requirements of this chapter, it shall be the
duty of the Mediation Board, upon request of either
party to the dispute, to investigate such dispute and to

APP-242
certify to both parties, in writing, within thirty days
after the receipt of the invocation of its services, the
name or names of the individuals or organizations that
have been designated and authorized to represent the
employees involved in the dispute, and certify the same
to the carrier. Upon receipt of such certification the
carrier shall treat with the representative so certified
as the representative of the craft or class for the
purposes of this chapter. In such an investigation, the
Mediation Board shall be authorized to take a secret
ballot of the employees involved, or to utilize any other
appropriate method of ascertaining the names of their
duly designated and authorized representatives in such
manner as shall insure the choice of representatives by
the employees without interference, influence, or
coercion exercised by the carrier. In the conduct of any
election for the purposes herein indicated the Board
shall designate who may participate in the election and
establish the rules to govern the election, or may
appoint a committee of three neutral persons who after
hearing shall within ten days designate the employees
who may participate in the election. In any such
election for which there are 3 or more options (including the option of not being represented by any labor
organization) on the ballot and no such option receives
a majority of the valid votes cast, the Mediation Board
shall arrange for a second election between the options
receiving the largest and the second largest number of
votes. The Board shall have access to and have power
to make copies of the books and records of the carriers
to obtain and utilize such information as may be
deemed necessary by it to carry out the purposes and
provisions of this paragraph.

APP-243
Tenth. Violations; prosecution and penalties
The willful failure or refusal of any carrier, its
officers or agents, to comply with the terms of the
third, fourth, fifth, seventh, or eighth paragraph of this
section shall be a misdemeanor, and upon conviction
thereof the carrier, officer, or agent offending shall be
subject to a fine of not less than $1,000, nor more than
$20,000, or imprisonment for not more than six
months, or both fine and imprisonment, for each
offense, and each day during which such carrier,
officer, or agent shall willfully fail or refuse to comply
with the terms of the said paragraphs of this section
shall constitute a separate offense. It shall be the duty
of any United States attorney to whom any duly designated representative of a carrier’s employees may
apply to institute in the proper court and to prosecute
under the direction of the Attorney General of the
United States, all necessary proceedings for the
enforcement of the provisions of this section, and for
the punishment of all violations thereof and the costs
and expenses of such prosecution shall be paid out of
the appropriation for the expenses of the courts of the
United States: Provided, That nothing in this chapter
shall be construed to require an individual employee to
render labor or service without his consent, nor shall
anything in this chapter be construed to make the
quitting of his labor by an individual employee an
illegal act; nor shall any court issue any process to
compel the performance by an individual employee of
such labor or service, without his consent.

APP-244
Eleventh. Union security agreements; check-off
Notwithstanding any other provisions of this
chapter, or of any other statute or law of the United
States, or Territory thereof, or of any State, any carrier
or carriers as defined in this chapter and a labor organization or labor organizations duly designated and
authorized to represent employees in accordance with
the requirements of this chapter shall be permitted—
(a) to make agreements, requiring, as a condition of
continued employment, that within sixty days following the beginning of such employment, or the effective
date of such agreements, whichever is the later, all
employees shall become members of the labor organization representing their craft or class: Provided, That
no such agreement shall require such condition of
employment with respect to employees to whom
membership is not available upon the same terms and
conditions as are generally applicable to any other
member or with respect to employees to whom
membership was denied or terminated for any reason
other than the failure of the employee to tender the
periodic dues, initiation fees, and assessments (not
including fines and penalties) uniformly required as a
condition of acquiring or retaining membership.
(b) to make agreements providing for the deduction
by such carrier or carriers from the wages of its or
their employees in a craft or class and payment to the
labor organization representing the craft or class of
such employees, of any periodic dues, initiation fees,
and assessments (not including fines and penalties)
uniformly required as a condition of acquiring or
retaining membership: Provided, That no such agree-

APP-245
ment shall be effective with respect to any individual
employee until he shall have furnished the employer
with a written assignment to the labor organization of
such membership dues, initiation fees, and assessments, which shall be revocable in writing after the
expiration of one year or upon the termination date of
the applicable collective agreement, whichever occurs
sooner.
(c) The requirement of membership in a labor
organization in an agreement made pursuant to subparagraph (a) of this paragraph shall be satisfied, as to
both a present or future employee in engine, train,
yard, or hostling service, that is, an employee engaged
in any of the services or capacities covered in the First
division of paragraph (h) of section 153 of this title
defining the jurisdictional scope of the First Division of
the National Railroad Adjustment Board, if said
employee shall hold or acquire membership in any one
of the labor organizations, national in scope, organized
in accordance with this chapter and admitting to
membership employees of a craft or class in any of said
services; and no agreement made pursuant to subparagraph (b) of this paragraph shall provide for deductions
from his wages for periodic dues, initiation fees, or
assessments payable to any labor organization other
than that in which he holds membership: Provided,
however, That as to an employee in any of said services
on a particular carrier at the effective date of any such
agreement on a carrier, who is not a member of any
one of the labor organizations, national in scope, organized in accordance with this chapter and admitting to
membership employees of a craft or class in any of said
services, such employee, as a condition of continuing

APP-246
his employment, may be required to become a member
of the organization representing the craft in which he
is employed on the effective date of the first agreement
applicable to him: Provided, further, That nothing
herein or in any such agreement or agreements shall
prevent an employee from changing membership from
one organization to another organization admitting to
membership employees of a craft or class in any of said
services.
(d) Any provisions in paragraphs Fourth and Fifth
of this section in conflict herewith are to the extent of
such conflict amended.
Twelfth. Showing of interest for representation
elections
The Mediation Board, upon receipt of an application
requesting that an organization or individual be certified as the representative of any craft or class of
employees, shall not direct an election or use any other
method to determine who shall be the representative of
such craft or class unless the Mediation Board determines that the application is supported by a showing
of interest from not less than 50 percent of the employees in the craft or class.
(May 20, 1926, ch. 347, § 2, 44 Stat. 577; June 21,
1934, ch. 691, § 2, 48 Stat. 1186; June 25, 1948, ch.
646, § 1, 62 Stat. 909; Jan. 10, 1951, ch. 1220, 64 Stat.
1238; Pub. L. 112–95, title X, §§ 1002, 1003, Feb. 14,
2012, 126 Stat. 146, 147.)

APP-247
11 U.S.C. § 1113
Rejection of collective bargaining agreements
(a) The debtor in possession, or the trustee if one
has been appointed under the provisions of this chapter, other than a trustee in a case covered by subchapter IV of this chapter and by title I of the Railway
Labor Act, may assume or reject a collective bargaining
agreement only in accordance with the provisions of
this section.
(b)(1) Subsequent to filing a petition and prior to
filing an application seeking rejection of a collective
bargaining agreement, the debtor in possession or
trustee (hereinafter in this section “trustee” shall
include a debtor in possession), shall—
(A) make a proposal to the authorized
representative of the employees covered by such
agreement, based on the most complete and
reliable information available at the time of
such proposal, which provides for those necessary modifications in the employees benefits and
protections that are necessary to permit the
reorganization of the debtor and assures that all
creditors, the debtor and all of the affected
parties are treated fairly and equitably; and
(B) provide, subject to subsection (d)(3),
the representative of the employees with such
relevant information as is necessary to evaluate
the proposal.
(2) During the period beginning on the date of
the making of a proposal provided for in paragraph (1)
and ending on the date of the hearing provided for in

APP-248
subsection (d)(1), the trustee shall meet, at reasonable
times, with the authorized representative to confer in
good faith in attempting to reach mutually satisfactory
modifications of such agreement.
(c) The court shall approve an application for rejection of a collective bargaining agreement only if the
court finds that—
(1) the trustee has, prior to the hearing, made a
proposal that fulfills the requirements of subsection
(b)(1);
(2) the authorized representative of the employees has refused to accept such proposal without good
cause; and
(3) the balance of the equities clearly favors
rejection of such agreement.
(d)(1) Upon the filing of an application for rejection
the court shall schedule a hearing to be held not later
than fourteen days after the date of the filing of such
application. All interested parties may appear and be
heard at such hearing. Adequate notice shall be provided to such parties at least ten days before the date of
such hearing. The court may extend the time for the
commencement of such hearing for a period not exceeding seven days where the circumstances of the case,
and the interests of justice require such extension, or
for additional periods of time to which the trustee and
representative agree.
(2) The court shall rule on such application for
rejection within thirty days after the date of the
commencement of the hearing. In the interests of
justice, the court may extend such time for ruling for

APP-249
such additional period as the trustee and the employees’ representative may agree to. If the court does not
rule on such application within thirty days after the
date of the commencement of the hearing, or within
such additional time as the trustee and the employees’
representative may agree to, the trustee may terminate or alter any provisions of the collective bargaining
agreement pending the ruling of the court on such
application.
(3) The court may enter such protective orders,
consistent with the need of the authorized representative of the employee to evaluate the trustee’s proposal
and the application for rejection, as may be necessary
to prevent disclosure of information provided to such
representative where such disclosure could compromise
the position of the debtor with respect to its competitors in the industry in which it is engaged.
(e) If during a period when the collective bargaining
agreement continues in effect, and if essential to the
continuation of the debtor’s business, or in order to
avoid irreparable damage to the estate, the court, after
notice and a hearing, may authorize the trustee to
implement interim changes in the terms, conditions,
wages, benefits, or work rules provided by a collective
bargaining agreement. Any hearing under this paragraph shall be scheduled in accordance with the needs
of the trustee. The implementation of such interim
changes shall not render the application for rejection
moot.
(f) No provision of this title shall be construed to
permit a trustee to unilaterally terminate or alter any

APP-250
provisions of a collective bargaining agreement prior to
compliance with the provisions of this section.
(Added Pub. L. 98–353, title III, § 541(a), July 10,
1984, 98 Stat. 390.)

